<html>
<title> - THE COST OF DOING NOTHING: WHY FULL UTILIZATION OF THE HARBOR MAINTENANCE TRUST FUND AND INVESTMENT IN OUR NATION'S WATERWAYS MATTER</title>
<body><pre>[House Hearing, 116 Congress]
[From the U.S. Government Publishing Office]


     THE COST OF DOING NOTHING: WHY FULL UTILIZATION OF THE HARBOR 
 MAINTENANCE TRUST FUND AND INVESTMENT IN OUR NATION'S WATERWAYS MATTER

=======================================================================

                                (116-12)

                                HEARING

                               BEFORE THE

                            SUBCOMMITTEE ON
                    WATER RESOURCES AND ENVIRONMENT

                                 OF THE

                              COMMITTEE ON
                   TRANSPORTATION AND INFRASTRUCTURE
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED SIXTEENTH CONGRESS

                             FIRST SESSION

                               __________

                             APRIL 10, 2019

                               __________

                       Printed for the use of the
             Committee on Transportation and Infrastructure
             
             
 [GRAPHIC NOT AVAILABLE IN TIFF FORMAT]            


     Available online at: https://www.govinfo.gov/committee/house-
     transportation?path=/browsecommittee/chamber/house/committee/
                             transportation


                               __________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
37-030 PDF                  WASHINGTON : 2019                     
          
--------------------------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center,
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free).
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="63130c23001610170b060f134d000c0e4d">[email&#160;protected]</a>      



             COMMITTEE ON TRANSPORTATION AND INFRASTRUCTURE

                     PETER A. FAZIO, Oregon, Chair

ELEANOR HOLMES NORTON,               SAM GRAVES, Missouri
  District of Columbia               DON YOUNG, Alaska
EDDIE BERNICE JOHNSON, Texas         ERIC A. ``RICK'' CRAWFORD, 
ELIJAH E. CUMMINGS, Maryland         Arkansas
RICK LARSEN, Washington              BOB GIBBS, Ohio
GRACE F. NAPOLITANO, California      DANIEL WEBSTER, Florida
DANIEL LIPINSKI, Illinois            THOMAS MASSIE, Kentucky
STEVE COHEN, Tennessee               MARK MEADOWS, North Carolina
ALBIO SIRES, New Jersey              SCOTT PERRY, Pennsylvania
JOHN GARAMENDI, California           RODNEY DAVIS, Illinois
HENRY C. ``HANK'' JOHNSON, Jr.,      ROB WOODALL, Georgia
Georgia                              JOHN KATKO, New York
ANDRE CARSON, Indiana                BRIAN BABIN, Texas
DINA TITUS, Nevada                   GARRET GRAVES, Louisiana
SEAN PATRICK MALONEY, New York       DAVID ROUZER, North Carolina
JARED HUFFMAN, California            MIKE BOST, Illinois
JULIA BROWNLEY, California           RANDY K. WEBER, Texas
FREDERICA S. WILSON, Florida         DOUG MALFA, California
DONALD M. PAYNE, Jr., New Jersey     BRUCE WESTERMAN, Arkansas
ALAN S. LOWENTHAL, California        LLOYD SMUCKER, Pennsylvania
MARK SAULNIER, California            PAUL MITCHELL, Michigan
STACEY E. PLASKETT, Virgin Islands   BRIAN J. MAST, Florida
STEPHEN F. LYNCH, Massachusetts      MIKE GALLAGHER, Wisconsin
SALUD O. CARBAJAL, California, Vice  GARY J. PALMER, Alabama
Chair                                BRIAN K. FITZPATRICK, Pennsylvania
ANTHONY G. BROWN, Maryland           JENNIFFER GONZALEZ-COLON,
ADRIANO ESPAILLAT, New York            Puerto Rico
TOM MALINOWSKI, New Jersey           TROY BALDERSON, Ohio
GREG STANTON, Arizona                ROSS SPANO, Florida
DEBBIE MUCARSEL-POWELL, Florida      PETE STAUBER, Minnesota
LIZZIE FLETCHER, Texas               CAROL D. MILLER, West Virginia
COLIN Z. ALLRED, Texas               GREG PENCE, Indiana
SHARICE DAVIDS, Kansas
ABBY FINKENAUER, Iowa
JESUS G. ``CHUY'' GARCIA, Illinois
ANTONIO DELGADO, New York
CHRIS PAPPAS, New Hampshire
ANGIE CRAIG, Minnesota
HARLEY ROUDA, California

                                  (ii)

  


            Subcommittee on Water Resources and Environment

                 GRACE F. NAPOLITANO, California, Chair

DEBBIE MUCARSEL-POWELL, Florida,     BRUCE WESTERMAN, Arkansas
Vice Chair                           DANIEL WEBSTER, Florida
EDDIE BERNICE JOHNSON, Texas         THOMAS MASSIE, Kentucky
JOHN GARAMENDI, California           ROB WOODALL, Georgia
JARED HUFFMAN, California            BRIAN BABIN, Texas
ALAN S. LOWENTHAL, California        GARRET GRAVES, Louisiana
SALUD O. CARBAJAL, California        DAVID ROUZER, North Carolina
ADRIANO ESPAILLAT, New York          MIKE BOST, Illinois
LIZZIE FLETCHER, Texas               RANDY K. WEBER, Sr., Texas
ABBY FINKENAUER, Iowa                DOUG LaMALFA, California
ANTONIO DELGADO, New York            BRIAN J. MAST, Florida
CHRIS PAPPAS, New Hampshire          GARY J. PALMER, Alabama
ANGIE CRAIG, Minnesota               JENNIFFER GONZALEZ-COLON,
HARLEY ROUDA, California               Puerto Rico
FREDERICA S. WILSON, Florida         SAM GRAVES, Missouri (Ex Officio)
STEPHEN F. LYNCH, Massachusetts
TOM MALINOWSKI, New Jersey
PETER A. DeFAZIO, Oregon (Ex 
Officio)

                                 (iii)

                                CONTENTS

                                                                   Page

Summary of Subject Matter........................................   vii

                   STATEMENTS OF MEMBERS OF CONGRESS

Hon. Grace F. Napolitano, a Representative in Congress from the 
  State of California, and Chair, Subcommittee on Water Resources 
  and Environment:

    Opening statement............................................     1
    Prepared statement...........................................     2
Hon. Bruce Westerman, a Representative in Congress from the State 
  of Arkansas, and Ranking Member, Subcommittee on Water 
  Resources and Environment:

    Opening statement............................................     3
    Prepared statement...........................................     4
Hon. Peter A. DeFazio, a Representative in Congress from the 
  State of Oregon, and Chair, Committee on Transportation and 
  Infrastructure:

    Opening statement............................................     5
    Prepared statement...........................................     5

                               WITNESSES

Rick Goche, Commissioner, Port of Bandon, Bandon, Oregon:

    Oral statement...............................................     7
    Prepared statement...........................................     9
Eugene D. Seroka, Executive Director, Port of Los Angeles, San 
  Pedro, California:

    Oral statement...............................................    12
    Prepared statement...........................................    14
Bonnie Brady, Executive Director, Long Island Commercial Fishing 
  Association, Montauk, New York:

    Oral statement...............................................    16
    Prepared statement...........................................    18
Kevin Ross, First Vice President, National Corn Growers 
  Association, Minden, Iowa:

    Oral statement...............................................    19
    Prepared statement...........................................    21
Phyllis Harden, Executive Assistant, Pine Bluff Sand and Gravel 
  Co., Pine Bluff, Arkansas:

    Oral statement...............................................    22
    Prepared statement...........................................    24
Peter H. Stephaich, Chairman and CEO, Campbell Transportation 
  Company, Inc., Houston, Pennsylvania, on behalf of Waterways 
  Council, Inc.:

    Oral statement...............................................    26
    Prepared statement...........................................    27
Kirsten Wallace, Executive Director, Upper Mississippi River 
  Basin Association, St. Paul, Minnesota:

    Oral statement...............................................    29
    Prepared statement...........................................    31

                       SUBMISSIONS FOR THE RECORD

Statement of Kurt J. Nagle, President and CEO, American 
  Association of Port Authorities, Submitted for the Record by 
  Hon. Napolitano................................................    51
Six Letters from 2014-2019 from Hon. Jared Huffman, a 
  Representative in Congress from the State of California, et 
  al., Submitted for the Record by Hon. Huffman..................    53
Statement of the American Society of Civil Engineers, Submitted 
  for the Record by Hon. Napolitano..............................    64
Statement of the Association of Equipment Manufacturers, 
  Submitted for the Record by Hon. Napolitano....................    65
Letter from Captain John W. Murray, Port Director and CEO, 
  Canaveral Port Authority, Submitted for the Record by Hon. 
  Napolitano.....................................................    66
Letter from Nicole Vasilaros, Senior Vice President of Government 
  Relations and Legal Affairs, National Marine Manufacturers 
  Association, Submitted for the Record by Hon. DeFazio..........    68

                                APPENDIX

Questions from Hon. Grace F. Napolitano for Eugene D. Seroka, 
  Executive Director, Port of Los Angeles, San Pedro, California.    71
Questions from Hon. Angie Craig for Kevin Ross, First Vice 
  President, National Corn Growers Association, Minden, Iowa.....    73
Question from Hon. Angie Craig for Kirsten Wallace, Executive 
  Director, Upper Mississippi River Basin Association, St. Paul, 
  Minnesota......................................................    74
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                             April 8, 2019

    SUMMARY OF SUBJECT MATTER

    TO:       Members, Subcommittee on Water Resources and 
Environment
    FROM:   Staff, Subcommittee on Water Resources and 
Environment
    RE:       Subcommittee Hearing on ``The Cost of Doing 
Nothing: Why Full Utilization of the Harbor Maintenance Trust 
Fund and Investment in our Nation's Waterways Matter''

                                PURPOSE

    The Subcommittee on Water Resources and Environment will 
meet on Wednesday, April 10, 2019, at 9:30 a.m. in HVC 210, 
Capitol Visitor Center, to receive testimony related to ``The 
Cost of Doing Nothing: Why Full Utilization of the Harbor 
Maintenance Trust Fund and Investment in our Nation's Waterways 
Matter.''
    The purpose of this hearing is to examine the key role that 
ports, harbors, and inland waterways play in our communities 
and their economies. The hearing will also discuss the 
importance of full utilization of the Harbor Maintenance Trust 
Fund (HMTF) for its authorized purposes--namely, the 
maintenance dredging of authorized commercial coastal and 
inland harbors. The Subcommittee will hear from representatives 
from large and small ports, inland shippers and tow operators, 
as well as businesses that rely on our coastal ports and inland 
harbors.

                               BACKGROUND

THE ROLE OF HARBORS AND HARBOR MAINTENANCE NEEDS

    According to the Congressional Research Service \1\, 
oceangoing vessels carry more merchandise trade (measured in 
tons) to and from the United States than all other modes 
combined (air, trucks, rail, and pipeline). This accounts for 
80 percent of the total merchandise trade volume for the 
country. The dependence of trade on ports and shipping channels 
makes the operation and maintenance of these facilities crucial 
to the U.S. economy.
---------------------------------------------------------------------------
    \1\ https://www.crs.gov/Reports/
R43222?source=search&guid=dc51bbd2aa55499184e5ad610aa4
e590&index=0.
---------------------------------------------------------------------------
    Congress provided authority to the U.S. Army Corps of 
Engineers (Corps) for the maintenance of the Nation's roughly 
1,067 harbors and shipping channels. These ports are 
categorized as high use, moderate, and emerging, and defined by 
statute \2\ based on how much tonnage each port handles.
---------------------------------------------------------------------------
    \2\ 33 U.S.C. 2238.
---------------------------------------------------------------------------
    According to the Corps, navigation channels at our Nation's 
59 ``high use'' ports are at their authorized depths less than 
35 percent of the time. A ``high use'' port is a port that 
handles more than 10 million tons of freight per year. The 
conditions of midsize or ``moderate'' harbors (ports that 
handle between one million and 10 million tons of cargo) and 
``emerging'' harbors (ports that handle one million tons or 
less of cargo annually) are far worse. The dredging needs of 
our ports will only continue to grow unless more resources are 
devoted to maintenance dredging needs. The opening of the 
expanded Panama Canal in June 2016 has already increased demand 
for larger container ships to call on east and gulf coast 
ports.
    In 2016, the Corps estimated the total cost to dredge and 
maintain authorized widths and depths of all Federal navigation 
projects is $20.5 billion over the next decade. This estimate 
includes:
    <bullet>  $11.5 billion--to achieve authorized dimensions 
in the next 5 years ($2.3 billion annually); and
    <bullet>  $9.0 billion--to maintain authorized dimensions 
for an additional 5 years ($1.8 billion annually).
    Moreover, total navigation needs are likely higher. The 
Corps' $20.5 billion estimate includes additional expenses 
related to navigation (e.g., construction of dredged material 
placement facilities). However, this estimate does not likely 
include all necessary jetty and breakwater work or other needs 
identified by ports to maintain and expand harbor use 
nationwide.

THE HARBOR MAINTENANCE TAX AND TRUST FUND

    In 1986, Congress enacted the Harbor Maintenance Tax (HMT) 
to recover the operation and maintenance dredging costs for 
commercial ports from maritime shippers. The HMT is directly 
levied on importers and domestic shippers using coastal or 
inland ports as a 0.125 percent ad valorem tax on the value of 
imported cargo (e.g., $1.25 per $1,000 value) \3\ and is 
typically passed along to U.S. taxpayers on the purchase of 
imported goods or services. These revenues are deposited into 
HMTF within the U.S. Treasury from which Congress currently 
appropriates funds to the Corps for harbor maintenance 
dredging.
---------------------------------------------------------------------------
    \3\ The HMT initially applied to both imported and exported goods; 
however, in 1998, the U.S. Supreme Court unanimously held that 
imposition of the tax on exported goods was a violation of the U.S. 
Constitution.
---------------------------------------------------------------------------
    As noted in Table 1, the HMTF has collected far more 
revenues from shippers than Congress has appropriated to the 
Corps to maintain our Nation's harbors. Approximately $10 
billion in already collected revenues sits unused for its 
intended purpose in the U.S. Treasury. As a result, while 
shippers continue to pay into the HMTF for promised maintenance 
activities, the Federal Government has not carried out many of 
them.

 Table 1: Collections to and Appropriations from Harbor Maintenance Trust Fund (in billions)-- FY 2015-2020 \4\
----------------------------------------------------------------------------------------------------------------
                                            FY 2015     FY 2016     FY 2017     FY 2018     FY 2019     FY 2020
----------------------------------------------------------------------------------------------------------------
HMT Collections \5\                            $1.51       $1.38       $1.47       $1.65       $1.78       $1.91
----------------------------------------------------------------------------------------------------------------
HMT Appropriations \6\                         $1.05       $1.16       $1.23       $1.34       $1.49          --
----------------------------------------------------------------------------------------------------------------
Est. Balance in the HMTF                       $8.68       $8.78       $9.10       $9.33       $9.50          --
----------------------------------------------------------------------------------------------------------------

    The funds sitting unused in the HMTF would be sufficient to 
meet the maintenance dredging needs of all federally authorized 
ports. The Water Resources Reform and Development Act of 2014 
(WRRDA14) (P.L. 113-121) created discretionary appropriations 
targets for expenditures from the Trust Fund, increasing each 
year, so that by fiscal year 2025 and beyond, 100 percent of 
the funds collected for harbor maintenance purposes go towards 
required operation and maintenance activities. In recent fiscal 
years, appropriations from the Trust Fund have exceeded the 
discretionary targets outlined in WRRDA14; however, Congress 
has not yet achieved the goal of full-utilization of Trust Fund 
collections.
---------------------------------------------------------------------------
    \4\ Levels obtained from Budget Message of the President, 
Appendixes (fiscal years 2015-2020).
    \5\ HMT Collections reflects the 0.125% HMT and the HMTF's earnings 
on investments.
    \6\ HMT Appropriations reflects the amounts appropriated for the 
operations and maintenance costs of U.S. commercial navigation harbors 
and the amounts appropriated for the operations and maintenance costs 
of the Saint Lawrence Seaway that are operated and maintained by the 
Saint Lawrence Seaway Corporation. The number does not include any HMT 
appropriations for activities on Mississippi Rivers and Tributaries 
projects or construction related activities currently eligible from the 
HMT (e.g. construction of dredged material disposal facilities that are 
necessary for the operation and maintenance of any harbor or inland 
harbor.
---------------------------------------------------------------------------
    The Committee, on a bipartisan basis, has twice approved 
legislation \7\ to fully utilize HMT collections for the 
intended purpose of maintenance dredging; yet this provision 
has yet to be enacted into law. Enactment of such a provision 
honors our Nation's long-term commitment to U.S. shippers and 
taxpayers for harbor maintenance dredging, maintains and 
improves the competitiveness of U.S. businesses and industry, 
and creates and sustains thousands of additional construction 
jobs and jobs dependent on a vibrant and efficient marine 
transportation system.
---------------------------------------------------------------------------
    \7\ Section 108 of H.R. 5303 [https://www.congress.gov/114/bills/
hr5303/BILLS-114hr5303rds.pdf], the Water Resources Development Act of 
2016 (RH), and Section 102 of H.R. 8 [https://www.congress.gov/115/
bills/hr8/BILLS-115hr8rh.pdf], the Water Resources Development Act of 
2018 (RH).
---------------------------------------------------------------------------

THE PRESIDENT'S FISCAL YEAR 2020 BUDGET REQUEST FOR HARBOR MAINTENANCE

    The President's Budget request for Fiscal Year 2020 
proposed to transfer $965 million from the Trust Fund to the 
Corps for commercial navigation operation and maintenance 
activities. This level is significantly less than the target 
appropriations for fiscal year 2020 outlined in WRRDA 2014, as 
amended. For fiscal year 2020, the target HMTF appropriation 
would be $1.5 billion--the greater of 80 percent of the total 
level of harbor maintenance taxes collected in fiscal year 2019 
(est. $1.782 billion) or 103 percent of the fiscal year 2019 
appropriations from the Trust Fund ($1.4 billion), as provided 
in the Energy and Water Development and Related Agencies 
Appropriations bill, 2019 (Pub. L. 115-244).
    The President's Budget request proposes to spend a total of 
$889.95 million of the total proposed to be transferred from 
the HMTF on project specific navigation operation and 
maintenance activities at commercial ports and harbors. 
According to the Corps, 70.2 percent of these funds would be 
used for high-use commercial harbors, 18.2 percent for 
moderate-use commercial harbors, and 11.1 percent for low-use 
(emerging) commercial harbors.

THE INLAND WATERWAY SYSTEM

    Inland waterways are a significant component of the 
Nation's marine transportation system. These waterways carry 
approximately one-sixth of the national volume of intercity 
cargo on 25,000 miles of navigable waters throughout the United 
States. Of these waters, approximately 12,000 miles make up the 
commercially active inland and intracoastal waterways which are 
federally managed by the Corps.

[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]

 Figure 1: U.S. Inland Waterways (Source: U.S. Army Corps of Engineers)

    The federally managed Inland Waterway System (IWS) is 
comprised of 237 lock chambers at 191 sites, and is responsible 
for ports and waterways in 41 States. The IWS handles 
approximately half of all inland waterway freight (and one-
twelfth of all national freight). The Corps plans, develops, 
operates, and maintains the infrastructure of these commercial 
waterways (e.g. navigation channels, harbors, and locks and 
dams), and also maintains and regulates the channel depths 
through dredging and water management.
    The primary mechanism for moving commodities on the IWS is 
with barges. Barges are well suited for the movement of large 
quantities of bulk commodities and raw materials at relatively 
low cost. The IWS handles about 630 million tons of cargo 
annually, or about 17 percent of all intercity freight by 
volume. The principle commodities transported include coal 
(28%), petroleum (20%), grain exports (11%) and stone, sand, 
gravel (13%).\8\
---------------------------------------------------------------------------
    \8\ https://www.mvp.usace.army.mil/Portals/57/docs/Navigation/
InlandWaterways-Value.pdf.
---------------------------------------------------------------------------
    Beyond enabling commercial transportation, the inland 
waterways system may aid in flood control, provide a stable 
water supply for nearby communities and industries, at some 
locations generate hydropower, offer water recreation, provide 
for regional economic development opportunities, and enhance 
national security capabilities.

INLAND WATERWAYS TRUST FUND_FINANCING

    The IWS is facing significant challenges due to aging 
infrastructure. Over half of the IWS structures are more than 
50 years old, and nearly 40 percent are more than 70 years old. 
Many of these projects are approaching the end of their design 
lives and are in need of modernization or major rehabilitation. 
To help solve this problem Congress created the Inland 
Waterways Trust Fund (IWTF).
    The IWTF was authorized by two separate acts of Congress. 
The original authorization was contained in the Inland 
Waterways Revenue Act of 1978 (P.L. 95-502) (the 1978 Revenue 
Act). Under the 1978 Revenue Act, the U.S. Congress created the 
IWTF within the U.S. Treasury for the purpose of supporting the 
construction and rehabilitation of structures for navigation on 
the inland and coastal waterways of the United States. Congress 
funded the IWTF with a tax on fuel used in commercial 
transportation on inland waterways and statutorily defined 26 
specific segments of the inland and intracoastal waterways as 
being subject to the tax and to be eligible for construction 
and rehabilitation expenditures from the IWTF.
    The second piece of enabling legislation was the Water 
Resources Development Act of 1986 (P.L. 99-662) (WRRDA 1986). 
This legislation reset the IWTF by a graduated increase in the 
inland waterways commercial fuel tax rates, that was 
statutorily capped at the current $0.20 per gallon tax; \9\ 
added the Tennessee-Tombigbee Waterway to the list of fuel-
taxed inland and intracoastal waterways (now totaling 27 
segments); implemented the current funding and cost-share 
allocations; and authorized the construction of eight new 
inland waterways system modernization projects. Previously 
authorized projects and uncompleted projects were allowed to 
continue at 100 percent Federal funding without drawing from 
the IWTF.
---------------------------------------------------------------------------
    \9\ The initial $0.20 per gallon diesel tax was increased to $0.29 
per gallon by Pub. L. 113-295, Division B, Title II, Section 205(a). 
However, unlike the ad valorem tax on imports that funds the Harbor 
Maintenance Trust Fund, the fuel tax that funds the Inland Waterways 
Trust Fund is not adjusted to reflect increases in inflation.
---------------------------------------------------------------------------
    The same legislation in the 1970s and 1980s created user 
cost-sharing requirements for a subset of the inland waterway 
costs. Current cost sharing requirements include:
    <bullet>  Operation and Maintenance--100 percent to be paid 
from the General Revenue fund; and
    <bullet>  New Construction--50 percent to be paid from the 
IWTF and 50 percent from the General Revenue fund.
    States on the gulf coast and throughout the Midwest and 
Ohio Valley are especially dependent upon the IWS and account 
for the majority of the collected fuel tax revenues. Only one 
Inland Waterways System segment, the Lower Mississippi, 
actually covers the cost of their annual Operation and 
Maintenance expenditures with collected fuel tax revenues. The 
Lower Mississippi has the largest amount of tonnage moved on 
the waterway. The remainder of the IWS segments all have 
operation and maintenance costs that far exceed the amount of 
revenue that they generate through fuel taxes. The fuel-taxed 
IWS includes 207 lock chambers, located at 171 sites, on 27 
inland rivers and intracoastal waterways system segments.\10\
---------------------------------------------------------------------------
    \10\ IMTS Capital Investment Strategy Team. 2010. Inland Marine 
Transportation Systems (IMTS) Capital Projects Business Model. Final 
Report.
---------------------------------------------------------------------------
    As noted in Table 2, appropriations from the IWTF have 
nearly matched estimated annual revenues into the IWTF since 
the increase in diesel tax in 2015. Additionally, as annual 
revenues deposited into the IWTF continue to increase, the 
Corps has begun to complete longstanding IWTF-supported 
projects, including Olmsted Locks and Dam on the Ohio River, 
and LaGrange Lock and Dam on the Illinois River.

  Table 2: Collections to and Appropriations from Inland Waterways Trust Fund (in millions)-- FY 2015-2020 \11\
----------------------------------------------------------------------------------------------------------------
                                      FY 2015      FY 2016      FY 2017      FY 2018      FY 2019      FY 2020
----------------------------------------------------------------------------------------------------------------
IWTF Collections                          $97.9       $111.1       $114.4       $116.8       $116.0       $106.0
----------------------------------------------------------------------------------------------------------------
IWTF Appropriations                       $68.5       $108.0       $108.4       $112.0       $110.7           --
----------------------------------------------------------------------------------------------------------------
Est. Balance in the IWTF                  $54.2        $57.4        $63.4        $40.4        $33.3           --
----------------------------------------------------------------------------------------------------------------

PRESIDENT'S FY2020 IWTF REQUEST
---------------------------------------------------------------------------

    \11\ Levels obtained from Inland Waterways Users Board Annual 
Reports and Budget Message of the President, Appendixes (fiscal years 
2015-2020).
---------------------------------------------------------------------------
    The President's Budget request documents that $106 million 
will be collected into the IWTF from the existing $0.29 per 
gallon diesel fuel tax in the coming fiscal year, but the 
budget request utilizes only $55.5 million for inland projects 
in FY 2020. The budget request could have an adverse impact on 
the scheduling and completion of projects on the inland 
waterways, which are typically funded 50 percent from the Trust 
Fund and 50 percent from general revenues.
    If the President's Budget request was fully implemented, at 
the end of FY 2020, the IWTF would carry a balance of $354 
million; yet only $55.5 million would be expended from the 
Trust Fund for construction activities on the inland waterways 
system.

                               WITNESSES

    <bullet>  Mr. Rick Goche, Commissioner, Port of Bandon, 
Bandon, Oregon
    <bullet>  Mr. Eugene Seroka, Executive Director, Port of 
Los Angeles, San Pedro, California
    <bullet>  Ms. Bonnie Brady, Executive Director, Long Island 
Commercial Fishing Association, Montauk, New York
    <bullet>  Mr. Kevin Ross, First Vice President, The 
National Corn Growers Association, Minden, Iowa
    <bullet>  Ms. Phyllis Harden, Legislative and Special 
Projects, Pine Bluff Sand and Gravel Co., Pine Bluff, Arkansas
    <bullet>  Mr. Peter H. Stephaich, Chairman, Campbell 
Transportation Company, Houston, Pennsylvania, on behalf of the 
Waterways Council Inc.
    <bullet>  Ms. Kirsten Wallace, Executive Director, Upper 
Mississippi River Basin Association, St. Paul, Minnesota

 
     THE COST OF DOING NOTHING: WHY FULL UTILIZATION OF THE HARBOR 
 MAINTENANCE TRUST FUND AND INVESTMENT IN OUR NATION'S WATERWAYS MATTER

                              ----------                              


                       WEDNESDAY, APRIL 10, 2019

                  House of Representatives,
   Subcommittee on Water Resources and Environment,
            Committee on Transportation and Infrastructure,
                                                    Washington, DC.
    The subcommittee met, pursuant to call, at 9:30 a.m., in 
room HVC-210, Capitol Visitor Center, Hon. Grace F. Napolitano 
(Chair of the subcommittee) presiding.
    Mrs. Napolitano. Good morning, everybody. I am calling this 
hearing to order this morning. Today's hearing focuses on the 
significant role of our Nation's harbors, our ports, our inland 
waterways play for the Nation and the importance of maintaining 
an investment in the infrastructure.
    There is no question about the value of the ports and 
harbors to our country and our economy. Oceangoing vessels 
carry more merchandise to trade by tonnage than any other modes 
of transportation combined. The case for Federal investment is 
simple: We must use what we collect to maintain our ports to 
ensure and maintain America's global competitiveness.
    My region is home to the largest ports in the Nation, the 
Port of Los Angeles and the Port of Long Beach. These two ports 
handle over 40 percent of the exports and imports into the 
United States. Los Angeles and Long Beach have invested 
billions of their own money to upgrade their infrastructure for 
the benefit of the entire Nation so that goods can get to 
market across the country on time.
    But like other ports in the U.S., the success of the Ports 
of Los Angeles and Long Beach are only as strong as their 
partnership with the Federal Government in maintaining our 
infrastructure. The shippers at the Ports of Los Angeles and 
Long Beach pay over $260 million annually in harbor maintenance 
taxes but receive only $10 million back in harbor maintenance.
    As of a few years ago, my ports were receiving nearly 
nothing back until, working together with then-Ranking Member 
DeFazio, we were successful in enacting language in WRRDA 2014 
that required the Army Corps of Engineers to allocate at least 
10 percent of harbor maintenance funds to all donor ports for 
expanded uses, or funds to continue to use their ports. This 
language also recognizes the importance of emerging and Great 
Lakes harbors and provided a designated set-aside for them as 
well.
    There already has been a lot of interest this Congress by 
the House and the Senate in resolving full utilization of the 
Harbor Maintenance Trust Fund. Full utilization should be 
supported across the board, as it benefits everyone. This 
Congress must also address inequities in the Harbor Maintenance 
Trust Fund. It is not fair for harbors like mine to be paying 
so much in tax and receive so little.
    I look forward to working with all of my colleagues, my 
ranking member, as we find common ground to address continuing 
needs of all our ports and harbors. If past success is 
prologue, I look forward to working with the now-Chair DeFazio 
in finding a solution for all.
    Today's hearing will also focus on the importance of the 
inland waterways system to our Nation's heartland. They face 
challenges and an aging infrastructure system. I look forward 
to hearing from witnesses today on the value of the inland 
waterways to our economy. Thank you for all the witnesses for 
being here today. We will be having votes soon, so we tried to 
be on time and get everybody heard. Thank you especially to 
Executive Director Gene Seroka from the Port of Los Angeles for 
joining us, and I look forward to his testimony.
    At this time, I am pleased to yield to my colleague Mr. 
Ranking Member Westerman for any thoughts he may have.
    [Mrs. Napolitano's prepared statement follows:]

                                 
  Prepared Statement of Hon. Grace F. Napolitano, a Representative in 
Congress from the State of California, and Chair, Subcommittee on Water 
                       Resources and Environment
    There is no question about the value of ports and harbors to our 
country and our economy. Oceangoing vessels carry more merchandise to 
trade by tonnage than all other modes combined. The case for Federal 
investment is simple: we must use what we collect to maintain our ports 
to ensure and maintain America's global competitiveness.
    My region is home to the largest ports in the nation, the Port of 
Los Angeles and the Port of Long Beach. These ports handle over 40 
percent of the exports and imports into the United States. Los Angeles 
and Long Beach have invested billions of dollars of their own money to 
upgrade their infrastructure for the benefit of the entire nation so 
that goods can get to market across the country on time. But like other 
ports across the U.S., the success of the Ports of Los Angeles and Long 
Beach are only as strong as their partnership with the Federal 
government in maintaining our infrastructure.
    The shippers at the Ports of Los Angeles and Long Beach pay over 
$260 million annually in Harbor Maintenance Taxes but they receive only 
$10 million back in harbor maintenance. As of a few years ago, my ports 
were receiving nearly nothing back, until working together with then 
Ranking Member DeFazio, we were successful in enacting language in 
WRRDA 2014 that required the Army Corps of Engineers to allocate at 
least 10 percent of Harbor Maintenance Funds to all donor ports for 
expanded uses, or funds to continue to use their ports. This language 
also recognized the important role of emerging and Great Lakes harbors, 
and provided a designated set-aside for them as well
    There has already been a lot of interest this Congress by the House 
and the Senate in resolving full utilization of the Harbor Maintenance 
Trust Fund. Full utilization should be supported across the board--as 
it benefits everyone. This Congress must also address inequities in the 
harbor maintenance trust fund. It is not fair for harbors like mine to 
be paying so much in the tax and receiving so little. I look forward to 
working with all of my colleagues as we find common ground to address 
the continuing needs of all our ports and harbors. If past success is 
prologue, I look forward to working with Now-Chair DeFazio in finding a 
solution for all.
    Today's hearing will also focus on the importance of the Inland 
Waterways System to our nation's heartland. They face challenges with 
an aging infrastructure system. I look forward to hearing from our 
witnesses today on the value of the inland waterway to our country.
    Thank you witnesses for being here today. Thank you especially to 
Executive Director Gene Seroka, with the Port of Los Angeles, for 
joining us.
    I look forward to everyone's testimony.

    Mr. Westerman. Thank you, Chairwoman Napolitano. It is an 
exciting time to be working on this issue together. I had the 
great honor of visiting your State and visiting the Port of 
Long Beach in Representative Lowenthal's district and to see 
that amazing facility out there with the Port of Los Angeles.
    And it is good to have such a diverse panel here so that we 
can gain perspectives on different issues that are facing 
ports, harbors, and inland waterways as well as stakeholder and 
other users' issues.
    I especially want to thank Phyllis Harden for her 
participation here today. She is a constituent of mine who was 
recently inducted into the Arkansas River Hall of Fame.
    The needs of our ports, harbors, and inland waterways are 
substantial, and they continue to grow. Oceangoing vessels 
carry more merchandise trade to and from the United States than 
all other modes of transportation combined. My home State of 
Arkansas is third in the Nation in the number of inland 
waterway miles, one of only 24 States in the United States to 
have the unique resource of inland waterways.
    Major products that move along the Arkansas waterways 
include grain, steel, fertilizers, petroleum and petroleum 
products, aggregates, paper and wood products, among others. 
This means there is a very good chance that everything from the 
bread your sandwich is made with to the components of your car 
were carried at some point on a waterway. Yet, more often than 
not, our ports and inland waterways are not maintained to their 
fully authorized widths and depths, severely jeopardizing our 
way of life, competitiveness, American jobs, and the 
communities that depend on them.
    In order to address the maintenance of our ports, Congress 
enacted the harbor maintenance tax for the purpose of covering 
dredging costs. The tax is directly levied on importers and 
domestic shippers using coastal or inland ports and deposited 
into a trust fund within the Treasury.
    However, for too long, more tax revenue has been collected 
annually than Congress has appropriated. And because of this 
fact, a balance has been accruing that currently stands at 
approximately $10 billion. That is enough to address our 
currently authorized maintenance needs if spent down.
    That Congress has allowed this to persist as our needs only 
continue to grow represents a problem in dire need of a 
solution. This committee has twice in recent years passed 
measures that would dedicate the taxes to their intended 
purposes, and I look forward to continue working to solve this 
problem.
    It is not just our ports that are in need but also the 
structures that support the inland waterway system, which 
require maintenance, repairs, and upgrades. Over half of the 
inland waterway structures are more than 50 years old, and 
nearly 40 percent are more than 70 years old. Many of these 
projects have reached or are approaching the end of their 
design lives.
    The Upper Mississippi alone, from St. Louis to the 
headwaters in Minnesota's Lake Itasca, generates almost $600 
billion in annual economic activity and is used to transport 60 
percent of all grain products in America. And we are the 
world's number-one grain producer. As the amount of goods 
traveling on the inland system is expected to increase by more 
than 20 percent by 2050, we must continue to invest in this 
vital system. The risk of failure is too great. It is critical 
that, as we work to address our infrastructure challenges in 
this Congress, that our ports, harbors, and inland waterways 
are not left behind.
    I again look forward to hearing the witnesses' perspectives 
and solutions to address our Nation's infrastructure needs, and 
I yield back the balance of my time.
    [Mr. Westerman's prepared statement follows:]

                                 
    Prepared Statement of Hon. Bruce Westerman, a Representative in 
 Congress from the State of Arkansas, and Ranking Member, Subcommittee 
                   on Water Resources and Environment
    I'm happy we have such a diverse panel so that we can gain their 
perspectives on the issues facing ports, harbors, and inland waterways, 
as well as their stakeholders and users. I especially want to thank Ms. 
Phyllis Harden for her participation here today. She is a constituent 
of mine who was recently inducted into the Arkansas River Hall of Fame.
    The needs of our ports, harbors, and inland waterways are 
substantial, and they continue to grow.
    Oceangoing vessels carry more merchandise trade to and from the 
United States than all other modes of transportation combined. My home 
state of Arkansas is third in the Nation in the number of inland 
waterway miles--one of only 24 states in the United States to have the 
unique resource of inland waterways. Major products that move on 
Arkansas waterways include grains, steel, fertilizers, petroleum and 
petroleum products, aggregates, paper, and wood products, among others. 
This means there is a very good chance that everything from the bread 
for your sandwiches to the components of your car were carried at some 
point on a waterway.
    Yet more often than not, our ports and inland waterways are not 
maintained to their fully authorized widths and depths, severely 
jeopardizing our way of life, competitiveness, American jobs, and the 
communities that depend on them.
    In order to address the maintenance of our ports, Congress enacted 
the Harbor Maintenance Tax (HMT) for the purpose of covering dredging 
costs. The tax is directly levied on importers and domestic shippers 
using coastal or inland ports, and deposited into a trust fund within 
the Treasury.
    However, for too long more tax revenue has been collected annually 
than Congress has appropriated. And because of this fact, a balance has 
been accruing that currently stands at approximately 10 billion 
dollars--enough to address our currently authorized maintenance needs 
if spent down. That Congress has allowed this to persist, as our needs 
only continue to grow, represents a problem in dire need of a solution.
    This Committee has twice, in recent years, passed measures that 
would dedicate the taxes to their intended purposes--and I look forward 
to continue working to solve this problem.
    But it is not just our ports that are in need, but also the 
structures that support the inland waterways system which require 
maintenance, repair, and upgrade. Over half of the inland waterways 
structures are more than 50 years old, and nearly 40 percent are more 
than 70 years old. Many of these projects are approaching the end of 
their design lives.
    The upper Mississippi alone, from St. Louis to the headwaters in 
Minnesota's Lake Itasca, generates almost $600 billion in annual 
economic activity and is used to transport 60 percent of all grain 
products in America, the world's number-one grain producer.
    As the amount of goods traveling on the inland system is expected 
to increase by more than 20 percent by 2050, we must continue to invest 
in this vital system--the risk of failure is too great.
    It is critical that as we work to address our infrastructure 
challenges this Congress, our ports, harbors, and inland waterways are 
not left behind. I look forward to hearing the witnesses' perspectives 
and solutions to address our water resources infrastructure needs.

    Mrs. Napolitano. Thank you. I now recognize the chair of 
the full committee, Mr. DeFazio.
    Mr. DeFazio. Thank you, Madam Chair. The good news is that 
we do have a revenue source to maintain our harbors, a law 
enacted during the Reagan administration with a Democratic 
Congress. The bad news is that Congress, on a bipartisan basis, 
has frequently underspent the collected taxes, meaning we are 
taxing the American people for a specific purpose where we have 
great needs, and yet that money is being essentially stolen by 
the Congress and stuck into a theoretical trust fund for 
theoretical deficit offset. It is absurd.
    And, you know, 4 years ago, when I first offered an 
amendment in this committee to a WRDA bill, Water Resources 
Development Act bill, the chairman, Bill Shuster, was shocked 
when it was adopted unanimously by the committee. He didn't 
realize that, you know, this would be such a bipartisan issue. 
Twice I have gotten that provision into WRDA bills, and twice 
Paul Ryan personally removed it in the Rules Committee or had 
it removed in the Rules Committee. Paul is now retired. I hope 
he is enjoying it, and I hope for better treatment by the Rules 
Committee this year when we move similar legislation.
    As was mentioned previously, our 59 busiest ports have 
about 35 percent of their available authorized depths on a 
daily basis. And for smaller harbors, which we will hear from 
today, it is absolutely the lifeblood. If we didn't have the 
small and emerging ports money, many of these communities would 
be absolutely devastated. So I will soon reintroduce that bill, 
and it will be part of the infrastructure initiatives that this 
committee will undertake this year.
    We are still having trouble with the White House, not quite 
as bad as last year. Last year, they came up with a solution on 
underspending the tax. They said, well, let's just cut the tax. 
Maybe some of my conversations penetrated at least a little bit 
with people downtown. So, this year, they are not proposing to 
reduce the tax, but they are proposing to underspend the 
revenues by almost $1 billion. And I am determined, and I am 
certain this committee will be determined to see that that 
doesn't happen.
    With that, Madam Chair, I would yield back the balance of 
my time.
    [Mr. DeFazio's prepared statement follows:]

                                
   Prepared Statement of Hon. Peter A. DeFazio, a Representative in 
      Congress from the State of Oregon, and Chair, Committee on 
                   Transportation and Infrastructure
    Thank you, Madam Chairwoman, for holding this important hearing on 
the need to invest in our Nation's ports and inland waterways.
    The Corps has a long history of success in addressing the Nation's 
water resources needs--from ensuring safe and reliable navigation along 
our coasts and inland systems, to providing critical flood protection 
for our communities, to restoring some of our Nation's environmental 
treasures. However, today's hearing is an opportunity to highlight one 
of the more frustrating and inefficient aspects of the Federal 
government--how we fund the maintenance of our commercial harbors.
    As we all know, Congress worked with the Reagan Administration to 
create a mechanism to recover the operation and maintenance dredging 
costs for commercial ports from maritime shippers--called the Harbor 
Maintenance Tax. This fee, directly levied on importers and domestic 
shippers using coastal and inland ports, was meant to provide the Corps 
of Engineers with sufficient annual revenues to keep our ports in a 
good state of repair, and sustain our local, regional, and national 
economies that rely on the movement of goods and services through our 
commercial ports.
    The good news is that we are currently collecting sufficient 
revenues to adequately maintain our commercial harbors--of all sizes--
as well as critical infrastructure, such as breakwaters and jetties, 
associated with these commercial ports.
    The bad news is that we refuse to spend this money--or more 
accurately, we collect this money, but then use these funds to offset 
other expenditures in the Federal government while the needs of our 
commercial ports continue to grow.
    Look at the state of our Nation's ports and harbors. The U.S. Army 
Corps of Engineers estimates that the full channels of the Nation's 59 
busiest ports are available less than 35 percent of the time. For 
smaller commercial harbors, such as Coos Bay or Port Orford, typically 
their dredging situations can be far worse.
    The American Society of Civil Engineers estimates that our Nation's 
ports and harbors will need an additional investment of $15.8 billion 
between now and 2020 to meet the demands of larger and heavier ships 
that will use the Panama Canal. This increased investment would protect 
$270 billion in U.S. exports, $697 billion in GDP and 738,000 jobs 
annually.
    Today, because the Harbor Maintenance Trust Fund collects more 
revenues from shippers than Congress appropriates to maintain our 
harbors, approximately $9.5 billion in already collected tax revenues 
sits idle in the Harbor Maintenance Trust Fund.
    If the rate of tax collections and expenditures continue on their 
current trend, CBO estimates that the balance of the Harbor Maintenance 
Trust Fund will reach more than $14 billion within a decade.
    To be clear, concern about the misuse of Harbor Maintenance taxes 
is not a partisan issue. Widely supported actions taken by this 
Committee in 2014 to enact Trust Fund appropriations targets have been 
integral to increasing the level of appropriations maintenance dredging 
over the last 5 years.
    However, discretionary appropriations targets are not enough to get 
us to full-utilization of the Trust Fund. That is why, on a bipartisan 
basis, this Committee has, twice, adopted language to provide the 
Secretary with full access to the revenues in the Trust Fund for 
maintenance dredging purposes--in essence, ensuring that all the 
existing revenues in the Trust Fund are utilized for their intended 
purposes--the maintenance of our commercial harbors.
    Unfortunately, this language has not been enacted into law.
    Instead, the President continues to go in the opposite direction 
and proposes, in his fiscal year 2020 budget request, to underfund 
investment in our Nation's infrastructure--virtually guaranteeing that 
the Federal government will do little to ensure the commercial 
viability of our harbors and ports, and adversely impact the economic 
benefits that these critical linkages to trade and local jobs provide.
    It is time we use our legislative authority to correct how Congress 
funds the operation and maintenance of our commercial harbors--and 
ensure these funds are used for their intended purposes.
    I will again introduce legislation to fully utilize Trust Fund 
proceeds for their intended purposes--and ensure that the approximately 
$34 billion in harbor maintenance taxes available over the next decade 
are spent to maintain our harbors and ports. My bill honors our long-
term commitment to U.S. shippers and taxpayers, maintains and improves 
the competitiveness of U.S. businesses and industry, and sustains 
thousands of construction jobs and jobs dependent on a vibrant and 
efficient marine transportation system.
    I urge your continued support for this legislation which would 
virtually ensure Congress uses already-collected funding to maintain 
our Nation's ports and harbors.

    Mrs. Napolitano. Thank you, Mr. DeFazio.
    Let me start by asking unanimous consent that the chair be 
authorized to declare a recess during today's hearing.
    Without objection, so ordered.
    Now we will proceed to hear from our witnesses who will 
testify today, and thank you very much, all of you, for being 
hero. We have Mr. Rick Goche, commissioner, Port of Bandon, 
Oregon; Mr. Gene Seroka, executive director, Port of Los 
Angeles; Ms. Bonnie Brady, executive director, Long Island 
Commercial Fishing Association, New York, welcome; Mr. Kevin 
Ross, first vice president of the National Corn Growers 
Association from Minden, Iowa; Ms. Phyllis Harden, executive 
assistant, Pine Bluff Sand and Gravel Company, Arkansas; Mr. 
Peter H. Stephaich, chairman, Campbell Transportation Company, 
Pennsylvania, on behalf of the Waterways Council, Incorporated; 
and Ms. Kirsten Wallace, executive director, Upper Mississippi 
River Basin Association from St. Paul, Minnesota.
    Without objection, your prepared statements will be entered 
into the record, and all witnesses are limited to 5 minutes.
    Commissioner Goche, you may proceed.

TESTIMONY OF RICK GOCHE, COMMISSIONER, PORT OF BANDON, BANDON, 
   OREGON; EUGENE D. SEROKA, EXECUTIVE DIRECTOR, PORT OF LOS 
    ANGELES, SAN PEDRO, CALIFORNIA; BONNIE BRADY, EXECUTIVE 
DIRECTOR, LONG ISLAND COMMERCIAL FISHING ASSOCIATION, MONTAUK, 
   NEW YORK; KEVIN ROSS, FIRST VICE PRESIDENT, NATIONAL CORN 
 GROWERS ASSOCIATION, MINDEN, IOWA; PHYLLIS HARDEN, EXECUTIVE 
    ASSISTANT, PINE BLUFF SAND AND GRAVEL CO., PINE BLUFF, 
   ARKANSAS; PETER H. STEPHAICH, CHAIRMAN AND CEO, CAMPBELL 
TRANSPORTATION COMPANY, INC., HOUSTON, PENNSYLVANIA, ON BEHALF 
  OF WATERWAYS COUNCIL, INC.; AND KIRSTEN WALLACE, EXECUTIVE 
DIRECTOR, UPPER MISSISSIPPI RIVER BASIN ASSOCIATION, ST. PAUL, 
                           MINNESOTA

    Mr. Goche. Thank you and good morning, Chairwoman 
Napolitano.
    Mrs. Napolitano. Can you turn your mic on?
    Mr. Goche. Is that good now?
    Mrs. Napolitano. That is better.
    Mr. Goche. Good morning, Chairwoman Napolitano, Ranking 
Member Westerman, and members of the subcommittee. Thank you 
for the opportunity to talk about the importance of fully 
utilizing harbor maintenance tax revenue to ensure the Army 
Corps of Engineers is able to maintain navigation channels and 
jetties at small ports in the Pacific Northwest and around the 
country.
    I am here from Bandon, Oregon, which has a population of 
3,112. I am commissioner at the Port of Bandon, and I am a 
small business owner. I have been a commercial fisherman for 
most of my life. Now I primarily fish for tuna. Our region's 
tuna fleet includes about 600 boats that fish off of Oregon and 
Washington.
    My brother and I pack our boat with supplies for 2 weeks at 
a time and spend most of that time between 100 and 200 miles 
offshore. Because our boats are only capable of about 7 knots 
in heavy weather and because we are so far offshore, if unsafe 
weather is forecast, we go into whatever port is closest. If 
the weather is really bad, our only safe course is downwind to 
whatever port is on that trajectory.
    This is where the term ``safe harbor'' comes from. When 
weather is bad, any harbor, large or small, is safer than being 
at sea. From a fisherman's perspective, every port, large and 
small, is important. Whether we can use a particular port for 
safe harbor has everything to do with the condition of the bar 
in the Pacific Northwest.
    The phrase ``crossing a bar'' may not be familiar to 
everyone here, but for the people in the Pacific Northwest that 
take boats out into the ocean, understanding this term is a 
matter of life and death. The bar is the term used where a hump 
is formed where sediment builds up as the downstream river 
water comes up against the ocean swells.
    During ebb tides, river and tidal flows combine to create a 
stronger current than comes up against the incoming ocean 
swell. If the swell is large and the bar is shallow, the energy 
of the swell is tipped over, resulting in a breaker. Breakers 
are dramatically higher and steeper than the swell, and the 
life-threatening danger comes when a boat is attempting to 
cross the bar and encounters a sneaker wave that is larger than 
expected. The wave builds and steepens, and the boat goes out 
of control as it essentially turns into a surfboard, goes 
broadside and rolls over. This dangerous condition is referred 
to as a breaking bar.
    And it wasn't until I came to DC the first time advocating 
for dredging of the bars of our small ports that I realized 
breaking bars is a phenomenon mostly unique to the Pacific 
Northwest. Until that realization, I couldn't understand how 
budget after budget could zero out small port dredging when so 
many lives were at stake.
    Now, there are a couple of ways to minimize the threat of a 
breaking bar. One way is for the Army Corps of Engineers to 
build jetties that steer the current a few degrees off of the 
dominant swell direction. This was done on every bar in the 
Pacific Northwest many decades ago, but today most of those 
jetties are in dire need of repair and are getting less and 
less effective. Another way to minimize the deadliness of a 
breaking bar is to regularly dredge out the sediment hump that 
builds up every year from the torrential rains that 
characterize the Pacific Northwest coast.
    Now, there is one thing that both of these remedies have in 
common, and that is funding. The Portland district of the Army 
Corps of Engineers does a good job of maintaining our jetties 
and dredging our navigation channels, given the resources 
Congress provides. But when sufficient funding for these 
activities are not available, as is often the case for small 
ports, the bar shallows and breaks and lives are lost.
    As a commercial fisherman, safety is paramount, but for 
thousands of others on land, their economic livelihood also is 
tied to the maintenance of navigation channels and jetties. In 
Oregon, there are 15 communities with small ports. Nearly all 
of these are located in rural areas. In every one of those 
communities, the port is the equivalent of their anchor 
business.
    The Port of Bandon recently commissioned a study of the 
impact of our port on the local economy. It found that $52 
million of economic benefit is generated annually as a result 
of the dredging that gives us access to the sea, and nearly $5 
million in Federal tax payments are returned to the Treasury. 
So let me highlight this. It costs about $500 a year to dredge 
the bar----
    Mr. DeFazio. Not $500. You mean $500,000--you said $500.
    Mr. Goche. I am sorry. Excuse me. Wow. OK. Yes, thank you, 
Congressman. $500,000 to dredge the channel. And in return, the 
Treasury receives $5 million. So a 10-to-1 return on 
investment, which I imagine everybody would like to see in 
theirs.
    Operation and maintenance of our Nation's navigation 
infrastructure is a Federal responsibility, yet small ports 
around the country have to fight like heck for funding that 
will allow the Army Corps of Engineers to do its job. It is a 
real shame, but it wouldn't have to be this way if the HMT 
funds were fully utilized.
    Due to the leadership of this committee, we have seen a 
substantial increase in the amount of harbor maintenance tax 
revenue that is dedicated to dredging and jetty maintenance, 
but a lot of this money is still being used to fund other 
Government programs or to balance the Federal budget. This is 
why I appreciate your continuing efforts to get to full 
utilization of the Harbor Maintenance Trust Fund. I also 
appreciate the opportunity to talk about what funding means to 
me, my community, and for rural communities around the country.
    Mrs. Napolitano. All right, sir.
    Mr. Goche. So what I am really here to ask----
    Mrs. Napolitano. You are over you time limit.
    Mr. Goche. I am sorry.
    [Mr. Goche's prepared statement follows:]

                                 
Prepared Statement of Rick Goche, Commissioner, Port of Bandon, Bandon, 
                                 Oregon
    Good morning, Chairwoman Napolitano, Ranking Member Westerman and 
members of the Subcommittee. Thank you for the opportunity to talk 
about the importance of fully utilizing Harbor Maintenance Tax revenue 
to ensure the Army Corps of Engineers is able to maintain navigation 
channels and jetties at small ports in the Pacific Northwest, and 
around the country.
    I'm here from Bandon, Oregon, which has a population of 3,112. I 
have been a commercial fisherman for most of my life. I'm a small 
business owner. And I'm a port commissioner for the Port of Bandon. I 
should be home preparing my boat for its annual maintenance but I have 
something I need to talk with you about.
    I've been involved in the seafood business from research to retail 
for most of the past 50 years. As a commercial fisherman I've crossed 
every bar from San Francisco to Canada at one time or another. Now I 
fish primarily for tuna off of Oregon and Washington. Our region's tuna 
fleet includes about 600 boats.
    My brother and I pack our boat with supplies for two weeks at a 
time and spend most of that time between 100 and 200 miles off shore. 
Because our boats are only capable of about 7 knots in heavy weather, 
and because we are so far offshore, if unsafe weather is forecasted, we 
must go into whatever harbor is closest. If the forecast is wrong, we 
can be in a situation where our only course is downwind to whatever 
port is on that trajectory. This is where the term ``safe harbor'' 
comes from. When weather is bad, any harbor, big or small, is safer 
than being at sea.
    So from a fisherman's perspective EVERY port, large and small, is 
important. Whether we can use a particular port for safe harbor has 
everything to do with the condition of the bar.
    The term ``bar'' may not be familiar to everyone here, but for 
people in the Pacific Northwest that take boats out into the ocean, 
understanding of this term is a matter of life or death. Bar is the 
term used for the point where the harbor entrance, in my region 
normally near the mouth of a river, forms a ``hump'' where sediment 
builds up as the downstream river water comes up against the ocean 
waves. During ebb tides, river and tidal flows combine to create a 
stronger current that comes up against the incoming ocean swell. If the 
swell is large and the bar is shallow, the energy of the swell is 
tipped-over resulting in a ``breaker''. Breakers are dramatically 
steeper than the swell and the life threatening danger is when a boat 
is attempting to come into the entrance, and the boat encounters a 
``sneaker'' wave that is larger than expected--the wave steepens, and 
the boat goes out of control as it essentially turns into a surfboard, 
goes broadside and rolls over. This dangerous condition is referred to 
as a ``breaking bar''.
    It wasn't until I came to D.C. the first time advocating for 
dredging of the bars of our small ports that I realized breaking bars 
are a phenomenon mostly unique to the Pacific Northwest. Until that 
realization dawned, I couldn't understand how budget-after-budget could 
zero out small port dredging when so many lives are at stake.
    There are a couple of ways to minimize the threat of a breaking 
bar. One way is for the Army Corp of Engineers to build jetties that 
steer the current a few degrees off the dominant swell direction. This 
was done on every bar in the Pacific Northwest many, many decades ago, 
but today, most of those jetties are in dire need of repair and are 
getting less and less effective. Another way to minimize the deadliness 
of a breaking bar is to regularly dredge out the sediment that builds 
up every year from the torrential rains that characterize the Pacific 
Northwest coast.
    There is one thing that both of these have in common, and that is 
funding. The Portland District of the Army Corp of Engineers does a 
fantastic job maintaining our jetties and dredging our navigation 
channels given the resources made available to them by Congress. But 
when sufficient funding for these activities is not available, as is 
often the case for small ports, the bar shallows, and breaks, and 
inevitably, lives are lost.
    For me, safety is paramount. But for thousands of others on the 
Oregon coast and around the country, their economic livelihood is tied 
to the maintenance of navigation channels and jetties.
    Oregon's ports and harbors rank amongst our state's most valuable 
assets and are critical to maintaining and creating jobs across our 
great state. In Oregon there are 15 communities with small ports with 
ocean access. Nearly all of these ports are located in rural 
communities. In every one of those communities the port is the 
equivalent of their anchor business. These small ports provide an 
important employment base and are often primary drivers of local 
prosperity. They are hubs for international trade, recreation, and 
commercial fishing.
    The Port of Bandon is a case study for this. Our port attracts 
approximately 300 vessels per year, and has gained a strong tourism 
presence through sport-fishing and recreational crabbing. Tourists 
enjoy a full range of recreational activities including full marina 
facilities, crab docking, a scenic river walk and nature pathway, 
amphitheater and a new boardwalk. The Bandon Marina includes a public 
boat ramp and 90 moorage slips that are typically occupied, especially 
in the summer months. In addition to the Bandon Marina, crab dock and 
boat launch, the Port of Bandon owns several real estate holdings that 
provide lease space for businesses. A Coast Guard motor lifeboat is 
based in the Port marina during summer months.
    The Port of Bandon, along with approximately 54 port-related 
businesses, employs an estimated 484 workers. This includes a charter 
service, a bait shop, two fish markets, two marine insurance 
businesses, as well as numerous restaurants and hotels. We contracted a 
study in 2014 of the impact of our port on the local economy. It found 
that $62 million ($35.1 million direct and $27 million indirect/
induced) of economic benefit is generated annually by our port as the 
result of the funding that allows the Army Corps of Engineers to 
maintain our navigation channels and jetties. This output results in 
nearly $5 million in federal tax payments returned to the treasury due 
to our access to the sea.
    Operation and Maintenance of our nation's navigation infrastructure 
is a Federal responsibility. Yet small ports around the country have to 
fight like heck for funding that will allow the Army Corps of Engineers 
to do its job. The real shame is that it doesn't have to be this way.
    Due to the leadership of this committee, we have seen a substantial 
increase in the amount of harbor maintenance tax revenue that is 
dedicated to dredging and jetty maintenance. But a lot of this money is 
still being used to fund other government programs or to balance the 
federal budget. This is why I appreciate your continuing efforts to get 
to full utilization of the harbor maintenance trust fund.
    Thank you, again, for the opportunity to talk about what funding 
means to me, my community, and to rural communities around the country. 
I have included additional documentation to support my testimony, 
including an illustration of the breaking bar that I described, and a 
chart that provides additional detail about the dangers of breaking 
bars in the Pacific Northwest.
    I know it may not make sense to you but if everything you have is 
wrapped up in your boat, and your boat feeds your family, you go 
fishing. Even when everything is optimal some of us don't make it home. 
I'm here asking you to give us the best chance you can, so we can make 
it in, and home, to our families.

[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]


    Mrs. Napolitano. Thank you very much. I am sorry, sir.
    Mr. Seroka, you are on. You are next.
    Mr. Seroka. Good morning, Chairman DeFazio, Chairwoman 
Napolitano, Ranking Member Westerman, our California delegation 
and members of the committee.
    My name is Gene Seroka. I am the executive director at the 
Port of Los Angeles and dually I hold the position of vice 
president of the California Association of Port Authorities.
    The Port of Los Angeles is the largest container port in 
the United States, moving more than 9\1/2\ million container 
units per year and accounting for more than $300 billion in 
goods movement through our port complex.
    We support about 150,000 jobs in Los Angeles and more than 
1.6 million in the country. Our gateway is the traditional move 
for cargo imported and exported to this Nation through Asia and 
the Pacific Rim. About half of the cargo that comes through our 
port complex goes direct to consumers. The other half, in 
component form, goes to the manufacturing stream here in the 
United States. All combined, we reach each and every 
congressional district in the United States. This truly is a 
conversation of national significance when it comes to the Port 
of Los Angeles.
    The goods moved in industry underpins what we are doing as 
an economy. Seventy percent of consumer spend goes directly to 
our top line of GDP, and the ports industry supports 31 million 
jobs nationwide and approximately 26 percent of our country's 
GDP. We are looking for a consistent and sustainable stream of 
funding for our ports and harbors across the country, and the 
harbor maintenance trust is a great place to start as we have a 
broader conversation about infrastructure in our Nation.
    We are grateful to this committee and Congress for the work 
that has been done in water resources in 2014 and 2016, which 
greatly moved us forward in the conversation and realization of 
full spend.
    Today I ask for three areas of consideration: first, full 
utilization of the harbor maintenance tax; second, a fair and 
equitable allocation of those funds; and, thirdly, limited but 
expanded use of these capabilities through the funds. I will 
take you through each one very quickly.
    On full utilization, this can get us to a place of 
continued investment not only by our country but by others who 
will see trade increase and continued opportunity for 
investment in our ports and harbors. On fair and equitable 
allocation, for the first time in memory--and I have been in 
this industry more than 30 years--we have industry unanimity on 
this subject of the harbor maintenance trust and how to 
allocate between so-called donor ports like Los Angeles that 
bring in the majority of this revenue, dredge ports that 
require this money to continue to combat silting, and other 
areas to make sure their channels are deep, and the energy 
transport ports, which are so important to our Nation's 
economy.
    Overall, the donor ports today, the top six, bring in about 
60 percent or nearly half of all the revenue on the HMT side, 
yet, in return, we receive about 2 percent of those proceeds to 
work at our individual and local locations.
    With respect to limited expansion, because we are not a 
port that is continuing to work on the sedimentation effects on 
our main channel or making sure that we have a certain depth on 
a regular basis, we have other needs. Larger ships and the 
advent of that change in our industry requires us to do 
additional work in water alongside wharves, to fortify those 
areas and make sure they are strong to handle those larger 
ships. Looking at those limited possibilities for expansion 
would greatly drive our competitiveness and that of our Nation. 
We have approximately $260 million in projects along those 
lines that are coming up quite swiftly in order to manage the 
changes in the industry.
    We also have a responsibility to maintain and improve our 
seismic requirements in southern California. That also has an 
application in this discussion.
    I encourage the committee to look at the framework that has 
been put forward by the American Association of Port 
Authorities. And, as mentioned, our industry is on the cusp of 
not only agreeing on how to move forward, but also recommending 
how we could put a framework together in concert with this 
committee and Congress at large.
    This hearing is timely. And the work that you are doing to 
support our industry is greatly appreciated. We are also happy 
to answer any questions you may have at the conclusion of the 
testimony. Thank you for your time today.
    [Mr. Seroka's prepared statement follows:]

                                 
Prepared Statement of Eugene D. Seroka, Executive Director, Port of Los 
                     Angeles, San Pedro, California
    Good Morning Chairman DeFazio, Chairwoman Napolitano, Ranking 
Member Westerman, and Members of the Committee.
    Thank you for this opportunity to testify before you this morning. 
My name is Eugene D. Seroka and I serve as the Executive Director of 
the Port of Los Angeles. The Port of Los Angeles is our nation's 
largest and busiest container port. In 2018, we handled 9.5 million 
twenty-foot equivalent units--or TEUs, the standard measure of 
container cargo. This cargo generated over $200 billion in economic 
impact for our country, supports about 148,000 jobs in Los Angeles, and 
nearly 1.6 million jobs nationwide.
    Combined with our neighboring port, the Port of Long Beach, we 
comprise the San Pedro Bay Port Complex, which handles over 40 percent 
of the nation's containerized imports and 30 percent of all 
containerized exports. One in nine jobs in Southern California is 
connected to the Port Complex, and 2.8 million jobs nationwide. We 
anticipate doubling the quantity of containers traveling through our 
gates in the next 15 years.
    We are the gateway for imports from and exports to Asia and the 
Pacific Rim. Half of the cargo arriving at our berths are consumer 
products, and the other half are goods that are incorporated in 
domestic manufacturing. There is not a single Congressional district 
that is not touched by an import or export handled through the San 
Pedro Bay. This morning, I'm confident everyone in this room used a 
good that crossed the wharves of the Port of Los Angeles before 
arriving here today.
    The goods movement industry underpins our economy and supports our 
standard of living. We know that this Committee is keenly aware of the 
need to invest in and sustain the freight infrastructure that makes our 
work possible. A reliable, sustainable source of funding to support the 
competitiveness of our ports and harbors is essential and we are 
grateful to the Committee for recognizing the fundamental importance 
and gravity of this issue.
    The Harbor Maintenance Tax (HMT) is one such source funding. It is 
a unique and important revenue source that can keep our nation's ports 
and harbors operating at their maximum potential. Shippers pay the tax 
with the expectation that it will be used to keep our ports in optimal 
condition. But, over its history, HMT has been underutilized, leading 
to a backlog of operations and maintenance projects and the 
accumulation of a large balance in the Harbor Maintenance Trust Fund 
(HMTF). In addition to the many ports and harbors that need these funds 
for traditional dredging, there are ``donor ports'' where a large 
proportion of HMT revenues are collected, yet a small amount of HMT 
funding is returned. The Port of Los Angeles is an HMT donor port.
    We are thankful for the Committee's leadership role in the Water 
Resources Reform and Development Act (WRRDA) of 2014 and the Water 
Infrastructure Improvements for the Nation Act (WIIN) of 2016. Both 
pieces of legislation made significant progress towards fully 
utilization of HMT revenues and recognizing the needs of HMT donor 
ports. We ask that you build upon this progress and consider full 
utilization of HMT as part of a comprehensive package of closely 
interrelated reforms.
    We believe the building blocks of comprehensive HMT reform should 
include:
    1.  Guaranteed full utilization of HMT revenues;
    2.  A fair allocation of funding for all the nation's ports and 
harbors, including HMT donor ports; and
    3.  Expanded project eligibility for donors.
    First, comprehensive HMT reform must be built upon full utilization 
of HMT revenues. Full utilization means increased funding and 
accessibility for all types of ports and across all geographical 
regions. Since the enactment of WRRDA 2014, HMT expenditures have 
adhered closely to the target expenditures outlined in that bill. For 
that, we are grateful. In FY19, Congress appropriated 91% of HMTF 
receipts, totaling $1.54 billion. Full spend would result in an 
additional $80 million this year for the nation's ports and harbors. 
More importantly, guaranteed full use of HMT revenues is needed to 
create a virtuous circle wherein investment in port infrastructure 
supports additional growth in trade volumes which, in turn, supports 
more investment in our ports and harbors.
    Second, a fair and equitable allocation framework ensures every 
port region of the country--including traditional dredge ports, 
emerging harbors, and donor ports alike--receive a fair share of HMT 
funding each year. As a donor port, we believe this is both a 
fundamental issue of fairness and critical to the long term health of 
the HMTF. To the issue of fairness, historically, cargo into the Port 
of Los Angeles generates over $200 million in HMT revenue, but we 
received only $3 million in HMT spending.
    <bullet>  In 2017, which is the last year this information was 
available, HMT revenue generated at the Port of Los Angeles was $225 
million. This represents 17.3% of the nation's HMT revenues.
    <bullet>  In contrast, the Port of Los Angeles received $5.46 
million from the $50 million appropriated for the Donor and Energy 
Transfer Port Program funding (under WRRDA Section 2106).
    With respect to the health of the HMTF, the six donor ports as 
defined in WRRDA 2014 account for 50% of all HMT revenue, but receive 
less than two percent in return. It's important that HMT funding be 
used to support these high net contributors to the HMTF, especially as 
these ports face increasing competition from international ports. Cargo 
diversion from donor ports to international ports could undermine the 
long-term growth in the HMTF.
    Third, donor ports need a limited expansion in the types of 
projects eligible for HMT. At the Port of Los Angeles, part of what 
makes us donors to the HMTF is that our federal channel does not 
experience the sedimentation that other ports do. We have in-water 
infrastructure needs that are not currently HMT-eligible expenditures.
    To provide context, the infrastructure at the Port of Los Angeles 
is at a scale that reflects our role as the nation's premier trade 
gateway:
    <bullet>  7,500 acres (4,300 acres of land and 3,200 acres of 
water)
    <bullet>  43 miles of waterfront
    <bullet>  Minus 53, main channel water depth
    <bullet>  27 terminals and 270 berths
    <bullet>  15 marinas with 3,736 recreational vessel slips and dry 
docks
    <bullet>  91 ship-to-shore container gantry cranes
    However, we face an ever changing maritime shipping industry and 
evolving infrastructure demands. We were honored in December 2015 to 
receive the first 18,000 TEU ship to visit an American port; earlier 
this year, we received the first 20,000 TEU ship. In addition to 
capital berth dredging necessitated by the advent of these larger 
container ships, we have nearly $260 million in container terminal 
wharf maintenance for in-water structures, such as decks, beams, 
mooring bitts and piles. Additionally, we need support to fortify and 
maintain seismic compliance of in-water structures. These expanded uses 
of funds will assist donor ports in applying funds towards projects 
that provide our customers world-class infrastructure and keep us 
competitive against international competition.
    Full use, fair and equitable allocation, and expanded uses for 
donor ports. We view these as the critical and interconnected parts of 
comprehensive HMT reform. To this end, I recommend the Committee start 
with the HMT spending framework developed by the American Association 
of Port Authorities (AAPA). Moving forward, I understand this Committee 
and Congress as a whole will develop its own HMT spending plan. As a 
starting point for those discussions, I would encourage you to look at 
the AAPA framework to help inform those deliberations as you move 
forward. That framework represents a balanced consensus forged between 
a wide variety of ports--both by type and geography--and is built upon 
the key reform elements I have described.
    The last thing I would like to underscore is the need to create a 
strong link between any full use solution and an allocation plan that 
addresses the port community's needs and concerns. Throughout our 
ongoing HMT discussions within the industry, two things have become 
clear: 1) broad-based port community support for full utilization of 
the HMT exists, especially if it's tied to an equitable spending 
framework; and, 2) an agreement on a spending framework is eminently 
reachable.
    Chairman DeFazio, Chairwoman Napolitano, Ranking Member Westerman 
and Members, thank you for holding this very timely hearing. We are 
truly poised at a moment in time when comprehensive HMT reform is 
within reach and I appreciate this opportunity to address you. I thank 
you for your leadership in addressing this crucial freight 
infrastructure issue and stand ready to support and work with you.
    Thank you for your time today. I am happy to answer any questions 
you have.

    Mrs. Napolitano. Thank you, Mr. Seroka.
    And, Ms. Brady, you are now recognized.
    Ms. Brady. Thank you. Chairman DeFazio, Chairwoman 
Napolitano, Ranking Member Westerman, and members of the 
subcommittee, my name is Bonnie Brady. I am here again today 
representing the Long Island Commercial Fishing Association as 
its executive director. Our membership represents commercial 
fisherman from 11 different gear groups at 14 ports throughout 
Long Island. It is an honor to be called back again to speak to 
your committee about what I hope will finally be the full 
utilization of the Harbor Maintenance Trust Fund.
    For those of you on the subcommittee that may remember my 
face, I first spoke to you back in 2011 as a guest of my then-
Congressman Timothy Bishop, who represented the First District 
of the State of New York, when H.R. 104, the Realize America's 
Maritime Promise Act, otherwise known as the RAMP Act, was on 
the congressional front burner. I would like to thank all of 
you and your staff for the opportunity to present my comments 
to you today.
    Commercial fishing on Long Island is responsible for 99 
percent of New York's land and seafood catch. In 2017, that 
translated to over 24 million pounds of seafood, worth just 
under $48 million at the dock. That year-round commercial 
fishing income powers the economic engines of hundreds of Long 
Island businesses, approximately over $200 million, when adding 
the industry standard economic multiplier.
    Montauk, our State's largest port and within the First 
District, was the 55th largest commercial fishing port in the 
Nation in 2017, based on poundage. We landed 10.1 million 
pounds of seafood worth $14 million at the dock, to the boats 
themselves, what is termed ex-vessel value. As a way to 
describe that in relation to Montauk itself, a town of 3,100 
people, that is equal to 322 pounds of fish caught for every 
man, woman, and child.
    Montauk brings in millions of year-round dollars, which 
then make their way to our local mom-and-pop shops, whether it 
is via the captain and/or crew of a fishing boat, the ice 
supplier, welder or gear shop, seafood market, grocery store or 
restaurant. These people and their small businesses are the 
very fabric which makes up all of our coastal fishing port 
communities of Long Island.
    Our coastal waterways and ports are our version of your 
Metro and beltway here in DC. And without properly maintained 
dredging, hundreds of local businesses and families could be 
negatively impacted yearly on Long Island. We have had a series 
of maintenance dredges. Montauk in 2008, 2012 and 2018; 
Shinnecock in 2004, 2010, and 2017; and Moriches in 2013. Plus, 
emergency dredges took place in Moriches this past year and in 
Montauk in 2011 and Shinnecock in 2014. But that doesn't really 
paint the true picture of the needs of our fishing ports, the 
need for consistent methodical maintenance dredging that the 
Harbor Maintenance Trust Fund was, I believe, set up to do.
    Time and time again, the maintenance dredging that we have 
received, though greatly appreciated, did not do the job 
necessary because it was not on a consistent 3-year cycle. 
While I don't have a crystal ball into the future to see what 
nor'easters Mother Nature is ready to serve us, I do know the 
consequences of not being able to get in or out of port as a 
commercial fisherman on Long Island due to a shoaled-in port.
    As a commercial fisherman, you lose income when your inlet 
isn't dredged deep enough. Say you have a boat that draws, for 
example, 12 feet, meaning its depth under the waterline, but 
the inlet, because of shoaling, is only 10 feet deep. What that 
means is your boat must wait to leave on higher tide or you 
risk running aground, which equals more lost income via a trip 
to the shipyard.
    As a commercial fisherman, you lose income, because having 
to leave on a high tide because of shoaling of your port means 
sometimes you lose a day getting to your fishing grounds. 
Because if you can't get out of the inlet on time, on fishing 
time, to steam where you know the fishing has been red hot of 
late, by the time you do leave, you get to the grounds late and 
the fish are on the move again.
    As a commercial fisherman, you lose income when you can't 
land your catch because you cannot get into your inlet until 
the tide is high again to package your fish to send into New 
York City. If you miss the truck and the market doesn't take 
place the following day or until after the weekend, you could 
risk spoil of part or possibly your whole catch. And while I am 
very grateful that, as far as Long Island goes, we have not 
lost any fishermen due to a boat going aground in shoaling 
waters in our ports that I can recall in recent memory, we have 
in the past come far too close. All of these issues are 
unacceptable sequelae due to inadequate maintenance dredging, 
which the Harbor Maintenance Trust Fund was set up to protect 
against.
    Having to wait 6 or 7 years for maintenance dredging or 
scramble for emergency dredging funding is just not the way to 
support the people and ports that harvest and feed this Nation 
and beyond. And it does nothing to guarantee our safety and the 
safety of the thousands of commercial fishermen that do this 
job day in and day out through the U.S.
    Thank you all sincerely for holding this hearing today 
focusing on fully utilizing the fund as it was intended. Doing 
nothing, in my opinion, at best, creates a panacea of economic 
losses for commercial fishermen and their port towns. In its 
very worst, it could cost commercial fishermen their lives. 
Thank you for allowing me to express these views today, and I 
look forward to any questions from you or any members of the 
subcommittee.
    [Ms. Brady's prepared statement follows:]

                                 
  Prepared Statement of Bonnie Brady, Executive Director, Long Island 
           Commercial Fishing Association, Montauk, New York
    Mr. Chairman and members of the subcommittee, my name is Bonnie 
Brady. I am here again today representing the Long Island Commercial 
Fishing Association as its executive director. Our membership 
represents commercial fishermen from 11 different gear groups at 14 
ports throughout Long Island. It is an honor to be called back again to 
speak to your subcommittee about what I hope will finally be the full 
utilization of the Harbor Maintenance Trust Fund.
    For those of you on the subcommittee that may remember my face, I 
first spoke to you back in 2011 as a guest of my then Congressman 
Timothy Bishop, who represented the First District of the State of New 
York, when HR 104, the Realize America's Maritime Promise act otherwise 
known as the RAMP act, was on the Congressional front burner. I would 
like to thank all of you, and your staff, for the opportunity to 
present my comments to you today.
    Commercial fishing on Long Island is responsible for 99 percent of 
New York's landed seafood catch. In 2017, that translated to over 24 
million pounds of seafood worth just under $48 million dollars at the 
dock. That year-round commercial fishing income powers the economic 
engines of hundreds of Long Island businesses, approximately over $200 
million dollars when adding the industry-standard economic multiplier.
    Montauk, our state's largest port, and within the First District, 
was the 55th largest commercial fishing port in the nation in 2017 
based on poundage. We landed 10.1 million pounds of seafood, worth 
$14.8 million dollars at the dock, to the boats themselves, what is 
termed ex-vessel value. As a way to describe that in relation to the 
Montauk itself, a town of 3100 people, that's equal to 322 pounds of 
fish caught for every man, woman and child.
    Montauk brings in millions of year-round dollars, which then make 
their way to our local mom and pop shops, whether it is via the captain 
and/or crew of a fishing boat, the ice supplier, welder or gear shop, 
seafood market, grocery store, or restaurant, these people and their 
small businesses are the very fabric which makes up all of our coastal 
fishing port communities of Long Island. Our coastal waterways and 
ports are our version of your Metro and Beltway here in DC, and without 
properly maintained dredging, hundreds of local businesses and families 
could be negatively impacted yearly on Long Island.
    We have had a series of maintenance dredges, Montauk in 2008, 2012, 
and 2018, Shinnecock in 2004, 2010, and 2017, and Moriches in 2013. 
Plus emergency dredges took place in Moriches this past year, and in 
Montauk in 2011 and Shinnecock in 2014. But that doesn't really paint 
the true picture of the needs of our fishing ports; the need for 
consistent, methodical maintenance dredging that the Harbor Maintenance 
Trust Fund was, I believe, set up to do.
    Time and time again, the maintenance dredging that we have 
received, though greatly appreciated, did not do the job necessary 
because it was not on consistent three-year-cycles.
    While I don't have a crystal ball into the future to see what Nor-
Easters Mother Nature is ready to serve us, I do know the consequences 
of not being able to get in or out of port as a commercial fisherman on 
Long Island due to a shoaled in port.
    As a commercial fisherman, you lose income when your inlet isn't 
dredged deep enough. Say you have a boat that draws, for example, 12 
feet (meaning its depth under the water line) but the inlet, because of 
shoaling, is only ten feet deep. What that means is your boat must wait 
to leave on higher tide or you risk running aground, which equals more 
lost income via a trip to the shipyard.
    As a commercial fisherman, you lose income because having to leave 
on a high tide because of shoaling of your port means sometimes you 
lose a day getting to your fishing grounds, because if you can't get 
out of the inlet on time, on fishing time, to steam to where you know 
the fishing has been red-hot of late, by the time you do leave, you get 
to the grounds late and the fish are on the move again.
    As a commercial fisherman, you lose income when you can't land your 
catch, because you cannot get into your inlet until the tide is high 
again to pack your fish to send into New York City. If you miss the 
truck and the market doesn't take place the following day, or until 
after the weekend, you could risk spoil of part, or possibly your whole 
catch.
    And while I am very grateful that as far as Long Island goes, we 
have not lost any fishermen due to a boat going aground in shoaling 
waters in our ports that I can recall in recent memory, we have in the 
past come far too close. All of these issues are unacceptable sequelae 
due to inadequate maintenance dredging, which the Harbor Maintenance 
Trust Fund was set up to protect against.
    Having to wait six or seven years for maintenance dredging, or 
scramble for emergency dredging funding is just not the way to support 
the people and ports that harvest and feed this nation and beyond. And 
it does nothing to guarantee our safety and the safety of the thousands 
of commercial fishermen that do this job day in and day out throughout 
the US.
    Thank you all sincerely for holding this hearing today focusing on 
fully utilizing the Fund as it was intended. Doing nothing, in my 
opinion, at best creates a panacea of economic losses for commercial 
fishermen and their port towns, and at its very worst, it could cost 
commercial fishermen their lives.
    Thank you for allowing me to express these views today, and I look 
forward to any questions from you or any other members of the 
subcommittee.

    Mrs. Napolitano. Thank you, Ms. Brady.
    And I now recognize Mr. Ross.
    Mr. Ross. Thank you, Chairwoman Napolitano and Ranking 
Member Westerman, and Chairman DeFazio. I appreciate the 
opportunity to testify today on behalf of the National Corn 
Growers Association. NCGA represents nearly 40,000 dues-paying 
corn farmers and the interests of more than 300,000 farmers who 
contribute through the corn checkoff programs in their States.
    My name is Kevin Ross. I am a sixth-generation farmer from 
Iowa, where my wife, Sara, and I grow corn, soybeans, and 
alfalfa as well raise cattle. I am also first vice president of 
NCGA. My farm sits about 20 miles east of the Missouri River 
near Council Bluffs, the heart of the recent floods.
    America's corn farmers need reliable means of moving our 
crops to customers, whether it is to livestock feedyards, grain 
elevators, ethanol plants, or to river ports for export. 
Farmers use many modes of transportation, with the inland 
waterway system being a vital artery for our products and 
especially for farmers in the Midwest.
    With 12,000 miles of commercially navigable channels and 
more than 240 lock sites, inland waterways allow our Nation's 
corn growers to move their product to and from 38 States, 
including Arkansas, Illinois, Iowa, Minnesota, Missouri, Ohio, 
Tennessee and Wisconsin as well as internationally through the 
Mississippi, Missouri, Illinois and Ohio Rivers. There are six 
States represented on the committee that do not have any 
accessible coastline of the ocean or gulf. The Mississippi 
River System is the coastline of the Midwest and helps gain 
access to those outer coastal markets.
    Given that more than half of corn exports are transported 
via the inland waterway system, continuing to invest in this 
system is critically important to our competitiveness and 
livelihoods. Much of the physical infrastructure is aging and 
in need of improvements. For example, commercial navigation 
locks typically have a design life of 50 years, and yet, by the 
end of 2020, 78 percent of the U.S. locks will have outlived 
that designated lifespan. While volumes of grain, ethanol, and 
byproduct exports increase, the efficiency of the locks 
decrease. Barge tows must be split in two because lock chambers 
aren't large enough to accommodate them. Efficiency lags cost 
money, which flows down to the farmer in the form of lower 
prices for our corn.
    By one estimate, America's transportation deficiencies will 
cost U.S. agriculture $1.3 billion in exports because our 
current infrastructure system increases the cost of the 
production process and makes access to markets more expensive.
    Continued low commodity prices and consecutive years of 
declining farm income coupled with recent trade disruptions and 
the aging infrastructure system of locks and dams are taking a 
toll on farmers. The United States is the world's largest 
exporter of corn, shipping more than 2 billion bushels overseas 
last year, but we face tough competition from other countries, 
such as Brazil and Argentina. The majority of corn exports are 
shipped through the inland waterway system, with 54 percent of 
them being transported by barge, according to a recent USDA Ag 
Marketing Service report. Transportation efficiencies and costs 
are a major variable that keeps our farmers competitive in 
overseas markets.
    Investing in lock and dam upgrades and their operation and 
maintenance, to ensure an efficient inland waterway system, is 
a major NCGA infrastructure priority. NCGA has identified 25 
locks and dams that are in need of upgrade and repairs. And we 
urge special attention to the Navigation and Ecosystem 
Sustainability Program, otherwise known as NESP. The 2007 WRDA 
bill first authorized NESP as a long-term program of navigation 
improvements and ecological restoration for the Mississippi 
River System. The NESP program allows the U.S. Army Corps of 
Engineers to increase capacity at seven key locations, while 
investing in ecosystem improvements along the river systems. 
The Upper Mississippi is generally where most grain export 
originates.
    Modernizing these seven locks will increase the efficiency 
of the inland waterways transportation system, which means that 
the cost of transportation will decrease and keep farmers like 
myself competitive in foreign markets. We realize the 
infrastructure upgrades we seek have a cost. Established 
public-private partnerships in our waterways have previously 
been a success story.
    A strong partnership between the Army Corps of Engineers 
and commercial operators through the Inland Waterways Trust 
Fund allow commercial users of the inland waterway system to 
contribute substantial revenues for rehabilitation and 
modernization of the system. The revenues are generated through 
tax collected as a levy on fuel used in commercial 
transportation on the inland waterways at 29 cents per gallon. 
These revenues are placed in the Inland Waterways Trust Fund 
and matched with public funds for capital improvements on 
infrastructure. This partnership is what helps make the inland 
waterway system such an efficient and viable way to transport 
our product to market.
    While there is success in other toll-based partnerships in 
transportation programs, there is significant difference in the 
waterway system. Unlike the highway program, where users have a 
choice to use a tolled or untolled facility, waterway users 
will be faced with no choice.
    Production agriculture will be negatively impacted, as 
family farmers upstream will be double-tolled once the 
fertilizer they are using comes upstream and then crops they 
are exporting move downstream. Studies show that cost could be 
up to 31.5 cents per bushel of corn. That is an extra cost that 
farmers cannot bear.
    On behalf of the National Corn Growers Association, I am 
grateful for the subcommittee's support for farmers and the 
other users of the inland waterway system. We appreciate the 
opportunity to provide input in today's discussion and stand 
ready to work with you and serve as a resource for further 
discussions regarding water transport. Again, thank you for the 
opportunity, and I look forward to your questions.
    [Mr. Ross's prepared statement follows:]

                                 
 Prepared Statement of Kevin Ross, First Vice President, National Corn 
                   Growers Association, Minden, Iowa
    Thank you, Chairwoman Napolitano and Ranking Member Westerman. I 
appreciate the opportunity to testify today on behalf of the National 
Corn Growers Association (NCGA). NCGA represents nearly 40,000 dues-
paying corn farmers and the interests of more than 300,000 farmers who 
contribute through corn checkoff programs in their states.
    My name is Kevin Ross. I am a sixth-generation Iowa farmer, where 
my wife Sara and I grow corn, soybeans and alfalfa, as well as raise 
cattle. I am also the First Vice President of NCGA. My farm sits about 
20 miles east of the Missouri River.
    America's corn farmers need reliable means of moving our crops to 
customers, whether it's to livestock feed yards, grain elevators, the 
ethanol plant, or ports for export. Farmers use many modes of 
transportation, with the inland waterway system being a vital artery of 
transportation for our products, especially for farmers in the Midwest.
    With 12,000 miles of commercially navigable channels and more than 
240 lock sites, inland waterways allow our nation's corn growers to 
move their product to and from 38 states including Alabama, Illinois, 
Iowa, Minnesota, Missouri, Ohio, Tennessee, and Wisconsin as well as 
internationally through the Mississippi, Missouri, Illinois, and Ohio 
Rivers. Moving our product through the inland waterways system allows 
us to transport our product in a way that is beneficial to both the 
economy and the environment.
    Given that more than half of corn exports are transported via the 
inland waterways system, continuing to invest in this system is 
critically important to our competitiveness and livelihoods. Much of 
the physical infrastructure is aging and in need of improvements. For 
example, commercial navigation locks typically have a design life of 50 
years, yet by the end of 2020, 78 percent of U.S. locks will have 
outlived that designated lifespan. While volumes of grain, ethanol, and 
by-product exports increase, the efficiency of the locks decrease. 
Barge tows must split into two because the lock chambers aren't large 
enough to accommodate them. Efficiency lags cost money, which flows 
down to the farmer in the form of lower prices for our corn.
    By one estimate, America's transportation deficiencies will cost 
U.S. agriculture $1.3 billion in exports because our current 
infrastructure system increases the cost of the production process and 
makes access to markets more expensive.
    Continued low commodity prices and consecutive years of declining 
farm income, coupled with recent trade disruptions and the aging 
infrastructure system of locks and dams are taking a toll on farmers. 
The United States is the world's largest exporter of corn, shipping 
more than 2 billion bushels overseas last year, but we face tough 
competition from Brazil and Argentina. The majority of corn exports are 
shipped through the inland waterway system with 54 percent of corn 
exports being transported by barge, according to a recent USDA 
Agricultural Marketing Service report. Transportation efficiencies and 
costs are a major variable keeping our farmers competitive in overseas 
markets. Every market counts and we need to be able to compete.
    Investing in lock and dam upgrades their operation and maintenance 
to ensuring an efficient inland waterway system is a major NCGA 
infrastructure priority. NCGA has identified 25 locks and dams that are 
in need of upgrades and repairs. We urge special attention to the 
Navigation and Ecosystem Sustainability Program (NESP). The 2007 WRDA 
bill first authorized NESP as a long-term program of navigation 
improvements and ecological restoration for the Mississippi River 
System. NESP allows the U.S. Army Corps of Engineers to increase 
capacity at seven key locations, while also investing in ecosystem 
improvements along the river systems. The Upper Mississippi River is 
generally where most grain export originates. Modernizing these seven 
locks will increase the efficiency of the inland waterways 
transportation system, which means that the cost of transportation will 
decrease, and keep farmers like myself competitive in foreign markets. 
This program promotes collaboration between agriculture, trade, 
organized labor and conservation groups to work together to build new 
locks and dams on the Illinois and Mississippi Rivers, supporting the 
more than half-million jobs that depend on the inland waterways.
    We realize the infrastructure upgrades we seek have a cost. 
Established public private partnerships in our waterways have been a 
success story.
    A strong partnership between the Army Corps of Engineers and 
commercial operators through the Inland Waterway Trust Fund, allow 
commercial users of the inland waterway system to contribute 
substantial revenues for rehabilitation and modernization of the 
system. The revenues are generated through a tax collected as a levy on 
fuel used in commercial transportation on the inland waterways at $.29 
cents-per-gallon. These revenues are placed in the Inland Waterways 
Trust Fund and matched with public funds for capital improvements on 
infrastructure. This partnership is what helps make the inland waterway 
system such an efficient and viable way to transport our product to 
market. While there is success in other toll-based partnerships in 
transportation programs, there is a significant difference in the 
waterways system. Unlike the highway program, where users have the 
choice to use a tolled or un-tolled facility, waterway users would be 
faced with no choice. The result would be moving product by other 
modes. Production agriculture would be negatively impacted as family 
farmers living upstream would be tolled doubled, once for the 
fertilizer that they use comes upstream, and then transporting export 
crops to market on the waterways. Studies have shown that farmers could 
potentially have to pay approximately $31.5 cents per-bushel in toll 
fees, which would force the transportation of grain onto other modes 
leaving less transportation options for the family farmer, compounding 
our current road and railway system. We must maintain and invest in the 
future of our waterway system, amplifying our advantage instead of 
continuing to watch its slow erosion.
    On behalf of the National Corn Growers Association, I am grateful 
for this subcommittee's support for farmers and the other users of the 
inland waterway system. We appreciate the opportunity to provide input 
into today's discussion and stand ready to work with you and serve as a 
resource for further discussions regarding water transport. Again, 
thank you for this opportunity, I look forward to your questions.

    Mrs. Napolitano. Thank you, Mr. Ross.
    And now I turn it over to Mr. Westerman.
    Mr. Westerman [presiding]. Thank you, Madam Chair, who 
gracefully offered to let me introduce a friend and a 
constituent and a tireless advocate for inland waterways, 
Phyllis Harden from Pine Bluff Sand and Gravel, who is their 
director of legislative and special projects and also is the 
vice chair of the Pine Bluff-Jefferson County Port Authority, 
and she serves on the board of directors for the Dredging 
Contractors of America as well as the National Waterways 
Conference.
    Ms. Harden, you are recognized for 5 minutes.
    Ms. Harden. Thank you, Ranking Member Westerman. And thank 
you, Chairwoman Napolitano and Chairman DeFazio and other 
members of the subcommittee. It is an honor and a privilege to 
testify before you today.
    My testimony will focus on the importance of the inland 
waterways transportation system, the McClellan-Kerr Arkansas 
River Navigation System, and reform that could benefit inland 
waterways infrastructure.
    The Pine Bluff Sand and Gravel Company is a fourth-
generation family-owned business that has been in operation for 
over 100 years. We are headquartered in Pine Bluff, Arkansas, 
and have operations in Louisiana, Kentucky, Tennessee, and 
Alabama. We specialize in crushed stone and riprap delivered by 
barge on the Mississippi River and its tributaries, marine 
construction and transportation, commercial sand dredging, 
ready-mix concrete, and hot mix asphalt. The McClellan-Kerr 
Arkansas River Navigation System, or MKARNS, is a 445-mile, 9-
foot navigation system channel consisting of 18 locks and dams 
that begins at the confluence of the White and Mississippi 
Rivers and ends at Tulsa, Oklahoma. Construction of this system 
began in 1957 and completed in 1971, which, sadly, by today's 
standards, make these locks some of the newer locks on the 
Nation's inland waterways.
    Pine Bluff Sand and Gravel supports three separate 
priorities on the MKARNS: First, in the America's Water 
Infrastructure Act of 2018, this committee was instrumental in 
authorizing the construction of a navigation improvement 
project at Three Rivers, which is at the confluence of the 
Arkansas, White, and Mississippi Rivers in southeast Arkansas. 
Basically, the White and Arkansas Rivers come closer and closer 
together after each high water event. If an uncontrolled 
channel develops, navigation on the MKARNS would be lost for an 
extended amount of time.
    Our second priority is funding to address a critical 
backlog maintenance on the MKARNS. While the MKARNS is one of 
the newer systems, its rapidly aging system is worsened by 
long-deferred maintenance, which is becoming more acute with 
each passing year. Critical work is defined as there being a 
greater chance, greater than 50 percent chance of failure 
within 5 years. Years of neglect have led to a situation where 
the MKARNS is facing a critical backlog of approximately $240 
million. The highest priorities are Tainter gate replacements, 
110-foot stop logs, and center post receivers.
    Our third priority and what has been long sought 
modification to the MKARNS is the proposed deepening of the 
current 9-foot navigation channel to 12 feet. Congress 
authorized the construction of this project in 2003, provided 
funds for it in 2004, and the Corps of Engineers constructed 
several project features, but since that time, no additional 
funds have been provided for the Corps to continue the project. 
This project would allow 40 percent more tonnage in each barge 
and result in shipper savings of $43.1 million annually.
    My description of the MKARNS as an important navigation 
asset with aging infrastructure, underfunded projects, and 
deferred critical maintenance would also apply to other 
waterways. Fortunately, this committee promoted and carried out 
changes in the Water Resources Reform and Development Act of 
2014 that have accelerated project delivery on the inland 
waterway system. Most significantly, a cost share of 85 percent 
general revenues and 15 percent Inland Waterways Trust Funds at 
Olmsted Lock and Dam has accelerated the project delivery and 
operability of the new lock. And that is just one example of 
how efficient project funding can lead to accelerated and 
significant economic benefits for the Nation.
    Now that Olmsted is almost complete, the trust fund is 
likely to go back to operating at a 50/50 cost share split for 
construction projects. If this happens, the current portfolio 
of 15 projects awaiting construction could take almost 40 years 
to complete. Two of our priorities are on that list.
    WRDA 2016, the cost formula for deepening coastal ports was 
changed from the 50/50 to a 75/25 split. And changing the cost 
share in the same manner for the inland waterways construction 
projects has a potential of completing these projects in 20 
years instead of the current 40 years. I would like to ask the 
committee in their upcoming legislation that they would modify 
that cost share to be a permanent 75/25 split so that we can 
get these projects accelerated quickly instead of the length of 
time it has been.
    And then I realize I am almost out of time, and I want to 
quickly tell you our story. Pine Bluff Sand and Gravel in 1998 
joined the effort to realize a 12-foot channel on the MKARNS. 
After 13 years, we reluctantly had to move our primary source 
of rock from River Mountain Quarry on the Arkansas River to a 
more competitive location. In 2010, we purchased the Cumberland 
River Quarry on the Cumberland River above Paducah near Salem, 
Kentucky.
    Therefore, our quarry on the Arkansas River is now 
operating at a much smaller scale and numerous employees were 
laid off. Sadly, this could have been one of the largest 
quarries in the region. However, the additional cost of the 
shallow channel was simply too much for us to continue 
subsidizing. Our cost and bidding are extremely sensitive to 
competition, and we have lost jobs by a penny or a nickel per 
ton. We could not afford the cost of doing nothing.
    Thank you for the opportunity to provide our perspective to 
this committee today, and I look forward to any questions or 
comments.
    [Ms. Harden's prepared statement follows:]

                                 
 Prepared Statement of Phyllis Harden, Executive Assistant, Pine Bluff 
               Sand and Gravel Co., Pine Bluff, Arkansas
    Chairwoman Napolitano, Ranking Member Westerman, and Members of the 
Subcommittee, thank you for the opportunity to testify today on the 
topic of ``The Cost of Doing Nothing: Why Full Utilization of the 
Harbor Maintenance Trust Fund and Investment in our Nation's Waterways 
Matter.'' My testimony will focus on the importance of the inland 
waterways transportation system, the McClellan-Kerr Arkansas River 
Navigation System, and potential reforms that could benefit inland 
waterways infrastructure.
    The Pine Bluff Sand and Gravel Company is a fourth-generation 
family-owned business that has been in operation for over 100 years. We 
are headquartered in Pine Bluff, Arkansas, and have operations in 
Louisiana, Kentucky, Tennessee, and Alabama. We specialize in crushed 
stone and riprap delivered by barge on the Mississippi River and its 
tributaries, marine construction and transportation, commercial sand 
dredging, and ready-mix concrete and hot mix asphalt. We directly 
employ around 500 people and generate business that supports many more. 
I also currently serve as the Vice-Chair of The Pine Bluff-Jefferson 
County Port Authority and serve on the Board of Directors for Dredging 
Contractors of America and the National Waterways Conference.
    Pine Bluff Sand and Gravel has been in business for over a century 
in part because of opportunities the nation's inland waterway 
transportation system provides. When transporting bulk commodities, 
such as aggregates, the inland waterways presents the most economical 
and environmentally friendly form of transportation. In fact, for every 
single barge of aggregates we ship, this equals 70 trucks that are not 
on the road. In 2017, there were more than 550 million tons transported 
on the inland waterways system valued at $220 billion. Of that tonnage, 
almost 80 million tons were aggregates, which is 14% of the total 
tonnage moved on the system.
    Many people do not realize the importance of the inland waterways 
system because they are not stuck in traffic with barges, or regularly 
held up by barges at railroad crossings. But what most people don't 
realize is that if you are near a navigable waterway, there is good 
chance that the aggregates used to build key parts of your community 
were most likely transported via water at some point. In fact, this 
last year, Nashville, Tennessee's boom in building required four 
million tons of concrete shipped via the waterway, which equates to 
160,000 18-wheeler trucks.
        mcclellan-kerr arkansas river navigation system (mkarns)
    The McClellan-Kerr Arkansas River Navigation System, or MKARNS, is 
a 445-mile, 9-foot navigation channel that consists of 18 locks and 
dams that begins at the confluence of the White and Mississippi rivers 
and ends near Tulsa, Oklahoma. Construction of this system began in 
1957 and was completed in 1971, which, by today's standards, sadly, 
make these locks some of the newer ones on the nation's inland 
waterways. Prior to the construction of these locks and dams, this 
system was not navigable year around, and in fact it was not uncommon 
to see a nearly dry river bed that one could wade across. There are 
five major public port facilities, and 62 private ports and terminals 
that support the movement of the major commodities that are shipped on 
the MKARNS. These commodities include coal, petroleum products, 
fertilizers, grain, sand and gravel, and iron and steel-products. The 
MKARNS was upgraded to a high-use waterway system in 2018 based on a 
five-year average of 3.33 billion ton-miles transported.
    Pine Bluff Sand and Gravel supports three separate and co-equal 
priorities on the MKARNS.
    First, this Committee was instrumental in authorizing the Chief's 
Report in America's Water Infrastructure Act of 2018 for navigation 
improvement at Three Rivers Project, where the White and Arkansas River 
meet the Mississippi River. The structures currently in place are 
rapidly deteriorating, and should any of these components fail, the 
MKARNS would not be a functioning commercial waterway for an extended 
amount of time. Additionally, like most of the nation's inland 
waterways system, the authorized project at Three Rivers will provide 
significant environmental benefits, allowing previously disconnected 
waterbodies to return to a more natural open water ecosystem.
    Our second co-equal priority is funding for the critical 
maintenance backlog on the MKARNS. While I mentioned earlier in my 
testimony that MKARNS is one of the newer systems, it is a rapidly 
aging system exacerbated by long-deferred maintenance. As this system 
was completed nearly 50 years ago, the maintenance needs of the MKARNS 
are becoming more acute with each passing year. Defined as a component 
which has a 50% probability of failure within the next five years, 
critical maintenance on the MKARNS has long been deferred, and years of 
neglect has led to a situation where the MKARNS is facing a critical 
maintenance backlog of approximately $240 million.
    Our third co-equal priority, and one that has been a long-sought 
modification to the MKARNS, is the proposed deepening of the current 9-
foot channel to 12-feet of depth. Congress authorized the construction 
of this project in 2003, and provided funds for the project in 2004. At 
that time, the Corps of Engineers constructed several project features, 
and yet since that time, no additional funds have been provided to the 
Corps to continue the project. We would encourage Federal authorities 
to resume the project since greater depths will allow an additional 40% 
per barge to be transported compared to the current channel. This 
deepening project would also result in a shipper savings of $43.1 
million annually.
         modernizing the inland waterways transportation system
    My description of the MKARNS as an important navigation asset with 
aging infrastructure, under-funded projects, and deferred critical 
maintenance, also applies to other waterways in our country. 
Fortunately, some steps have been taken to begin to improve important 
infrastructure features of America's transportation network, but more 
attention is needed.
    In 2015, the inland waterways industry, including Pine Bluff Sand 
and Gravel, successfully advocated for a 45% increase to the diesel 
fuel tax deposited into the Inland Waterways Trust Fund (IWTF), which 
is currently the highest federal fuel tax being paid by any mode of 
surface transportation. There are numerous beneficiaries of the 
nation's inland waterways system such as: recreational users, municipal 
water supply, hydropower, industrial processes and cooling water, flood 
damage reduction, national security, and other national and regional 
economic development opportunities. Only the commercial towboat 
operators pay the tax that is dedicated to support the inland 
waterways.
    This Committee promoted and carried out changes in the Water 
Resources Reform and Development Act of 2014 that has significantly 
accelerated project delivery on the inland waterways system. Besides 
the 45% increase to the diesel fuel tax, a cost-share change at Olmsted 
Locks and Dam allowed for the Trust Fund to operate over the last six 
years at about a 25% IWTF/75% general fund split. This cost-share 
change has also accelerated the operability of Olmsted, allowing for 
$600 million in annual national economic benefits to be accrued four 
years ahead of schedule. Olmsted is just one example of how efficient 
project funding can lead to accelerated and significant economic 
benefits for the nation. Now that Olmsted is complete, the IWTF is most 
likely going to return to operating at a 50% IWTF/50% general fund 
formula for construction projects. If this happens, the current 
portfolio of at least 15 projects awaiting construction could take 
almost 40 years to complete. The MKARNS' critical Three Rivers project 
is one of these projects. Therefore, I am asking the Committee to 
consider modifying the cost-share for inland waterways construction 
projects to 25% IWTF/75% general revenue in any potential 
infrastructure legislation that is moving this Congress.
    Freight moved by the inland waterways is the least expensive, most 
fuel efficient, environmentally friendly mode of transportation. When 
it is allowed to work efficiently, the economic and environmental 
benefits to the nation are significant. Improving the funding formula 
for new and on-going projects and addressing deferred maintenance 
backlog will pay multiple benefits to the nation in the form of lower 
transportation costs, more jobs, and less congestion.
    Thank you for the opportunity to provide Pine Bluff Sand and 
Gravel's perspective to the Committee today. I look forward to any 
questions or comments you may have.

    Mr. Westerman. Thank you for your testimony.
    The Chair now recognizes Mr. Peter Stephaich. He is 
chairman of Campbell Transportation Company, on behalf of the 
Waterways Council, Inc. from Houston, Pennsylvania. You are 
recognized for 5 minutes.
    Mr. Stephaich. Thank you very much. Chairman DeFazio, 
Chairwoman Napolitano, Ranking Member Westerman, and members of 
the subcommittee, thank you for the opportunity to testify 
before you today. My testimony will focus on the importance of 
the inland waterways transportation system and the Inland 
Waterways Trust Fund.
    I currently serve as chairman and CEO of Campbell 
Transportation Company, headquartered near Pittsburgh, 
Pennsylvania. I am also the chairman of Waterways Council. 
Waterways, WCI, is the national public policy organization that 
advocates for a modern and well-maintained system of waterways 
and ports.
    Our inland waterway transportation system consists of 
12,000 miles of commercially active inland waterways, on which 
nearly 600 million tons of products move annually, representing 
a value of over $220 billion. About 400 commercial operators 
currently pay a 29-cent-per-gallon diesel fuel tax that is 
deposited into the Inland Waterway Trust Fund.
    Users of the system successfully advocated in support of 
raising our tax by 45 percent in 2015, from 20 cents to 29 
cents per gallon. This tax currently generates about $115 
million a year and pays for up to half the cost of new lock and 
dam construction, major rehabilitation, and channel deepening.
    Since the enactment of the Water Resources Development Act 
of 1986 through 2014, the Inland Waterways Trust Fund supported 
construction completion of over 29 modernization projects. 
Currently, the trust fund is supporting construction of five 
lock and dam modernization projects.
    I would like to thank this committee for passing important 
policy changes contained in the Water Resources Reform and 
Development Act of 2014, particularly the cost share policy 
revision for Olmsted Locks and Dam, along with the 45-percent 
increase in the inland waterway diesel fuel tax, allowed for 
the trust fund to be leveraged from less than $200 million per 
year to a $400-million-a-year annual program.
    That cost share change from 50 percent trust fund and 50 
percent general fund, to 15 percent from the trust fund and 85 
percent from the general fund has accelerated the completion of 
the Olmsted project while saving the taxpayers money. Let me 
explain. The accelerated and steady funding for Olmsted Locks 
and Dam allowed the Corps to dedicate the project last August 
in 2018, 4 years ahead of schedule and at a completion cost 
$330 million below what the Corps had projected. Not only did 
the cost share change help Olmsted, but it also allowed 
construction to proceed on three other priority navigation 
projects: Lower Monongahela, Kentucky lock, and Chickamauga 
lock. This cost share change also allowed for the initiation of 
the major rehab project on LaGrange lock on the Illinois 
waterway.
    Unfortunately, our inland waterway system continues to 
deteriorate. Currently, there are more than 15 other authorized 
high-priority inland projects awaiting construction. With 
Olmsted's completion and no additional policy changes and 
improvements, only about $230 million a year will be available 
for inland waterway project modernization. That is the $115 
million in trust fund revenues times two at 50 percent. At this 
funding level, many of these projects won't start construction 
during the next 20 years, greatly increasing the probability of 
catastrophic failure somewhere in the system and causing the 
system to further deteriorate.
    In the Water Resources Development Act of 2016, Congress 
changed the cost share model for funding construction of deep 
draft ports from 45 to 50 feet from 50 percent non-Federal 
sponsor and 50 percent Federal Government to a 25-percent non-
Federal sponsor and a 75-percent general funds in order to 
accomplish this important work. By doing the same thing with 
the Inland Waterways Trust Fund, adjusting the cost share to 25 
percent trust fund and 75 percent general funds, the inland 
navigation capital program can remain operating around the 
$400-million-per-year level that has been achieved since the 
cost share change at Olmsted. This recommended 25/75 cost share 
will allow the Corps to accelerate the construction program and 
provide funding visibility going forward, which will greatly 
improve the efficiency of the Corps program.
    As you move forward with infrastructure legislation, I 
encourage you to consider this proposal to adjust the cost 
share for construction of inland waterways projects.
    That concludes my oral statement, and I will be happy to 
answer any questions. Thank you.
    [Mr. Stephaich's prepared statement follows:]

                                 
 Prepared Statement of Peter H. Stephaich, Chairman and CEO, Campbell 
   Transportation Company, Inc., Houston, Pennsylvania, on behalf of 
                        Waterways Council, Inc.
    Chairwoman Napolitano, Ranking Member Westerman, and Members of the 
Subcommittee, thank you for the opportunity to testify before you today 
on the topic of ``The Cost of Doing Nothing: Why Full Utilization of 
the Harbor Maintenance Trust Fund and Investment in our Nation's 
Waterways Matter.'' My testimony will focus on the importance of the 
inland waterways transportation system, and suggest a recommended 
policy improvement to advance modernization of the Nation's critically 
important inland navigation infrastructure.
    I currently serve as Chairman and CEO of Campbell Transportation 
Company, Inc. Campbell Transportation Company is headquartered in 
Houston, Pennsylvania, and operates approximately 50 towboats, over 
1100 barges, four shipyards/repair facilities, and fabrication shops at 
two locations on the Ohio River and two on the Monongahela River. I am 
also the Chairman of the Board of Directors of Waterways Council, Inc. 
(WCI). WCI is the national public policy organization that advocates 
for a modern and well-maintained system of inland waterways and ports. 
WCI's diverse members include waterways carriers, shippers, 
agricultural interests, port authorities, energy providers, 
construction contractors, organized labor unions, conservation 
organizations, and waterways advocacy groups from all regions of the 
country.
                      anchored in the constitution
    From this country's earliest days, even before our United States 
Constitution was adopted, the inland waterways system was recognized as 
a priceless natural asset and a matter of fundamental federal 
responsibility and stewardship. The authors of our Constitution 
anchored the federal government's preeminent role in regulating 
navigation, both inland and coastal, in Article 1, Section 3's commerce 
clause; in Article 1, Section 9's prohibition of preference among ports 
clause, and elsewhere in that seminal document.
    One of the early actions by Congress was to enact legislation to 
provide for federal maintenance of new Nation's navigational aids. 
Since then, Congress has exercised its role in regulating and setting 
policy for the Nation's waterways through various legislation over the 
years. In the previous century, periodic ``Rivers and Harbors Acts'' or 
``Flood Control Acts,'' which predominated in the first half of the 
century, were replaced more recently by ``Water Resources Development 
Acts.'' By whatever title, Congress has consistently provided direction 
to the Executive Branch on how to properly use and protect our 
waterways for the benefit of the entire country.
                     one system that supports many
    Because of our natural geographic bounty, as well as the foresight 
and enlightened investment decisions made by generations who preceded 
us, our Nation is blessed today with the world's preeminent inland 
waterway transportation system. That system is composed of 
approximately 12,000 miles of commercially active, navigable inland and 
intracoastal waterways. Of this total, nearly 11,000 miles comprise the 
``fuel-taxed portion'' of the system, on which commercial operators pay 
a diesel fuel tax that is deposited into the dedicated Inland Waterway 
Trust Fund. (IWTF). This tax pays for up to half of the cost of new 
construction and major rehabilitation of the fuel-taxed waterways' 
infrastructure, principally, locks and dams, but also including the 
initial deepening of its channels. Users like Campbell Transportation 
Company successfully advocated in support of raising that tax by 45% in 
2015 to its current level of 29-cents-per-gallon, which is the highest 
federal fuel tax currently being paid by a transportation mode.
    Nationwide, according to the U.S. Army Corps of Engineers, the 
fuel-taxed waterways include 207 lock chambers at 171 sites on 27 
statutorily-designated inland rivers and intracoastal waterways system 
segments. The locks and accompanying dams allow users of all types--
commercial, recreational, and governmental to stair-step their way 
across the system while being assured that the depths those users 
require will be available as needed.
    Beyond enabling waterborne transportation, the inland waterways 
system aids in flood control, enables a stable water supply for nearby 
communities and industries, provides hydroelectric power, offers 
recreation such as fishing and water sports, provides regional economic 
development opportunities, increases property value, and enhances 
national security capabilities. Unlike commercial users, none of these 
other beneficiaries of the inland waterways system pay a fee to support 
modernization of the system.
    While America's inland waterways system is the best in the world, 
it is not without challenges. Our international competitors have major 
efforts underway to enhance their own systems. More than half of the 
portion of our waterways system that is operated by the Army Corps of 
Engineers is now more than 50 years old. Some system segments, 
particularly older portions located on the Upper Mississippi, Illinois 
and Tennessee Rivers, are utilizing outdated 600-foot-locks that are 
unable to accommodate today's standard 1,200-foot long, 15-barge tows, 
without engaging in the inefficient and potentially dangerous procedure 
of uncoupling the tow into two sections in order to pass through the 
lock in two trips instead of one. These locks and dams require constant 
attention and financial support, both in terms of modernization funding 
to improve the system's efficiency in order to facilitate the Nation's 
economic well-being and standard of living, as well as of operations 
and maintenance funding to keep them reliably available to users 
throughout the year.
    infrastructure investment is needed to keep america competitive
    Since 1987, when IWTF revenues were first allocated to individual 
projects following enactment of the Water Resources and Development Act 
of 1986, through 2014, the Inland Waterways Trust Fund supported 
construction completion of 29 modernization projects. Additionally, the 
trust Fund is currently supporting construction of five other lock and 
dam modernization projects, thanks to the policy changes made in 2014. 
I would like to thank this Committee for passing the important policy 
changes contained in the Water Resources Reform and Development Act of 
2014, particularly, the cost-share policy revision for Olmsted Locks 
and Dam, which, along with the 45% increase in the inland waterway 
diesel fuel tax that Congress enacted in 2014, allowed for the IWTF to 
be leveraged from a less than $200 million dollar annual program to a 
$400 million dollar annual program. That policy change from 50% Inland 
Waterways Trust Fund and 50% General Fund, to 15% from the Inland 
Waterways Trust Fund and 85% from the General Fund has led to 
significant progress. For example, the Olmsted Locks and Dam was 
dedicated and became operable in August 2018, four years ahead of the 
Corps' projected operation date and cost an estimated completion cost 
more than $330 million below what the Corps projected in the project's 
Post Authorization Change Report. Not only did the cost-share change 
help Olmsted, but it also allowed (1) construction to proceed on three 
other priority navigation projects (Lower Monongahela 2,3,4, Kentucky 
Lock, and Chickamauga Lock, the latter two of which previously had 
project construction suspended due to a lack of funding), and (2) 
initiation of the a major rehabilitation on LaGrange Lock on the 
Illinois waterway.
    With Olmsted soon to be in the rearview mirror, and the Lower 
Monongahela project expected to be funded to completion this fiscal 
year in the FY 2020 appropriations bill, it is time to start looking 
toward the next round of inland waterways modernization investments. 
Currently, the inland waterways system has a portfolio of more than 15 
other authorized high priority inland projects awaiting construction. 
With Olmsted's completion and no additional policy improvements, only 
about $230 million a year will be available for inland waterways 
project modernization. At this funding level many of these projects 
will not even begin construction in the next 20 years, an unacceptable 
situation.
    In the Water Resources Development Act of 2016, Congress changed 
the cost-share model for funding construction of deep draft ports with 
depths of 45 to 50 feet from 50% non-federal sponsor and 50% federal 
government, to 25% non-federal sponsor and 75% federal government in 
order to improve efficiency of this important work. By doing the same 
thing with the Inland Waterways Trust Fund--adjusting the cost-share to 
25% taken from the industry derived Trust Fund and 75% from general 
funds--the inland navigation capital program can remain operating at or 
above the $400 million level that for the most part has been achieved 
since the cost-share change at Olmsted, and will accelerate project 
delivery on the portfolio of critical inland waterways projects.
    As you move forward with infrastructure legislation, I encourage 
you to consider this proposal to adjust the cost-share for construction 
of inland waterways infrastructure projects. This important change will 
help maintain but advance our Nation's competitiveness and keep America 
leading at the top. That concludes my testimony, Madam Chair. Thank you 
for giving me the opportunity to be here today and I will be happy to 
respond to any questions you or the other members have the Committee 
have.

    Mr. Westerman. I thank the gentleman for his testimony.
    The chairwoman designated me to introduce the witnesses, 
and I sure don't want to go against the chairwoman, so I am 
going to next recognize Ms. Kirsten Wallace from the Upper 
Mississippi River Basin Association.
    Ms. Wallace, you are recognized for 5 minutes.
    Ms. Wallace. Great. Thank you, Chair Napolitano, Ranking 
Member Westerman, Chair DeFazio, and members of the 
subcommittee. I appreciate today's opportunity to underscore 
the value of investing in both the economic vitality and 
ecological integrity of our Nation's rivers.
    The Upper Mississippi River Basin Association was formed in 
1981 by the Governors of Illinois, Iowa, Minnesota, Missouri, 
and Wisconsin to facilitate dialogue and cooperative action and 
to serve as an advocate of the State's collective interests. 
UMRBA works closely with the U.S. Army Corps of Engineers and 
other Federal agencies to achieve a shared commitment to 
integrated and multipurpose management of the Upper Mississippi 
River's economic and ecological uses.
    On the Upper Mississippi River, we have proven that 
navigation traffic as well as other economic uses can be fully 
supported within a healthy river ecosystem. Our Nation's rivers 
can serve simultaneously as economic engines and ecological 
treasures. We can have both, and we are better for it.
    In order for our Nation to fully realize the potential of 
our rivers, we must value and integrate management of their 
many purposes and uses. The Upper Mississippi River is a 
multibillion-dollar economic engine and a treasured ecosystem, 
abundant with fish and wildlife, generating revenues in excess 
of $600 billion annually and supporting over 1.86 million jobs 
in manufacturing, agriculture, tourism, recreation, navigation 
and energy sectors.
    At the same time, the river provides an irreplaceable water 
supply source for citizens and industries throughout the 
Midwest. The system of locks and dams provides for the movement 
of low-cost goods that are essential to a strong national 
economy: gravel, fertilizers, and agriculture outputs, salt and 
energy products. And at the same time, the Upper Mississippi 
River supports a $55 billion tourism and recreation industry 
that is built upon the serenity and adventure of the river's 
landscape and abundant opportunities for fishing and hunting.
    The UMRBA, Upper Mississippi River Basin Association, along 
with navigation industry, conservation interests, and local and 
Federal partners, made a very conscious decision to seek 
collaboration, shared solutions, rather than remain hamstrung 
and steadfast in conflict.
    There is a long history of conflict between economic and 
ecological interests on the Upper Mississippi River, with the 
most contentious time occurring in the 1970s following 
enactment of new laws that gave environmental interests legal 
standing, in particular the National Environmental Policy Act 
and Clean Water Act, and when the American economy was 
experiencing severe inflation and the value of inland waterways 
as a transportation system was magnified.
    Conflicts raged over navigation use and environmental 
resources on the river. Can they coexist? How much navigation 
traffic is too much? Ultimately, this conflict turned into 
litigation when a second lock chamber was proposed at Lock and 
Dam 26 in the mid-1970s, with the primary argument that the 
Corps did not evaluate the systemwide impacts of the second 
lock to the ecosystem.
    The Federal Court halted Lock and Dam 26 replacement. 
Congress claimed it had too little information to take action 
and tasked UMRBA's predecessor, then-Federal-State Upper 
Mississippi River Basin Commission, with resolving those 
contentious questions and making recommendations for how best 
to manage the river, balancing the demands of these competing 
interests. Congress said no action could be taken to increase 
navigation until a plan was finalized and Congress had approved 
it. Ultimately, the conclusion reached was that balanced 
management is achievable and is in our Nation's interest.
    In 1986, Congress authorized a second chamber at Lock and 
Dam 26, along with a systemwide ecosystem restoration and 
scientific monitoring program, known today as the Upper 
Mississippi River Restoration Program, and the declaration that 
the Upper Mississippi River is both a nationally significant 
navigation system and a nationally significant ecosystem.
    Shortly after, the navigation industry began considering 
modernization needs on the Upper Mississippi River at a larger 
scale, and then UMRBA and Federal partners, navigation 
industry, environmental interests took that same approach to 
collaboration and agreed to the Navigation and Ecosystem 
Sustainability Program, NESP, which is a comprehensive and 
integrated plan for meeting current and future shipping 
demands, stimulating economic growth, and improving the health 
and resilience of the river ecosystem.
    NESP's feasibility study was completed in 2004. Congress 
authorized it in 2007. It enjoys consensus among diverse 
stakeholders and bipartisan and bicameral support among 
Congress as well as a steadfast commitment by the Governors of 
the Upper Mississippi River Basin States. Reaching this 
commitment to integrated multipurpose management was incredibly 
challenging but has paid tremendous dividends. We moved the 
region from conflict to collaboration. In doing so, we moved it 
from the gridlock of litigation to a whole new world of 
opportunity.
    There is far greater power in standing for something and 
not against it. NESP forges allegiances, allies who can give 
Congress a solution, a hard-fought consensus, not a problem 
that needs to be fixed, not a choice Congress has to make 
between competing interests. NESP gives us solutions and a 
concrete path to work for: guidewall extensions and mooring 
cells, lock modernization at the most congested sites on the 
Upper Mississippi, and islands, backwater complexes, forests 
that are essential for a diverse and complex array of fish and 
wildlife species.
    We appreciate the committee's support of NESP and the Upper 
Mississippi River as a nationally significant resource. Thank 
you.
    [Ms. Wallace's prepared statement follows:]

                                 
   Prepared Statement of Kirsten Wallace, Executive Director, Upper 
        Mississippi River Basin Association, St. Paul, Minnesota
    Chair Napolitano, Ranking Member Westerman, and members of the 
Subcommittee, I appreciate today's opportunity to underscore the value 
of investing in both the economic vitality and ecological integrity of 
our nation's rivers. The Upper Mississippi River Basin Association 
(UMRBA) was formed in 1981 by the Governors of Illinois, Iowa, 
Minnesota, Missouri, and Wisconsin to facilitate dialogue and 
cooperative action and to serve as an advocate of the states' 
collective interests. UMRBA works closely with the U.S. Army Corps of 
Engineers and other federal agencies to achieve a shared commitment to 
integrated, multi-purpose management of the Upper Mississippi River's 
economic and ecological uses.
    On the Upper Mississippi River, we have proven that navigation 
traffic as well as other economic uses can be fully supported within 
healthy riverine ecosystems. Our nation's rivers can serve 
simultaneously as economic engines and ecological treasurers. We can 
have both, and we are better for it. In order for our nation to fully 
realize the potential of our rivers, we must value and integrate 
management of their many purposes and uses. The river is both a multi-
billion dollar economic engine and a treasured ecosystem abundant with 
fish and wildlife--generating revenues in excess of $600 billion 
annually and supporting over 1.86 million jobs in manufacturing, 
agriculture, tourism, recreation, navigation, and energy sectors. At 
the same time, the river also provides an irreplaceable water supply 
source for citizens and industries throughout the Midwest. The system 
of locks and dams provides for the movement of low-cost goods that are 
essential to a strong national economy: gravel, fertilizers and 
agricultural commodities, salt, and energy products. At the same time, 
the Upper Mississippi supports a $55 billion tourism and recreation 
industry built upon the serenity and adventure of the river's landscape 
and abundant opportunities for fishing and hunting.
    UMRBA, along with navigation industry, conservation interests, and 
local and federal partners, made a very conscious decision to seek 
collaboration--shared solutions--rather than remain hamstrung and 
steadfast in conflict. There is a long history of conflict between 
economic and ecological interests on the Upper Mississippi River. But 
the most contentious time occurred in the 1970s, following enactment of 
new laws that gave environmental interests legal standing (i.e., 
National Environmental Policy Act, Clean Water Act) and when the 
American economy was experiencing severe inflation and the value of the 
inland waterways as a transportation system was magnified. Conflicts 
raged over navigation use and environmental resources on the river. Can 
they co-exist? How much navigation traffic is too much? Ultimately, the 
conflict turned into litigation when a second lock chamber was proposed 
at L&D 26 in the mid-1970s, with the primary argument that the Corps 
did not evaluate the system-wide impacts of the second lock to the 
ecosystem.
    The court halted L&D 26 replacement. Congress claimed that it had 
too little information to take action and tasked the then-federal-state 
Upper Mississippi River Basin Commission with resolving those 
contentious questions and making recommendation for how to best manage 
the river, balancing the demands of competing interests. Congress said 
no action could be taken to increase navigation until a plan was 
finalized and Congress had approved it.
    Ultimately, the conclusion was that balanced management is 
achievable and is in our nation's interest. In 1986, Congress 
authorized the second chamber at L&D 26 along with a system-wide 
ecosystem restoration and scientific monitoring program, known today as 
the Upper Mississippi River Restoration program, and the declaration 
that the Upper Mississippi River is both a nationally significant 
navigation system and a nationally significant ecosystem.
    Shortly after, navigation industry began considering modernization 
needs on the Upper Mississippi River at a larger scale. UMRBA joined 
with federal partners, navigation industry, and environmental interests 
to take the same approach of collaboration and agreed to the Navigation 
and Ecosystem Sustainability Program (NESP)--a comprehensive and 
integrated plan for meeting current and future shipping demands, 
stimulating economic growth, and improving the health and resilience of 
the river ecosystem. NESP's feasibility study was completed in 2004 and 
Congress authorized it in 2007. NESP enjoys consensus among diverse 
stakeholders and bipartisan and bicameral support among Congress as 
well as steadfast commitment by the Governors of the five Upper 
Mississippi River basin states.
    Reaching the commitment to integrated, multi-purpose management was 
incredibly challenging, but it has paid tremendous dividends. We moved 
the region from conflict to collaboration, and in doing so, we moved it 
from the gridlock of litigation to a whole new world of opportunity. 
There is far greater power in standing for something, not against it. 
NESP forges allegiances--allies who can give Congress a solution, a 
hard-fought consensus; not a problem that needs to be fixed; not a 
choice Congress has to make between competing interests. NESP gives us 
solutions, and a concrete path to work for. Guidewall extensions and 
mooring cells, lock modernization at the most congested sites on the 
Upper Miss, and islands, backwater complexes, and forests that are 
essential for a diverse and complex array of fish and wildlife species.
    We appreciate this Committee's support of NESP and the Upper 
Mississippi River as a nationally significant resource.

    Mrs. Napolitano [presiding]. Thank you for your testimony 
to all the witnesses, and we will now have the questions. Use 
the timer, a total of 5 minutes for each question. I will begin 
the questioning with Mr. DeFazio.
    Mr. DeFazio. Thanks, Madam Chair.
    To Commissioner Goche and Ms. Brady, from what you know, in 
representing your ports, but also your association with other 
small ports, is the 10-percent set-aside meeting all of the 
needs of small and emerging ports? Is it adequate?
    Ms. Brady. Congressman, if I had that magic ball to know, 
depending on the year, as to how many of the ports were going 
to get hit by various storms, I could say absolutely.
    It is a relative thing. Some years in Montauk, we have had 
it dredged 6 times within 10 years because we just get whacked 
with storm after storm in 1 year. And then we go a couple more 
years and we are better off. So I don't know how I could 
possibly answer that with complete clarity, but----
    Mr. DeFazio. OK. Commissioner.
    Mr. Goche. Thank you for the question, Congressman DeFazio. 
And so far, from what I have seen, the answer would have to be 
no. Not only do we need maintenance dredging virtually every 
year in our area, but we also have a huge backlog of deferred 
maintenance on our jetties. The only way I can see us digging 
out of that deferred maintenance hole is by using the $9 
billion or $10 billion that is on the books from previous 
years.
    The Port of Coos Bay, for example, the north jetty has lost 
about 380 feet over the last 30 years in length. So it is at a 
critical point where we have to replace at least 150 feet 
before we can get back to some semblance of safety.
    Mr. DeFazio. So I appreciate the testimony of Executive 
Director Seroka, and on behalf of the AAPA. I will say that I 
have some concerns with that proposal. And I have had numerous 
conversations with L.A., Long Beach, and other ports, Seattle 
and others. And my position is: Help us get the money, all the 
money, annually that comes in, spend it, and a plan to in a 
prudent way spend down the money that Congress has previously 
diverted, and then we will come up with a fair distribution.
    I recognize the contribution of the major ports and the 
needs of the major ports. I also am sensitive to, you know, all 
the many other ports are dependent upon this, some of whom 
really don't have any capabilities or very little capabilities 
of raising revenue.
    So I guess that is not really a question. Well, let's just 
say, is there anybody on the panel who disagrees that we should 
spend all of the collected taxes on an annual basis, we should 
appropriate the total amount on an annual basis because there 
are needs out there? Anybody disagree with that? OK, good.
    Anybody disagree with the fact that since we did collect 
this ultimately from the American consumers, the ad valorem 
tax, and it has an intended purpose, that we should also have a 
plan to spend down the nearly $10 billion balance in the 
theoretical trust fund which is somewhere in the Treasury 
maybe, but we just make up money anyway, so what is the 
difference? But that we should spend that down in a programmed 
way to meet deferred maintenance and needs in both large ports 
and small ports. Anybody disagree with that? OK, great. Well, 
let's do it then. Thank you.
    Thank you, Madam Chair.
    Mrs. Napolitano. Thank you, Mr. DeFazio.
    The Chair now recognizes Mr. Westerman.
    Mr. Westerman. Thank you, Madam Chair.
    Ms. Harden, while the MKARNS is located in Oklahoma and 
Arkansas, what other States benefit from the inland waterway?
    Ms. Harden. The MKARNS, sir, is a 12-State region: 
Arkansas, Oklahoma, Kansas, Texas, Colorado, Missouri, 
Nebraska, Minnesota, South Dakota, North Dakota, Montana, and 
Idaho.
    Mr. Westerman. So what are the types of specific 
commodities that come from those States that otherwise would 
have a very difficult time reaching global markets?
    Ms. Harden. Well, as you had mentioned in your opening 
statement, sand and gravel, soybeans, chemical fertilizer, 
wheat, steel coils, petroleum. Nearly half of the tonnage 
reported at Oklahoma ports originate or terminate in Kansas. 
Farmers, energy companies, manufacturers, they wouldn't be able 
to compete in an increasingly global marketplace without the 
inland waterways such as the MKARNS. Their profits depend on 
the transportation cost, their savings that are attributable to 
the navigation.
    Some examples, asphalt moves from gulf refineries to 
blending plants along the river for delivery to departments of 
transportation in many of the 12 States that the MKARNS serves. 
Oilfield tubulars from domestic mills are processed at 
finishing plants along the river and delivered to oil and gas 
developments in many of the 12 States and as far away as 
Alaska. The same goes for rebar and wire rod coils. Crude oil 
that is produced in several of these States and as far away as 
North Dakota find its way to the gulf coast refineries by 
barge, a growing amount which is for export.
    So the Nation's waterways give producers and manufacturers 
reach to acquire raw materials and distribute finished goods in 
a competitive marketplace.
    Mr. Westerman. As we often say, the river is kind of out of 
sight and out of mind of the general public, but it has a huge 
economic impact to that 12-State region.
    You also talked about a critical maintenance backlog in the 
navigation improvement project at Three Rivers. If there were a 
failure due to inadequate maintenance or a failure of the 
existing navigation components at Three Rivers, what do you 
think this would mean to the national economy?
    Ms. Harden. Well, our quarry on the MKARNS is the closest 
major deposit of rock to New Orleans and the gulf coast, and 
this was very important during the devastating hurricanes of 
Katrina and Rita. Also, our quarry is the low-cost producer of 
the sandstone, and sandstone has antiskid properties that are 
required in Louisiana asphalt markets. So, you know, if this 
chain of supply is broken, I mean, it is going to affect 
highway departments and our highways.
    Agriculture products, grain and fertilizer, they move, as I 
said, for most of the 12 States that the MKARNS serves, and I 
guess the same examples that I gave in the previous question. I 
mean, that would, you know, affect it globally.
    Mr. Westerman. And for the record, for Mr. Graves, the 
State of Louisiana depends heavily on products coming out of 
Arkansas down the MKARNS system.
    Ms. Harden. Absolutely.
    Mr. Westerman. Mr. Stephaich, I come from an engineering 
background in the private sector. And when I found out how the 
Corps gets their projects funded, where it is like a yearly 
funding amount, it just seems to make no sense at all.
    Could you talk maybe a little bit to how projects could be 
done more efficiently, lower cost, and in a quicker timeframe 
if we would fund projects on a project-to-project basis rather 
than a yearly funding basis?
    Mr. Stephaich. Well, the annual funding system really 
doesn't make any sense for these long-term projects. As I 
mentioned in my oral remarks, the Olmsted case is an example 
where the project was accelerated and came in below what the 
Corps thought it would because they had steady money and steady 
funding.
    It is extremely difficult for a major construction job to 
plan for this 1 year at a time, from hiring the contractors to 
actually executing the project. There is tremendous mob/demob 
cost. The contractors bid that in in their cost. It just 
doesn't make any sense. It is completely inefficient.
    I don't know what the percentage of reduction would be, but 
it is significant for the Corps if they had steady funding for 
these projects.
    Mr. Westerman. I couldn't agree more.
    And I am out of time so, Madam Chair, I yield back.
    Mrs. Napolitano. Thank you, Mr. Westerman.
    I am asking unanimous consent that the written testimony of 
American Association of Port Authorities by Mr. Kurt Nagle, 
president and CEO, be made part of today's hearing record.
    Without objection, so ordered.
    [The information is on pages 51-52.]
    Mrs. Napolitano. We will move on, and I think I will take 
the next set of questions for Mr. Gene Seroka.
    Mr. Seroka, what specific policies would you like to see 
Congress implement to address your inequity concerns with the 
HMT?
    In your testimony, you mentioned 50 percent of the revenue 
comes from donor ports and the percentage of the revenue should 
be allocated towards--what percent should be allocated to the 
donor ports?
    Do you believe the minimum allocation to donor ports should 
be effective immediately or in the future?
    Would there be a trigger for this implementation for donor 
ports, and what would the trigger be, and what extended uses 
are you advocating for and why?
    Long question.
    Mr. Seroka. The trigger would be full spend, full 
utilization of the incoming revenues. So we get that, and then 
we have an opportunity to look at the fair and balanced 
allocation.
    And our idea, which is aligned with the American 
Association of Port Authorities, is that we ensure that the six 
geographies, the dredge ports, the emerging harbors, are all 
treated with the capability to receive as much money or more 
money in the future than they do today.
    Our look at what we should receive, the 50 versus 2 percent 
in the return, as outlined in our framework, we believe the 
donor ports should receive between 8 and 10 percent. And that 
is a real good program to allow us to get after these other 
uses that we mentioned.
    If you can imagine, Chairwoman Napolitano, in your mind's 
eye, as the ship is coming in, most of the discussion around 
this topic is to make sure that our channels are as deep as 
necessary to manage the ships in whatever port authority we 
represent.
    What we are looking at in Los Angeles and Long Beach is 
that we need to cater to those large ships alongside the wharf. 
So we need to make sure that that water is deep enough, that 
the wharfs are strong enough to manage the heavier equipment 
that moves that larger amount of cargo across.
    Mrs. Napolitano. Thank you very much.
    The next question would be to Mr. Goche, Mr. Seroka, and 
Ms. Brady. Understanding that each of your ports have unique 
needs, outside of those, do you support the full utilization of 
HMT? Yes or no.
    Mr. Goche. Yes, I do.
    Mr. Seroka. Yes.
    Ms. Brady. Absolutely, yes.
    Mrs. Napolitano. Thank you. That is very much what we 
expect.
    Does the entire United States benefit from all of the--when 
the ports that are most efficiently upgraded and in capacity?
    Mr. Seroka, would full utilization of HMT help like the 
Port of L.A.? Would it help them?
    Mr. Seroka. Pardon me?
    Mrs. Napolitano. Would full utilization of HMT help ports 
like the Port of L.A., and how?
    Mr. Seroka. Absolutely. As I mentioned, we have $260 
million worth of projects that we have identified to cater to 
these larger ships, which are trending in the industry and of 
utmost importance in Los Angeles. And therefore, that ability 
would be a really smart move for us as a Nation and our 
competitiveness in the future.
    Mrs. Napolitano. Thank you, sir.
    I think we will have to recess. We have 11 minutes left to 
go vote. We will recess for 45 minutes, and we will be back to 
continue the line of questioning.
    [Recess.]
    Mrs. Napolitano. The Water Resources and Environment 
Subcommittee will reconvene. I think we have enough members 
here to get going.
    And I will recognize Mr. Graves.
    Mr. Graves of Louisiana. Thank you very much, Madam Chair. 
I appreciate the opportunity to be here.
    And I want to thank you all for your testimony today. As a 
Representative from the gulf coast and home is the State of 
Louisiana, where we have 5 of the top 15 ports and, of course, 
large port facilities in Miami, and Houston, and Mobile, and 
Gulfport and all sorts of other places. I appreciate the gulf 
coast representation here today. That was another joke, folks. 
Come on.
    Mr. Seroka, I want to ask you a question. You talk about 
the HMT being fully utilized. And I do want to shout out to 
Chairman DeFazio and Chairwoman Napolitano and Ranking Member 
Graves, and Westerman. I do fully support the full dedication 
of the Harbor Maintenance Trust Fund. And Chairman DeFazio and 
I have been working on this for a few years and sent letters, 
sponsored legislation, and I think this needs to happen.
    You know, a quick question for all of you. I will come back 
to your question in just a second, but a quick question for all 
of you. In your individual associations, businesses, ports that 
you represent, if you took in money for one purpose and then 
you decided to take it and use it for something else, or you 
collected revenue under the auspices of some fee or tax or 
membership and you did something else with it, would you get in 
trouble for that?
    Mr. Ross. Yes.
    Mr. Seroka. Yes.
    Mr. Graves of Louisiana. I think in the private sector, 
they call that embezzling, and here we call it budgeting. And I 
just think it is ridiculous, and so fully, fully committed.
    But Mr. Seroka, I do want to ask, you mention that there 
are certain types of improvements that are not eligible 
expenses under HMT right now. If we do have a full commitment 
of the HMT and the additional dollars, and whether it is the 
paper balance that Chairman DeFazio talked about earlier or it 
is even the annual full commitment of funds, what are some of 
those? What would that look like to you?
    Mr. Seroka. Representative Graves, good to see you again. I 
mentioned that earlier in a question. If you could imagine in 
your mind's eye the ship coming down the main channel. That is 
what this work does primarily through the HMT.
    With the larger container ships coming into our port, I 
want to do work that gets closer to the wharves. Because when 
that ship comes in, it has got to park. It has got to be 
worked, needs the necessary depth of water to be able to reside 
there. That is the type of work that we would like to do.
    Mr. Graves of Louisiana. OK. So you are talking dollars----
    Mr. Seroka. In water usage nearer to the docks than the 
main channel way.
    Mr. Graves of Louisiana. OK. Is this berths?
    Mr. Seroka. Yes.
    Mr. Graves of Louisiana. OK. I just want to make sure I 
understand. Thank you.
    Mr. Seroka. Thank you.
    Mr. Graves of Louisiana. Mr. Ross, there were discussions 
earlier about increasing competition from other countries, I 
think Argentina, Brazil, and others. Can you give us kind of a 
state of play and what you are seeing, in terms of percentages 
or any other type of metric, in terms of what those countries 
are doing now. Are they investing in their water 
infrastructure? What is the state of the industry and just kind 
of global competition right now?
    Mr. Ross. Yes, certainly. I couldn't give you a metric per 
se, but the investments have gone on in Brazil in their 
infrastructure, which were much needed in their country. They 
are certainly spending a lot of dollars there and are becoming 
far more competitive in the long term.
    We generally see a 30- to 50-cent advantage over Argentina 
and Brazil exports. And so, you know, I talked about 31\1/2\-
cent cost to farmers that could be perceived into these issues. 
And, you know, if that continues to be--maintenance is 
deferred, or excuse me, or just not done and the locks and dams 
are not improved, that 31\1/2\ cents pretty much eats up that 
entire advantage that we have. So those are key dollars, key 
numbers that we need to look at when it comes to advantages in 
trade.
    Mr. Graves of Louisiana. Ms. Harden, you have been working 
in the industry for a few years, I think 30 to 40 years of 
experience. I think you started when you were 5, if I remember 
right. What kind of evolution in the industry have you seen 
over that period of time, in terms of reliability of channels, 
just trends in the industry; and what are some of your 
concerns, just looking back historically versus where we are 
right now?
    Ms. Harden. Good to see you, Congressman Graves.
    Mr. Graves of Louisiana. Good to see you as well.
    Ms. Harden. Yes, I did start at 5.
    I guess the trend that we have seen more than anything that 
affects us, I kind of go back to our story that I told. We are 
not seeing the funding. And I realize we have gotten a lot of 
emergency supplementals that are coming out, and we are hoping 
that these will be applied properly.
    But to be competitive like we do in our business, you have 
got to have, you know, a channel. Granted, our competition--we 
are sealed bid. Our competition's on the Mississippi River, and 
they are authorized to 12 feet, although they are not 
maintained, and we hear that a lot. They are only maintained to 
9. But they have a de facto 12-foot channel, and that is our 
competition.
    And we, you know, unfortunately, had to dramatically reduce 
our presence on the Arkansas because of that. So, I mean, I 
guess we have seen a lack of upkeep in the critical backlog of 
maintenance is just increasing dramatically every year on the 
MKARNS. And this is not just our system. There are other 
systems too. So, it is really, what I have seen has been 
disappointing.
    And to encourage, you know, people to--the jobs. And we 
want to be a low-cost producer, but not through low wages. We 
want it through low-cost transportation cost.
    Mr. Graves of Louisiana. Thank you.
    And, Madam Chair, I just want to ask that the record 
reflect that 8 minutes later the gentleman from Arkansas showed 
up, which is approximately what we saw for the LSU/Arkansas 
game. Thank you.
    Ms. Mucarsel-Powell [presiding]. Thank you, Mr. Graves. Mr. 
Graves is full of jokes this morning.
    I would like to now recognize myself for 5 minutes.
    Thank you very much for coming this morning for such an 
important hearing. I think that we are all in agreement that we 
must allocate the resources needed for harbor maintenance as 
they were intended.
    So I am going to shift just a little bit from that 
conversation and tell you a little bit about the area that I 
represent. I represent Florida's 26th Congressional District. 
It includes Miami, parts of Miami and all of the Florida Keys. 
And I don't think it is a secret that I feel very passionately 
about the coral reefs, and it is the only living coral reef in 
the U.S. continental United States along our coast. It is the 
third largest barrier reef in the world. So I feel very 
passionately about protecting the reefs.
    And, unfortunately, the coral right off the coast of 
Florida is dying, and it is dying because of climate change, 
ocean acidification. It is dissolving the coral right before 
our eyes. And it is also dying from a bacterial infection that 
scientists right now are not able to get a hold on that. It is 
incumbent upon all of us to do what we can to protect the coral 
that is still alive today. And I think that that means also 
being environmentally cautious with any large projects that we 
conduct on our waterways, our ports.
    So I was alarmed to learn that when Port Miami was dredged, 
a project that ended in 2015, an area of the reef the size of 
200 football fields was buried in dredging sediment. This was 
much more than was predicted by the Army Corps and the entities 
who were involved with the project. It is also my understanding 
that there will be other ports in Florida that will soon be 
undergoing the same process, and so we may be putting more 
corals at risk.
    So this question is for Mr. Seroka. I know that you may not 
be able to speak on the specifics of the issues affecting the 
Florida coast, but I am hoping that you can comment on the 
importance generally of environmental compliance.
    You are from California. California is usually good 
environmental stewards and very good on these issues. So I am 
hoping that you or anybody else on the panel can provide 
suggestions on how we can responsibly dredge our very important 
harbors to adequately address heavy ship traffic without 
unnecessarily harming our precious ecosystems.
    And just having said that, I am in full support of 
continued dredging as well, because we need that, especially in 
the Port of Miami. It is just we need to find a balance of 
doing what we need to do for our harbors, for our ports, but at 
the same time being environmentally conscientious.
    Mr. Seroka. Representative Powell, you just struck the 
cord, and that is the balance between the environmental 
stewardship and what we do on our commercial and construction 
activities. The Ports of Los Angeles and Long Beach date back 
to the year 2006 with their clean air action plans, devised 
originally to help reduce specific air quality requirements 
that we had made commitments on to our community. And we flash 
forward, we delivered on those commitments some 6 years ahead 
of our promissory timeframe.
    In an area specifically around truck and traffic 
activities, Congressman Lowenthal led an effort in the early 
part of that decade to work on distributing trucks in a better 
way to reduce idling, congestion on our freeways, and avoid 
times where children are going to school day and afternoons.
    Specifically, to answer your question around dredging, we 
have numerous regulations in the State of California. We also 
follow the Federal regulations around water species and 
anything else that we see that is necessary on the dredging 
concept.
    So having that in mind, being able to be a responsible 
party from the port's vision of capital investment, 
improvement, and construction activity is always first on our 
minds when we are discussing projects like this, whether it be 
maintaining our minus 53-foot depth or what I have described to 
the other Members as limited expanded uses.
    Ms. Mucarsel-Powell. OK, thank you. And, Mr. Stephaich, 
correct?
    Mr. Stephaich. Correct.
    Ms. Mucarsel-Powell. In your testimony, you mentioned the 
important role of inland waterways, the role that they play in 
flood control. Can you please just elaborate a little bit on 
that?
    Mr. Stephaich. Yes. Obviously, the inland waterway system 
and the locks and dams help control the flow of the water. Up 
in our part of the world, in Pittsburgh, we have a significant 
drop, geographic drop, with a lot of locks and dams. And I know 
that the Army Corps uses a system of reservoirs, including our 
locks and dams, to control the flow, slow it down and let water 
out, as necessary. So----
    Ms. Mucarsel-Powell. OK. Thank you very much. And if I had 
more time, I would continue to comment, but I don't want to 
violate my own rules.
    So I will now recognize Gentleman Palmer.
    Mr. Palmer. Thank you, Madam Chairwoman.
    I want to get back to the harbor issues and some of the 
issues that we have had over the years with the need to deepen 
harbors. Obviously, I think the demand for shipping is growing, 
particularly in the energy sector. It is going to require 
bigger ships.
    And one of the things that I had looked at over the last 
few years is the time it takes from the time you recognize you 
need to implement a project to the time you can actually begin 
the project, because of the permitting. One example is the Port 
of Corpus Christi, which I think maybe about 60 percent of our 
petroleum products leave that port. I think it was back in the 
eighties or nineties, somewhere in that range, that they wanted 
to deepen the harbor by 4 feet. It would have been about a $188 
million project at that point. They finally implemented I think 
four phases. The cost went up to $327 million, the cost of the 
delays. I think we are now talking about $480 million.
    Mr. Goche, Mr. Seroka, what has been your experience where 
you have had to make improvements to your ports, in terms of 
the permitting and the delays and the runup of cost, if you 
have had any?
    Mr. Goche. Thank you, Congressman Palmer. We have, by 
scale, much smaller projects than Mr. Seroka has, but I believe 
the process is quite similar. And permitting for any new 
project, any new activity in the water is pretty burdensome. In 
Oregon and in the Portland district of the Army Corps of 
Engineers, we have been working on a streamlining process 
whereby permits are more inclusive and expansive and last 
longer, have a longer shelf life, so to speak. So yes, it is a 
burdensome process, and the hope is that we can relieve some of 
that burden.
    Mr. Seroka. I concur, but we have been pretty fortunate. 
Our relationship with the Corps has been tremendous. Most of 
the time that is spent around permitting happens at the State 
level with the California Environmental Quality Act. And that 
is work that continues, but the Permit Streamlining Act in the 
State of California has assisted.
    Mr. Palmer. Part of what brought this to mind was that 
Panama was able to take only 7 years from conception to 
completion on the Panama Canal expansion, while it would take 
the United States twice as long, sometimes three times as long 
to do projects.
    And for us to be in a competitive environment, particularly 
with markets that you guys deal with and the Far East, it 
becomes pretty important. It is important to us in Alabama, 
with the Port of Mobile. With the expansions in Panama, Mobile 
has now become a major port for shipping to China and to Asia. 
And we are trying to get our harbor deepened.
    Mr. Seroka. And your emphasis is exactly right. I will 
share, though, that Panama's cost overruns and time overruns 
are epic in the shipping world today. And, in fact, the canal 
cannot handle the larger ships in the trade, as were forecasted 
some 20 years ago during the construction of that project. But 
it brings to light the competitiveness that our Nation needs to 
pursue and gain hold of once again. I appreciate your comments.
    Mr. Palmer. You know, what I try to get across to people 
when we are dealing with infrastructure--and I am now doing 
this at home--is that if you are going to spend money on 
infrastructure projects, whether it is a harbor or, you know, 
an interstate highway, build what you need 25 years from now, 
not what you need now. You will wind up spending less money and 
have a better product if you will just plan ahead.
    So that is what I am hoping that we will be able to do when 
this committee gets around to an infrastructure bill is that we 
look 25 years down the road and not what we need right now, 
because with the way things are changing, by the time we get a 
project completed, it is obsolete.
    I appreciate your question, appreciate you being here 
today. And, with that, Madam Chairwoman, I yield back.
    Ms. Mucarsel-Powell. Thank you very much. I now yield 5 
minutes to Representative Lowenthal.
    Mr. Lowenthal. Thank you.
    My question is for Mr. Seroka. First, I want to thank you 
for representing and sharing with us the perspective of what is 
taking place in the San Pedro Bay in the Port of L.A., but also 
your partner, the Port of Long Beach.
    You know, I am very honored to represent the Port of Long 
Beach. At one time, I represented in the State legislature both 
ports. So I am very familiar with the port complex, which 
really, as you pointed out, handles 40 percent of the Nation's 
imports that come into the country, and about 30 percent of the 
Nation's exports come through this.
    And while the ports are doing very well on a number of 
metrics, you know, they are setting records in cargo volume. 
They are investing in infrastructure, as you pointed out, to 
handle the bigger ships, they still face significant 
challenges, in terms of congestion and also in terms of 
international competition.
    So I think what you have advocated for I totally support. 
And I was very glad to hear Mr. Graves, my colleague from 
Louisiana, talk about some of the specific projects. And as you 
are advocating for more equitable allocation of the resources 
of the harbor maintenance tax revenues, they are going to help 
our ports make the investment that they need to grow. And you 
have already indicated the kind of flexibility that you would 
like to see, in terms of meeting the growing demands and to 
being able to compete.
    Can you go into a little bit about how this will impact 
congestion? Is there a relationship between using the harbor 
maintenance tax in a more flexible way and really dealing with 
the facts of congestion and also international competition? 
Those are the two issues I would like you to respond to.
    Mr. Seroka. Yes. Thank you for your question, Congressman 
Lowenthal. On the area of congestion, it has been a topic for 
our port over a number of years. And there are three ways to 
approach eliminating congestion: One is through a concept that 
we use called supply chain optimization, bringing all parties 
together with the natural convening powers that we have to work 
on better ways to move the cargo more fluidly and remove those 
intermediate bottlenecks that have plagued us for some time.
    Second is digitization, and a project that we have embarked 
upon creating what we are now terming as the port optimizer, 
one that can aggregate disparate sources of data, give us a 
deeper line of sight as to the cargo coming our way so we can 
better plan our human capital and our assets.
    And then thirdly is the physical infrastructure, our 
ability to bring these ships in on time and work in a Windows-
based system, meaning that you have an appointment when your 
ship comes in. You are to arrive at 8 a.m. on Monday and you 
are to leave at 8 a.m. on Thursday.
    By keeping the integrity of those ship windows is largely a 
function of being able to bring the ships into an area that can 
accommodate the size of that vessel and work the vessel as 
succinctly as possible, meaning having those four to five 
wharves and that deep water.
    So the limited expanded use that I have referenced here on 
several occasions is just for that purpose. And all three 
activities that we are pursuing, Congressman, are interrelated. 
We want to do better and smarter work; we want to bring 
information technology into the port environment, not just in 
Los Angeles but nationwide; and having the physical 
capabilities both landside as well as in the water to carry out 
the first two.
    Mr. Lowenthal. Thank you. I just want to follow up a little 
bit on that. For you to kind of explain, I think you have 
already said it, but I think it is really important, that by 
giving you this limited expansion of flexibility, how is this 
going--and we are asking the rest of the Nation kind of and 
other ports to support this.
    The question is, how is this going to affect manufacturers 
and also customers throughout the Nation? Is this just good 
for, you know, the larger ports, or what is the impact on the 
rest of the Nation by giving the little bit of extra 
flexibility?
    Mr. Seroka. All right. Two parts to that answer. Number 
one, under our recommendation, the ports geographically, by 
designation or by size, will receive the same if not more money 
under our recommendation to this subcommittee and the broader 
committee.
    Secondly, what it does for our mutual customers is, A, it 
gives them certainty that when you order goods and it comes 
through our port complex, whoever that may be, you will have 
certainty that it will arrive upon a schedule that you have 
designed with your service provider. And secondly in that vein, 
what it does for those customers is it delivers value. The 
folks that come through Los Angeles, as an example, pay more 
than $200 million a year in harbor maintenance tax, yet they 
don't see necessarily the dividends returned in further 
investment in that infrastructure, in this case in the water 
infrastructure, that they desire. So it is about delivering 
value back to them as well.
    Mr. Lowenthal. Thank you, and I yield back.
    Ms. Mucarsel-Powell. Thank you. I now recognize Mr. Woodall 
for 5 minutes.
    Mr. Woodall. Thank you, Madam Chair.
    Thinking about your experience in the industry, we have 
went through the last decade where we passed two WRDA bills in 
10 years. We have gone through this decade where we have passed 
a WRDA bill every 2 years.
    It makes me feel good as a member of the committee to see 
the regularity and the productivity, but I want to know from a 
user's and a manager's perspective, has the regularity of the 
WRDA bill process made a difference to you all, as participants 
in the system?
    Mr. Seroka. In a word, yes.
    Mr. Woodall. Los Angeles says yes.
    Mr. Goche. I agree.
    Mr. Woodall. You have seen that difference. Have the corn 
growers seen that difference, Mr. Ross? Does it translate to 
that level?
    Mr. Ross. Yes, certainly. I think there has been a lot of 
improvement in general with that system and having those bills 
pass much quicker. I was here a long time ago. It was the first 
time I came to DC to lobby on behalf of a WRDA bill, and that 
was, again, the first one, and it took quite a while to get 
that one passed. So I appreciate you guys doing the job and 
moving these faster.
    Mr. Woodall. Well, getting into good habits makes a 
difference. It makes a difference in running your business, and 
it makes a difference in legislating too. That is one of those 
habits that was hard to get into, Madam Chair, as you well 
know, getting back into a regular WRDA bill structure. And I 
hope it is something we will be able to maintain.
    Let's go back to 1990, and we had a similar conversation 
with the Highway Trust Fund. And I remember Bill Shuster 
sitting in this room pounding on the table, saying, we are 
going to spend every penny from that Highway Trust Fund, 
because the users paid it and they deserve that back.
    I argued then and I would argue now that is not what a 
trust fund is. A trust fund is so that you have money there 
when those rainy days come, because inevitably those rainy days 
come. If all I am doing is collecting the money from you today 
and giving it back to you tomorrow, I am just a money 
processor. I am not creating a trust fund of any kind. I am 
just redistributing it across the system.
    I know each one of you has needs today, and certainly the 
lack of spend rate is something that we can all agree on. But 
as we start talking about approaching a 100-percent spend rate, 
does anybody share the concerns that I share, that a rainy day 
is in the future and we actually need a trust fund for when 
something happens and we need to be able to pump money out in a 
hurry? Anybody share my concerns? If you don't share my 
concerns, I don't want you to tell me I am wrong. I want to 
know if anybody thinks I am right.
    Mr. Stephaich. I would argue that the rainy day is today 
for us. I mean, we are in a critical situation where we are 
facing potential catastrophic failures with our infrastructure. 
So I would argue that the rainy day is today. Thank you for the 
question.
    Mr. Woodall. Easy to make that case today. Then that is 
right, we have not been doing enough historically. I watch the 
pendulum swing in this town, and we unquestionably need to 
swing it more in terms of getting money out the door. I just 
worry. I wonder whether or not there is a point where we swing 
it too far and we are not planning for tomorrow. Ms. Brady.
    Ms. Brady. I think, listening to the folks to my left 
regarding the locks, it is definitely a separate situation. So 
what they say is very valid.
    For us, in 2018, we have had three dredges in three of our 
ports so we are good at this very second. However, you know, 
one really good storm or one really good winter where we just 
get pounded and pounded, we do need to have the ability to 
access those emergency funds and not just make a mad scramble 
and hope and pray that everything works out.
    Mr. Woodall. And the best part of my job is smart people 
come in to make me smarter. I am more of a surface guy than a 
water guy. And what I know in Metro Atlanta, if I try to build 
a sidewalk with county funds, I can get it done in a couple of 
months. If I try to build that same sidewalk with Federal 
funds, it could be a 3\1/2\-year project if everything goes my 
way.
    I can't do these massive dredgings with local funds in 
their entirety, so, of course, we are going to knock on the 
Federal door. Are there occasions where you are not knocking on 
the Federal door, you are simply using local funds and we see 
that same thing in water infrastructure that I see in surface 
infrastructure, that I can spend money rapidly if I just left 
it with Los Angeles instead of taking it from Los Angeles and 
giving it back a year later?
    Mr. Seroka. And that is what we do every day. In a strong 
year, we are committing about $1 million a day to ongoing 
maintenance repairs and progress to manage these ships. At our 
port, which is dissimilar from some, we have 27 terminals and 
270 berths. What we see ourselves doing today is moving the 
right size ship to the proper terminal, based on its size. And 
that is not a sequence that really promotes fluidity.
    So, while I understand that a variable in the equation must 
be the rainy day concept, there are immediate issues today. And 
I assure you that the Port of Los Angeles will have a long-term 
plan to help you craft what tomorrow will bring.
    Mr. Woodall. When you are dedicating those local funds, are 
you doing it in a cost share, or for those projects it is all 
local funds all the time today?
    Mr. Seroka. Mostly, sir, it is the money that we earn from 
our customers, direct revenue that is being invested back into 
our port.
    Mr. Woodall. Ms. Brady.
    Ms. Brady. Our situation is--country mouse here--very 
different. We have, I believe, an 80/20 cost share. We don't 
have a dredge. Our town doesn't own one. It is too expensive. 
The costs of having to--apparently, they last only about 2 
years. The county has a dredge, but you can't dredge the inlet, 
because it is not a county waterway. So if we did not have a 
mechanism with that cost share, our town, we couldn't afford it 
without having that help.
    Mr. Woodall. Thank you very much.
    Madam Chair, you have been very indulgent. Thank you.
    Mrs. Napolitano [presiding]. Thanks. The Chair recognizes 
Mrs. Fletcher.
    Mrs. Fletcher. Thank you, Chairwoman Napolitano.
    And I would like to thank you and Ranking Member Westerman 
for holding this important hearing today, and the witnesses for 
taking the time to testify.
    Ports are the economic drivers of our Nation, and we 
certainly know that in my home in Houston. The Port of Houston 
just released new economic impact numbers reflecting the 
economic activity, jobs, and tax revenue provided by the more 
than 200 private and public facilities that comprise the Port 
of Houston.
    In 2018, the Port of Houston generated $801 billion in U.S. 
economic value, sustained $3.2 million in jobs throughout the 
Nation, and provided $38 billion in local, State, and Federal 
tax revenue.
    The Port of Houston is the largest exporting region in the 
U.S. It is the largest U.S. oil exporting port, and it is home 
to the largest petrochemical manufacturing complex in the 
Nation. The port has been called irreplaceable, because there 
are no alternatives to the pipeline, refining, and 
manufacturing facilities that exist along the Houston ship 
channel. It is a national asset, and it is critical that it is 
adequately maintained, to ensure the safe and efficient 
movement of commerce for the benefit of the country.
    Each year, the Port of Houston generates $75 to $100 
million in Federal harbor maintenance trust revenue, yet it 
needs about $50 to $60 million to adequately maintain the 
Houston ship channel at its authorized depth and width. Its O&M 
dredging allocations in recent years have been $40 million or 
below.
    It is my understanding that the Port of Houston has 
calculated that the direct economic impact of the loss of 1 
foot of draft on the Houston ship channel is $281 million. So I 
have a question for anyone on the panel who wants to answer 
whether they have performed similar calculations in their ports 
and have similar information about that impact?
    Mr. Goche. Yes, Congresswoman. In recent years, we did an 
economic study. We had a third party do an economic study of 
our little port of Bandon. And that study resulted in the 
finding that our access to the sea that costs about $450,000 a 
year returns an economic output of between $52 and $62 million 
annually. That, in turn, results in revenue to the Treasury, 
tax revenue, Federal tax revenue to the Treasury of just under 
$5 million. So about a 10-to-1 ratio of return on investment. 
So even though the scale is quite different, I think that that 
shows that small ports are a great investment for the Federal 
Government on those Federal projects.
    And I would like to also point out that that $450,000 just 
addresses the Federal channel, you know, the responsibility of 
the Federal Government for their project. We also have other 
silt-in situations that we have to address on a regular basis 
that has to come from the local economy.
    Mrs. Fletcher. Thank you, Mr. Goche.
    Mr. Seroka. From our perspective in Los Angeles, we 
anticipate the cargo volume will double over the next 15 years. 
So my work, whether it be on our so-called 2050 plan or some of 
the recommendations I have given to the subcommittee here today 
are all with a line of sight on that area.
    And in very similar fashion, Roger Guenther, who runs your 
port, is a good friend of mine, and we talk a lot about these 
economic KPIs and where our drivers or levers can be. So I am 
glad that you and Roger are keeping good tabs on what this 
means. Thank you.
    Mrs. Fletcher. Thank you. And with the few seconds I have 
left, maybe you can address this or anyone on the panel. How 
can we modernize the HMT so that ports like Houston that 
contribute more than they receive are maintained to their 
authorized depth?
    Mr. Seroka. That was the second point that I made in the 
recommendations to the subcommittee of a fair allocation, where 
no one is left behind. There is linkage to the full spend 
concept that we have and even using banked moneys if that is 
appropriate, and making sure that folks can grow their pot, 
whether they be emerging harbors, geographies, or other 
classifications of port outside donor.
    Mrs. Fletcher. Thank you so much, and I yield back my time.
    Mr. Malinowski [presiding]. The Chair recognizes Mr. 
Huffman.
    Mr. Huffman. Thank you, Mr. Chair.
    The topic of today's hearing is to discuss the role of the 
U.S. Army Corps of Engineers in the maintenance of our Nation's 
harbors, and I have heard categories for these harbors such as 
high use, moderate, and emerging.
    I have to say this euphemism of emerging is insulting, 
given that communities I represent feel like their ports and 
waterways are neglected and abandoned. Petaluma River is one 
that has been particularly neglected and abandoned. I represent 
this area, and it was once dredged every 3 to 4 years to 
maintain channel depth. It has not been dredged since 2003, and 
that was a partial dredging. There are portions that have not 
been dredged since 1998.
    So perhaps in the next WRDA, we should just end the charade 
and come up with a new category for ports that the Army Corps 
has simply forgotten about or left behind. And I could come up 
with more colorful terminology if you talk to my constituents, 
I assure you. The system is not working and it is, in fact, 
insulting to communities that play by the rules and still lose 
every year every single time.
    Now, there are other Members who have served longer than I 
have, certainly, on this committee, but this is year 7 for me, 
and I am already sick and tired of this annual cycle of begging 
OMB and the Corps during the development of the President's 
budget request, then to turn around from disappointment to 
pleading for support through the work plan, and in the end when 
no assistance is provided by the Corps being reassured there is 
always next year. This is a con game.
    And I would like to ask unanimous consent to enter into the 
record letters that I have written going all the way back to 
2014, 2015, 2016, 2017, 2018, and January of 2019, where we are 
begging and pleading with the Corps to address these issues. 
This spans two different administrations. It showcases years of 
failed responses by the Army Corps of Engineers. So, Mr. Chair, 
I would like to enter into the record six of these letters that 
I have written on this subject.
    Mr. Malinowski. Without objection.
    [The information is on pages 53-64.]
    Mr. Huffman. Thank you. And I would invite the committee to 
come out to the Petaluma River and hold a hearing on how we are 
failing small communities, because the witnesses before us 
today, and I very much appreciate the testimony, but from what 
I can tell, most of you folks are doing pretty well by the 
status quo. Ms. Brady, I have been out to your community.
    Ms. Brady. Riverhead. Still another hour and a half away. 
Close enough, right.
    Mr. Huffman. Near, nearby. And I appreciate, you have made 
the point very well how important commercial fishing is to your 
region. Believe me, as chair of the Water, Oceans, and Wildlife 
Subcommittee of the Committee on Natural Resources, I 
understand that. And I want to see your community taken care 
of. But in your testimony, you mention maintenance dredges in 
Montauk in 2008, 2012, 2018, and relatively consistent dredges 
elsewhere in the area.
    I am representing a community that hasn't been dredged--
again, just a partial dredge in 2003--in over 20 years since 
the entire channel was dredged. I am sure you can imagine what 
that kind of lack of attention by the Army Corps of Engineers 
can do to a community.
    So if we want to talk about a hearing to showcase the cost 
of doing nothing, let's come to Petaluma or let's go to the San 
Rafael Canal, another part of my district where we have seen 
similar neglect and abandonment by the Corps of Engineers. I am 
happy to work with my colleagues and any of you here on ways to 
fully utilize the Harbor Maintenance Trust Fund, but I want to 
make sure as we go forward that we are also taking care of 
these neglected and abandoned communities and not simply 
redirecting more funds to communities that have been relatively 
well-maintained by the status quo.
    I have a little bit of time left. If any of you have 
anything you would like to say to the people of Petaluma and 
other communities I am sure around this country where shallow 
draft dredge projects have simply been abandoned and forgotten, 
I will leave the balance of that time to you.
    Ms. Brady. Congressman, it is nice to see you again. That 
is ridiculous that your constituents should have to go through 
that. There is no one should have that. I know specifically for 
Montauk, if there had been a change in the language of what is 
considered a lesser harbor and a greater harbor, we would have 
immediately been able to been dredged to a 16-foot depth, in 
which case we would not have necessarily needed all the 
maintenance dredging and the emergency dredging.
    We had an emergency dredge that was basically like a whaler 
and two straws. It created more damage than it helped. We have 
dealt with the Army Corps in the past. I know they will ask 
for, you know, the questions at 14 foot, at 15 foot, at 16 
foot. If we hit bottom, it is a bad day and it doesn't matter. 
It just depends as to how deep it could be.
    I think--and I am saying this just on the fly--if we had 
had the depth at the level that we could have used and that the 
community had told the Army Corps at that time, we might not 
have required as many of those maintenance dredgings. And so 
that is to be had. But no, what your people have gone through, 
that is ridiculous. Thank you.
    Mr. Huffman. Thank you, Mr. Chair.
    Mr. Malinowski. Thank you. The Chair recognizes myself for 
5 minutes. And I will start by saying that in my weeks' long 
career in the United States Congress, I have not attended a 
hearing with as straightforward a subject and conclusion as 
this one. Obviously, the Harbor Maintenance Trust Fund should 
be spent on harbor maintenance, and I am glad that there is 
broad consensus on that.
    Let me ask you about rainy days, if I may. I represent New 
Jersey. And, as you well know, Hurricane Sandy caused 
tremendous damage to ports in New Jersey and New York, 
including to fuel oil, chemical facilities in port areas, 
extreme flooding at inland facilities and in transit tunnels 
used by thousands of New Jersey and New York residents every 
day.
    So my question to anybody who might want to take it is, 
what has been done and what is being done to prepare our ports 
for the next big storm, and what have been the lessons learned 
from past extreme weather events related to port resiliency? 
Who would like to take that?
    Mr. Goche. I will take a stab at that. So we have big 
storms. On the east coast here, they call them hurricanes. We 
just call them another day at the beach. And the deferred 
maintenance in our port on the jetty has gone on so long that 
each day at the beach turns into more damage to our jetties.
    So it is hard to talk about preparing for the future when 
we have such a backlog of deferred maintenance. As a commercial 
fisherman, maintenance is a big deal. If I don't take care of 
my boat, my boat doesn't take care of me, I don't get home to 
my family.
    And I see the ports that I travel--and I go into ports all 
up and down the west coast, and I see each one of these, with 
the exception of the big ports that tend to get most of the 
attention and the money, all of the smaller ports, even our 
biggest port outside of the Columbia River in the State of 
Oregon, which is Coos Bay Harbor, like I said earlier, has lost 
380 feet of length over the last 30 years. And we desperately 
need to bring that back at least halfway to where it was so 
that we can keep everything moving, all the moving parts that 
need to keep moving.
    So I don't know if I addressed your question, but it is 
important to me to look at maintenance, the deferred 
maintenance first before we try to look into the future.
    Mr. Malinowski. Understood. Thank you.
    Does anyone else want to chime in?
    Mr. Seroka. Yes. Our preparation is around three main 
areas: Seismic preparation, number one, based on our geography 
and close proximity to fault lines; number two is sea level 
rise, something that we have watched and we are required by the 
State of California to report on and report contingency 
planning; and then thirdly, stormwater capture and what we do 
with the shifting land mass.
    In our geography, we are not as susceptible to the types of 
storms in your home State, but nonetheless, those three areas 
are primary focus today in addition to the maintenance and the 
2050 plan to which I referred earlier.
    Mr. Malinowski. And how are you taking sea level rise into 
account? That was actually going to be my next question.
    Mr. Seroka. Taking into account, number one, looking at the 
speed at which the water is rising; two, our infrastructure, 
where it sits in comparison to those out and downline 
projections; and then thirdly, whatever we can do to mitigate 
potential impacts.
    And, fortunately, because of the people who came before us 
and the design scientists and engineers, we appear to be in 
good shape as far as that infrastructure placement, but we 
cannot take that for granted.
    Mr. Malinowski. Got it. Thank you. Any final comments on 
either of those questions or anything else, because I think we 
are about to wrap up?
    All right. Seeing none, I think we have come to the end of 
the hearing.
    So I want to thank all of the witnesses for your 
contributions today. I want to ask unanimous consent that the 
record of today's hearing remain open until such time as our 
witnesses have provided answers to any questions that may be 
submitted to them in writing, and unanimous consent that the 
record remain open for 15 days for any additional comments and 
information submitted by Members or witnesses to be included in 
the record of today's hearing.
    Without objection, so ordered.
    Let me thank the witnesses again. If no other Members have 
anything to add, the committee stands adjourned.
    [Whereupon, at 12:27 p.m., the subcommittee was adjourned.]


                       Submissions for the Record

                              ----------                              


Statement of Kurt J. Nagle, President and CEO, American Association of 
     Port Authorities, Submitted for the Record by Hon. Napolitano
    Fixing our nation's infrastructure is one of the highest priorities 
for Congress, the Administration and the American people. We commend 
Chairman DeFazio for his leadership on this issue. Ports are a critical 
part of our U.S. economy. America's seaport activity accounts for 26 
percent of the economy, supports nearly 31 million U.S. jobs and 
provides $378 billion in annual federal, state and local tax revenues. 
Our nation depends on seaports to support our standard of living in 
every category of economic activity including U.S. manufacturing, 
agriculture and overseas deployment of the U.S. military. In addition, 
the amount of freight moved in the U.S. is projected to grow 15 percent 
by 2045, and America's trade volume is expected to quadruple after 
2030.
    Landside and waterside investments are critical to building 
America's 21st century seaport infrastructure. The American Association 
of Port Authorities (AAPA) has highlighted $66 billion in federal need 
over the next decade for port-related infrastructure. About half of 
that need, $33.8 billion, is for waterside investments. $27.6 billion 
is needed to maintain our deep-draft navigation channels, paid for by 
releasing the $9.5 billion balance in the Harbor Maintenance Trust Fund 
(HMTF) and approximately $1.8 billion in annual Harbor Maintenance Tax 
(HMT) revenues. There is also a great need to modernize or deepen deep-
draft navigation channels to serve the current size of vessels using 
our ports. AAPA calls for an investment of $6.2 billion, of which $3.1 
billion is the federal share of the 15 current Congressionally 
authorized construction channel improvements approved by this 
Committee. Another $3.1 billion is the federal share of projects 
undergoing feasibility studies. We appreciate this Committee's 
commitment to passing water resources legislation on a two-year 
schedule and hope this can continue in the future.
    Another critical part of fixing our nation's seaport infrastructure 
relates to passing a long-term funding solution for port maintenance. 
As noted above, the majority of the federal waterside needs relate to 
maintaining our nation's ports. The HMT is paid by shippers to ensure 
our nation's ports are well maintained. Unfortunately, while the 2014 
Water Resources Reform and Development Act (WRRDA) and the 2016 Water 
Infrastructure Improvements for the National Act (WIIN) put us on a 
path to full use, Congress is still short of fully using current HMT 
revenues, and there is no plan to spend down the $9.5 billion balance 
in the HMTF. We appreciate that the FY 2019 Corps of Engineers 
appropriations provided the Corps of Engineers 91 percent of HMT 
revenues. This is up from 50 percent when WRRDA 2014 was passed. 
However, it is unclear if Congress can continue to increase funding 
from the HMTF without a funding solution that provides a mechanism to 
allow for the spending of prior year collections of the HMT.
    Now is the time to provide a long-term funding solution for port 
maintenance. One that makes full use of the HMT more permanent. It is 
also important to address the underlying problems with the HMT. This 
includes addressing tax fairness and cargo diversion problems. To aid 
you in building a stronger system, AAPA has developed a comprehensive 
proposal that is based on four pillars to fix the system:
    <bullet>  Full use of HMT revenues;
    <bullet>  A funds distribution framework that makes permanent and 
expands donor and energy transfer port funding, as well as expands the 
allowable in-water use of these funds;
    <bullet>  Minimum regional funding assurances based on historic 
funding; and
    <bullet>  Emerging harbors funding that updates the provisions in 
WRRDA 2014 and WIIN 2016 to guarantee no less than 10 percent to these 
harbors.
    This proposal is based on years of discussion within the 
Association. The goal was to bring together ports that wanted a 
sustainable way to ensure full use of future HMT revenues with ports 
who wanted a more equitable funding structure. What resulted is a 
funding structure that provides benefits for all ports.
    This is a U.S. port industry proposal to fix a broken system. It is 
a comprehensive proposal that allows 100 percent of taxes collected 
from shippers to be provided to our nation's seaport infrastructure and 
support our international competitiveness. It is a long-term solution 
that fixes an unequal system and addresses the health and well-being of 
our seaport water highways that are critical to competitively exporting 
U.S. goods and delivering raw material components and consumer products 
to Americans. HMT collections to restore and maintain U.S. water 
highways complement the $155 billion in port related capital 
investments planned by local public ports and their private sector 
partners to assure safe and efficient freight movement.
    To give you a bit of perspective on how this proposal was 
developed, the U.S. members of the AAPA debated the usage and fairness 
of the HMT for years. In early 2013, our members agreed to Water 
Resources Guiding Principles including reforms to the HMT. We were 
happy to see that many of these principles were reflected in the final 
WRRDA 2014 and WIIN 2016.
    Discussions about HMT reform, however, continued in our Association 
for the next five years, as the principles did not include specific 
recommendations on how to achieve the principles. In January 2018, AAPA 
leadership adopted a policy agreement that was developed by the broad 
membership. It was based on the original principles, and also 
incorporated provisions from WRRDA and WIIN related to funding being 
received by emerging ports and energy transfer ports. In crafting this 
agreement, AAPA was careful to balance the interests of our entire 
membership. Interests from each port stakeholder group were at the 
table and included in the AAPA agreement: maintenance ports, regional 
ports, smaller ports, donor ports and energy transfer ports. What 
emerged from those negotiations was a partnership to advocate together 
for a broad reform package that would incorporate all the pillars noted 
above. By joining forces on a joint proposal developed by those 
responsible for ensuring the continued success of our nation's marine 
infrastructure, AAPA members remain hopeful that they can secure 
Congressional support to fix the most glaring problems with the HMT.
    This AAPA agreement includes a funds distribution framework that 
continues to make traditional maintenance the highest priority. At the 
first stage, the agreement provides 90 percent for maintenance and 10 
percent for donor and energy transfer ports. Within the donor and 
energy transfer ports allocation, 80 percent would be distributed to 
donors and 20 percent to energy transfer ports. The rationale for this 
ratio is that large donor ports do not require much maintenance, while 
all energy transfer ports use HMT for traditional maintenance. For 
example, large donor ports account for 50 percent of HMT revenues, but 
receive less than two percent in return.
    During the AAPA debate, there was considerable discussion about 
when donors should get more funds. While maintenance was a priority, 
the group agreed to increase the donor funding now in order to increase 
support for full use of the HMT and provide these ports with 
flexibility at the port level to ensure their ongoing competitiveness 
by building on provisions first established in WRRDA 2014.
    We appreciate the staunch support of full use of the HMT by 
Chairman DeFazio and other members of the Committee, and we are 
thankful that Senator Shelby, Chairman of the Senate Appropriations 
Committee, has found a mechanism to encourage full use outside of the 
budget caps. AAPA is supportive of this mechanism and urges it to be 
broadened to include all the pillars of the AAPA agreement. We believe 
this broader, comprehensive legislative solution is not only possible, 
but creates the best chance to achieve full use in this Congress, and 
we urge you to give strong consideration to the AAPA framework. As I 
noted above, this framework balances the needs of all ports.
    I have attached a summary of the full AAPA agreement for your 
review. AAPA looks forward to working with both the House and the 
Senate in crafting a solution that fully reforms the HMT.
                               attachment
    [The attachment entitled, ``A Long-Term Funding Solution for Port 
Maintenance: Good for Ports, Good for the Nation'' is retained in 
committee files and is available at http://aapa.files.cms-plus.com/
PDFs/HMT_onesheet_NOCHART_v2.pdf (page 1) and http://aapa.files.cms-
plus.com/PDFs/HMT_onesheet_CHART_v2_
1524673810492_2.pdf (page 2).]

                                 <F-dash>
Six Letters from 2014-2019 from Hon. Jared Huffman, a Representative in 
Congress from the State of California, et al., Submitted for the Record 
                            by Hon. Huffman
                                                  December 3, 2014.
The Honorable Shaun Donovan
Director, Office of Management and Budget
The Honorable Jo-Ellen Darcy
Assistant Secretary for Civil Works
    Dear Director Donovan and Assistant Secretary Darcy,
    We write to reiterate our strong support of funding for several 
items related to the important work done by the U.S. Army Corps of 
Engineers (USACE) in Sonoma County, California. We request support for 
the several aspects of the Russian River Biological Opinion (BO) as 
well as Coyote Valley Dam and Petaluma River dredging in any work plan 
the Congress directs to be prepared by the U.S. Army Corps of Engineers 
(USACE) for FY '15, and in the President's FY '16 budget request.
Russian River Biological Opinion Projects
    The Russian River BO issued in September 2008 by the National 
Marine Fisheries Service identified 23 actions that must be taken to 
protect three threatened or endangered salmonid species; coho salmon, 
steelhead, and Chinook salmon. The BO was issued because of the impact 
on these fish populations from the construction and operation of two 
USACE facilities: Warm Springs Dam on Lake Sonoma, and Coyote Valley 
Dam on Lake Mendocino. These facilities are operated by the USACE for 
flood control to protect communities along the Russian River. 
Additionally, the Sonoma County Water Agency utilizes these facilities 
for water supply purposes for 600,000 people and the valuable local 
agriculture industry. With the ongoing historic drought in California 
the importance of these USACE facilities is higher than ever before.
    We request that from the Section 1135 Continuing Authorities 
Program, you include $300,000 in the FY '15 work plan and $4.45 million 
in the FY '16 budget for work at Dry Creek for study completion 
($450,000) and construction ($4 million) as needed to help complete the 
required three miles of habitat enhancement required by the BO by 2018.
    For the Dry Creek (Warm Springs) Feasibility Study, we request that 
a sufficient amount be added to the FY '15 work plan so that $500,000 
is provided, and request that the President's budget for FY '16 include 
an additional $725,000 for this project. These amounts are essential to 
appropriately advance this study that is directed at the completion of 
the required six miles of habitat enhancement that, pursuant to the BO, 
must be completed by the year 2020. Taken together these projects will 
move forward in demonstrating the ability to balance flood control and 
water supply needs with a sustainable ecosystem for threatened or 
endangered salmonid species.
    We also urge that $1.89 million be added in the FY '15 work plan to 
the President's budget request for Operation and Maintenance at Dry 
Creek (Warm Springs) Lake and Channel, as needed for the monitoring of 
fish released from the hatchery; for coho hatchery facility water 
treatment and filtration to prevent fish disease; and for egg 
incubation equipment--all as required by the BO. This amount includes 
$400,000 that is independently necessary for critical maintenance 
including waste water treatment, pump repair, and water control gate 
maintenance. Finally, in this regard, $6 million needs to be included 
in the FY '16 budget request for BO efforts and routine critical O&M.
Coyote Valley Dam
    For the Coyote Valley Dam, we urge that $30,000 be funded from the 
budget of the Section 1135 Continuing Authorities Program for the 
feasibility study that is evaluating the effect of winter flood release 
timing on river water quality. And, at Coyote Valley, we ask that 
$450,000 be added in the FY '15 work plan above the President's O&M 
budget request for the monitoring of fish released from the hatchery, 
and for minimum critical maintenance including service gate and 
emergency gate maintenance. In addition, we request that $3.8 million 
be included in the FY '16 budget request for BO efforts and routine 
critical maintenance.
Petaluma River Dredging
    In addition to the important work done by the USACE in these flood 
control, water supply, and ecosystem restoration projects, we are 
concerned that dredging maintenance for the continued commercial use of 
Petaluma River last occurred in 2003 and is long overdue. Funding is 
needed both for dredging and flood control work. Because of the delay 
in regular maintenance the cost of dredging could be significantly 
higher than past years. We support moving forward with the initial 
planning for this long-overdue dredging of the river.
    Thank you for your consideration of this request which we 
understand to be consistent with the optimal funding levels the Corps 
has expressed for these projects.
        Sincerely,
                                   Jared Huffman
                                           Member of Congress
                                   Mike Thompson
                                           Member of Congress

                               __________

                                                  October 27, 2015.
The Honorable Shaun Donovan
Director, Office of Management and Budget
The Honorable Jo-Ellen Darcy
Assistant Secretary for Civil Works
    Dear Director Donovan and Assistant Secretary Darcy:
    As you continue your preparation of an FY 2016 work plan and FY 
2017 budget for the U.S. Army Corps of Engineers (USACE), I wanted to 
call your attention to several important projects across California's 
North Coast and the counties in California's Second Congressional 
District.
Harbor Dredging
    Adequate funding for the USACE is necessary to modernize our 
nation's ports and harbors and better support the over 13 million jobs 
in the marine transportation industry. Inadequate funding results in 
insufficient dredging, increasing the chance of collisions and causing 
higher costs for consumers. In my district, the dredging maintenance 
for the continued commercial use of Petaluma River last occurred in 
2003 and is long overdue. Funding is needed both for dredging and flood 
control work. Because of the delay in regular maintenance the cost of 
dredging could be significantly higher than in past years. I urge you 
to move forward with the initial planning for this long-overdue 
dredging of the river.
    Additionally, the Corps has provided much needed dredging services 
in the past in the San Rafael Canal, but over the years the silt 
buildup has significantly impaired the depth during low tide. The last 
dredging in 2011 covered only a portion of the canal, and a full 
dredging has not occurred since 2002.
    In Humboldt Bay regular and timely dredging is critical for 
commerce, especially with new investments by companies in products that 
require deep-draft vessels for shipping, like wood chips and logs. 
Since Humboldt Bay is also a harbor of refuge--the only deep-water port 
between San Francisco and Coos Bay--its operation is also vital to 
marine safety. Consistent maintenance dredging is needed to keep the 
harbor entrance safe for transit for commercial and recreational 
vessels. I also ask for your continued engagement in supporting 
dredging and addressing the disposal and use of dredged materials in 
Noyo Harbor.
Russian River Biological Opinion Projects
    I strongly support the ongoing efforts in Sonoma County to 
implement the Reasonable and Prudent Alternatives of the Russian River 
Biological Opinion (BO) which, as issued in September 2008 by the 
National Marine Fisheries Service, establishes a series of benchmarked 
dates. The failure to achieve the BO's tasks by the specified dates 
could trigger requirements to construct substantially more expensive, 
and more controversial, projects.
    The Russian River BO identified 23 actions that must be taken to 
protect three threatened or endangered salmonid species: coho salmon, 
steelhead, and Chinook salmon. If work is to be completed on time, a 
significant investment will be required in FY 2017. It appears likely 
that about $9.2 million in construction funding from the Section 1135 
Continuing Authorities Program will be required through FY 2017. I 
understand that there may be backlogged funding available for this 
program, and I ask that the President's FY 2017 budget request for the 
1135 program contains sufficient funds to complete the three miles of 
habitat enhancement required by the BO by 2018.
    For the Dry Creek (Warm Springs) Feasibility Study, I request that 
$425,000 be included in the President's FY 2017 budget. This will allow 
the Army Corps to make progress on the required six miles of habitat 
enhancement that must be completed by the year 2020. Taken together, 
these projects will demonstrate the ability to balance flood control 
and water supply needs with a sustainable ecosystem.
    Additionally, I urge that any FY 2016 work plans prepared by the 
Corps include an additional $1.25 million for Operation and Maintenance 
at Dry Creek (Warm Springs) Lake and Channel for coho hatchery facility 
water treatment and filtration to prevent fish disease, and for egg 
incubation equipment.
    I urge, as well, that $6.411 million be included in the President's 
FY 2017 O&M budget request for Dry Creek (Warm Springs) Lake and $4 
million at Coyote Valley Dam as important components for this connected 
watershed. Beyond O&M, I urge the Corps to consider studying the 
benefits of raising Coyote Dam.
Bodega Bay
    Bodega Bay, a critical harbor of refuge, is located about 60 miles 
north of San Francisco, and is home to a Coast Guard search-and-rescue 
station which performed about 250 rescue missions in 2013. It is also 
home to a substantial commercial fishing fleet of about 300 vessels 
(500 in-season), as well as an economically significant sport fishing 
industry (about 600 vessels in-season) and recreational craft. In 2012, 
nearly 25% of the total Chinook salmon landings in California, and over 
10% of Dungeness crab California landings, came through Bodega Bay.
    The Corps O&M schedule provides for periodic inspection and repair 
of three breakwaters and maintenance dredging of the federal channel, 
including three turning basins, on an 11-year cycle to a depth of 12 
feet Mean Lower Low Water. Recent sounding surveys indicate that 
shoaling is occurring and that dredging is required now. The last 
dredging episode was in 2004.
    Although $500,000 was included in the Corps' FY 2014 work plan, the 
plan for sediment quality sampling and testing has only recently 
commenced. With groundings occurring particularly among transient 
vessels, and high tide exit and entry generally required, it is now 
essential that funding be budgeted sufficient to conduct the necessary 
dredging.
    While $6.6 million is needed to conduct the dredging as soon as 
possible, it is critical that $1 million be provided as part of the FY 
2016 work plan, and that any balance up to $6.6 million be included in 
the President's FY 2017 budget request to Congress.
Corte Madera Creek Flood Control Project
    Continued support for the Corte Madera Creek Flood Control project 
is crucial for both the FY 2016 work plan and the FY 2017 budget. The 
project received $400,000 in the FY 2015 work plan and the Project 
Design Team is working toward meeting the first project milestone. In 
order to remain close to the milestones set out by the San Francisco 
District Engineer in his August 13, 2015, letter to the Marin County 
Director of Public Works, $500,000 needs to be included for this 
project in any FY 2016 Army Corps work plan, and I ask that an 
additional $600,000 be included in the President's FY 2017 budget 
request.
    The Corte Madera Creek Flood Control project is critical to the 
broader Ross Valley Flood Protection and Watershed program, a region-
wide, four municipality, multiple community effort to address chronic 
flooding in the Ross Valley. A suite of creek improvement measures have 
been identified to reduce and contain 100-year flows within the main 
stem of Corte Madera Creek. Residents have agreed to tax themselves $44 
million over 20 years to fund this program. The federal Corte Madera 
Creek project is at the downstream end of all proposed measures and 
must be completed for all present and future efforts of the local 
community to achieve a level of flood protection that will contain a 
100-year flood event.
    The requested funds will complete a feasibility study for the final 
phase of the Corte Madera project, which includes a final unit and 
potential modifications to previous phases, to allow the project to 
function at a level agreed upon by all stakeholders.
    In conjunction with the other measures to be undertaken and for 
which residents have agreed to tax themselves, the Corte Madera Creek 
Flood Control project will substantially improve flood control and play 
a key role in preventing the level of loss seen in our 2005-2006 winter 
storms. These storms resulted in approximately $100 million in damage, 
affecting over 240 homes, 75 retail and commercial structures, two 
elementary schools, the College of Marin campus, two post offices, the 
Ross Town Hall, and police and firehouses in the Towns of Ross, San 
Anselmo, and Fairfax.
Redwood Creek
    Last year, I wrote to discuss the importance of a USACE flood 
control along Redwood Creek, built after the 1964 flood to protect the 
town of Orick. These levies, while important for local flood control, 
do not convey enough sediment to prevent a buildup of materials. 
Furthermore, they were not designed to ensure that local fish species, 
including federally protected species, were not harmed. Despite tens of 
millions of dollars in restoration work done by the federal government 
upstream, the National Marine Fisheries Service has issued a draft 
jeopardy opinion on the project, which may further reduce the county's 
ability to remove gravel from the project area.
    Humboldt County is currently working with stakeholders and 
landowners to redesign the project to allow for improvement in all of 
these problem areas. USACE will need to at least be a permitting 
agency, and may need to be the action agency for this new project. I 
urge inclusion of the associated costs of leading on this project in 
the USACE's budget.
    Thank you for your consideration of these requests, and I look 
forward to continuing to work with you in the future.
        Sincerely,
                                   Jared Huffman
                                           Member of Congress

                               __________

                                                   October 7, 2016.
The Honorable Shaun Donovan
Director, Office of Management and Budget
The Honorable Jo-Ellen Darcy
Assistant Secretary for Civil Works, Army Corps of Engineers
    Dear Director Donovan and Secretary Darcy,
    I write to call to your attention several important projects across 
California's North Coast and the counties in California's Second 
Congressional Districts. These projects are of utmost importance as you 
work on your preparation of a Fiscal Year 2017 work plan and the budget 
proposal for the U.S. Army Corps of Engineers (USACE) for Fiscal Year 
2018.
Critical Dredging of Petaluma River
    Adequate funding for the USACE is necessary to modernize our 
nation's ports and harbors and better support the over 13 million jobs 
in the marine transportation industry. Inadequate funding results in 
insufficient dredging, increasing the chance of collisions and causing 
higher costs for consumers. In my district, the dredging maintenance 
for the continued commercial use of Petaluma River last occurred in 
2003 and is long overdue. Funding is needed both for dredging and flood 
control work. Because of the delay in regular maintenance the cost of 
dredging could be significantly higher than in past years.
    I am pleased that local stakeholders along the Petaluma River and 
San Rafael Canal are working with the San Francisco District to 
identity the possibility of an innovative new approach that would 
formulate a public private partnership (P3/P4) to reduce dredging costs 
and bring long overdue dredging to the river. While still in its early 
phases, collectively this could be a win-win for all participants. In 
order to support continued collaboration between the Corps and local 
stakeholders for this P3/P4 proposal, I request inclusion in the FY 
2017 work plan of a $200,000 line. However, as ongoing conversations on 
a possible P3/P4 proposal continue, I urge you to not neglect the 
unnecessary backlog of dredging.
Coyote Valley Dam
    As you know, Section 7001 of the WRRDA 2014 requires an annual 
submission to Congress of a report that identifies potential new or 
modified authorizations of authorized projects or studies. The 2016 
report to Congress listed the request by the Sonoma County Water Agency 
of a modification to the authorized project at Coyote Valley Dam, 
specifically raising the existing dam by 36 feet. This would increase 
total storage capacity at the reservoir to 199,000 acre feet from an 
existing 122,500 acre feet. This would not only have water supply and 
storage benefits, but would address ecosystem restoration benefits 
based on the 2008 National Marine Fisheries Service Jeopardy Biological 
Opinion for the Russian River watershed, as additionally discussed 
below for other projects. Based on the 2016 report, both the House 
Transportation & Infrastructure Committee and the Senate Environment & 
Public Works Committee included authorization for project modifications 
in their Water Resources Development Acts. While Congress has yet to 
finalize a bill, I look forward to working with the Corps on this vital 
issue and urge full funding of the necessary actions by the Corps 
following final passage of a bill.
Dredging at Bodega Bay
    Bodega Bay is home to a substantial commercial fishing fleet of 
about 300 vessels (500 in-season), as well as an economically 
significant sport fishing industry (about 600 vessels in-season) and 
recreational craft. In 2012, nearly 25% of the total Chinook salmon 
landings in California, and over 10% of Dungeness crab California 
landings, came through Bodega Bay. While California's Dungeness crab 
landings have been harmed by a temporary fishery closure this year, the 
harbor also serves as a critical harbor of refuge and is home to a 
Coast Guard search-and-rescue station which performed about 250 rescue 
missions in 2013.
    The Corps O&M schedule for Bodega Bay provides for periodic 
inspection and repair of three breakwaters and maintenance dredging of 
the federal channel, including three turning basins, on an 11-year 
cycle to a depth of 12 feet Mean Lower Low Water. The last dredging 
episode was in 2004.
    I appreciate that $750,000 was included in the FY 2016 work plan to 
complete all environmental work and plans and specifications as 
required for dredging of the entire federal channel, and $4.285 million 
was in the FY 2017 budget request, an amount deemed sufficient to 
dredge the entrance channel. For the Corps to conduct dredging of only 
the entrance channel in the coming year, and then demobilize the 
equipment only to remobilize the dredge at some later date when 
additional funding becomes available to dredge the remainder of the 
harbor, would add dramatically to the project's cost at that time and 
so unnecessarily waste valuable federal resources.
    To best utilize scarce federal resources, I strongly urge that 
$2.815 million be provided in either the FY 2017 work plan or FY 2018 
budget request, sufficient to dredge the entire Bodega Bay federal 
channel.
Dredging of Additional Harbors
    In Humboldt Bay regular and timely dredging is critical for 
commerce, especially with new investments by companies in products that 
require deep-draft vessels for shipping, like wood chips and logs. 
Since Humboldt Bay is also a harbor of refuge--the only deep-water port 
between San Francisco and Coos Bay--its operation is also vital to 
marine safety. Consistent maintenance dredging is needed to keep the 
harbor entrance safe for transit for commercial and recreational 
vessels. I also ask for your continued engagement in supporting 
dredging and addressing the disposal and use of dredged materials in 
Noyo Harbor.
    Additionally, the Corps has provided much needed dredging services 
in the past in the San Rafael Canal, but over the years the silt 
buildup has significantly impaired the depth during low tide. The last 
dredging in 2011 covered only a portion of the canal, and a full 
dredging has not occurred since 2002.
Russian River Biological Opinion Projects
    I continue to offer my strong support for the funding of a critical 
project in Sonoma County relating to the Russian River Biological 
Opinion (BO). As promulgated in 2008, the BO calls for the completion 
of work on Reasonable and Prudent Alternatives by benchmarked dates and 
the Corps and its local partners continue to make progress in meeting 
those goals. The failure to achieve these tasks could trigger 
requirements to construct substantially more expensive, and more 
controversial, projects.
    The Russian River BO issued in September 2008 by the National 
Marine Fisheries Service identified 23 actions that must be taken to 
protect three threatened or endangered salmonid species; coho salmon, 
steelhead, and Chinook salmon. The BO was issued because of the impact 
on these fish populations caused by the construction and operation of 
two USACE facilities: Warm Springs Dam on Lake Sonoma, and Coyote 
Valley Dam on Lake Mendocino.
    If work is to be completed by the milestones contained in the BO 
significant investments will be required in FY 2017 and 2018. With work 
on the feasibility study continuing with funding made available from 
the Section 1135 Continuing Authorities Program, it appears likely that 
about $3.26 million in construction funding from the 1135 Program will 
be required in FY 2017, and an additional $300,000 will be needed in FY 
2018. I understand that there may be backlogged funding available for 
this program, and therefore urge that such funds be made available to 
accommodate the completion of the required three miles of habitat 
enhancement required by the BO by 2018.
    For the Dry Creek (Warm Springs) Feasibility Study, I request that 
$60,000 be included in the FY 2017 work plan as needed to complete this 
study that is directed at completing the required six miles of habitat 
enhancement which must be achieved by 2020 under the benchmarks of the 
BO. Taken together, these projects will move forward in demonstrating 
the ability to balance flood control and water supply needs with a 
sustainable ecosystem for threatened and endangered fish species.
    Additionally, I urge that at such time as the Corps may be required 
to prepare a work plan for FY 2017 with such additional funds as the 
Congress provides; $1.25 million be added to amounts included in the 
President's February request for Operation and Maintenance funding for 
additional work at Dry Creek (Warm Springs) Lake and Channel as needed 
for coho hatchery facility water treatment and filtration to prevent 
fish disease, and for egg incubation equipment, also as required by the 
BO. An additional $300,000 should be included in the FY 2018 budget 
request to complete funding related to the egg incubation equipment.
Flood Protection and Watershed Protection in Marin County
    The Corte Madera Creek Flood Control Project received $400,000 in 
the FY 2015 work plan and $520,000 in the FY 2016 work plan and the 
Project Design Team is working toward meeting the second project 
milestone. In order to meet or remain close to the milestones set out 
by the San Francisco District Engineer in his letter to the Marin 
County Director of Public Works on August 13, 2015, $580,000 for the 
study and $150,000 for Independent External Peer Review (a total of 
$730,000 in the GI budget) needs to be included for this project in any 
Army Corps work plan that Congress directs to be prepared for FY 2017.
    Three of four phases of the Corte Madera project have been 
constructed, and the requested funds will complete a feasibility study 
for the final phase of the project that includes Unit 4 and potential 
modifications to previous phases (Units 1, 2 and 3). While 75% of the 
project has been constructed, it is less than 25% effective. This final 
phase will allow the project to function at a level agreed upon by all 
stakeholders.
    The Corte Madera Creek Flood Control project is critical to the 
broader Ross Valley Flood Protection and Watershed program, a region-
wide, four municipality, multiple community effort to address chronic 
flooding in the Ross Valley. A suite of creek improvement measures has 
been identified to reduce and contain 100-year flows within the main 
stem of Corte Madera Creek. Notably, residents have agreed to tax 
themselves $44 million over 20 years to fund this program. The federal 
Corte Madera Creek project is at the downstream end of all proposed 
measures and must be completed for all present and future efforts of 
the local community to achieve a level of flood protection that will 
contain a 100-year flood event.
    In conjunction with the other measures to be undertaken and for 
which residents have agreed to tax themselves, the Corte Madera Creek 
Flood Control project will substantially improve flood control and play 
a key role in preventing the level of loss seen in our 2005-2006 winter 
storms. These storms resulted in approximately $100 million in damage, 
affecting over 240 homes, 75 retail and commercial structures, two 
elementary schools, the College of Marin campus, two post offices, the 
Ross Town Hall, and police and firehouses in the Towns of Ross, San 
Anselmo, and Fairfax.
    On September 13, 2013, the Project Design Team that included 
representatives from the USACE, Marin County Flood Control and Water 
Conservation District, the Marin County Board of Supervisors, and my 
office conducted a SMART planning charrette. The outcome of the 
charrette was a determination of continued federal and local interest 
in the project, requiring completion of the study within three years 
for $3 million or less.
    Additionally, and also of very great significance, Marin County 
Parks has written to the San Francisco District of the Corps wishing to 
initiate the McInnis Marsh Restoration Project pursuant to Section 206 
of the Water Resources Development Act of 1996, the Continuing 
Authorities Program for Aquatic Ecosystem Restoration.
    McInnis Marsh is a 180 acre diked wetland located in San Rafael, 
CA, east of McInnis Park between Miller and Gallinas Creeks. 
Historically, these creeks were hydrologically connected through a 
system of distributary channels at McInnis Marsh. This connectivity was 
lost in the early 1900's as levees were constructed to make the marsh 
suitable for agricultural use before the County purchased the land and 
built a park. In order to protect existing park and wastewater 
treatment facilities from flooding and enhance habitat for the federal 
and state listed species, Marin County parks, in partnership with the 
Las Gallinas Valley Sanitary District and the Marin County Flood 
Control and Water Conservation District, proposes the restoration of 
the intertidal marsh and estuarine habitat. It is my understanding that 
initiating this project will require $300,000 in funding from the FY 
2017 work plan, and an additional $300,000 in the FY 2018 budget.
    Again, the Corte Madera Creek Flood Control project and McInnis 
Marsh Restoration, will be of tremendous benefit to the people and 
County of Marin. As such, I urge that $580,000 for the study and 
$150,000 for Independent External Peer Review be included in the FY 
2017 work plan, for Corte Madera Creek to assure that it is completed 
as outlined in the District Engineer's letter of August 13, 2015. 
Additionally, $300,000 is needed under the Section 206 Continuing 
Authorities Program for Aquatic Ecosystem Restoration, to initiate an 
important project for the restoration of McInnis Marsh.
Redwood Creek
    Along the North Coast, Humboldt County is continuing to work with 
stakeholders and landowners along Redwood Creek for the improvement of 
the USACE flood control project. Built after the 1964 flood to protect 
the town of Orick, these levies, while important for local flood 
control, do not convey enough sediment to prevent a buildup of 
materials. Furthermore, they were not designed to ensure that local 
fish species, including federally protected species, were not harmed. 
Despite tens of millions of dollars in restoration work done by the 
federal government upstream, the National Marine Fisheries Service has 
issued a draft jeopardy opinion on the project, which may further 
reduce the county's ability to remove gravel from the project area. 
USACE will need to at least be a permitting agency, and may need to be 
the action agency for this new project. I urge inclusion of the 
associated costs of leading on this project in the USACE's budget.
    Thank you for your consideration of these requests, and I look 
forward to continuing to work with you in the future.
        Sincerely,
                                   Jared Huffman
                                           Member of Congress

                               __________

                                                  October 13, 2017.
Mr. Douglas W. Lamont
Acting Assistant Secretary of the Army (Civil Works)
Honorable Mick Mulvaney
Director, Office of Management and Budget
    Dear Director Mulvaney and Acting Assistant Secretary Lamont,
    As you continue your preparation of an FY '18 budget, and 
anticipate enactment of appropriations legislation that would call for 
the allocation of funds through an FY '17 work plan, I wanted to remind 
of you of several important projects across California's North Coast.
HARBOR DREDGING
    In my district, the dredging maintenance for the continued 
commercial use of Petaluma River last occurred in 2003 and is long 
overdue. Funding is desperately needed both for dredging and flood 
control work. Because of the delay in regular maintenance the cost of 
dredging could be significantly higher than in past years.
    In Humboldt Bay regular and timely dredging is critical for 
commerce, especially with new investments by companies in products that 
require deep-draft vessels for shipping. like wood chips and logs. 
Since Humboldt Bay is also a harbor of refuge--the only deep-water port 
between San Francisco and Coos Bay--its operation is also vital to 
marine safety. Consistent maintenance dredging is needed to keep the 
harbor entrance safe for transit for commercial and recreational 
vessels. I also ask for your continued engagement in supporting 
dredging and addressing the disposal and use of dredged materials in 
Noyo Harbor.
RUSSIAN RIVER BIOLOGICAL OPINION
    The Russian River Biological Opinion (BO) issued in September 2008 
by the National Marine Fisheries Service identified 23 actions that 
must be taken to protect three threatened or endangered salmonid 
species; coho salmon, steelhead, and Chinook salmon. The BO was issued 
because of the impact on these fish populations caused by the 
construction and operation of two USACE facilities: Warm Springs Dam on 
Lake Sonoma, and Coyote Valley Dam on Lake Mendocino. The failure to 
achieve these tasks by the specified dates could trigger requirements 
to construct, in lieu thereof, substantially more expensive, and more 
controversial, projects.
    If work is to be completed by the milestones contained in the BO, 
significant investments will be required in FY '17 and '18. While work 
on a feasibility study pursuant to the Section 1135 Continuing 
Authorities Program is ongoing, it appears likely that about $100,000 
from the 1135 Program will be required in FY '17, and that $4.5 million 
will then be needed in FY '18 for construction of the project. I 
understand that there may be backlogged funding available for this 
program, and would urge that such funds be made available to 
accommodate the completion of the required three miles of habitat 
enhancement required by the BO in 2018.
    For the Dry Creek (Warm Springs) Feasibility Study, I request that 
$170,000 be included in the FY '18 General Investigations budget, as 
needed to complete the ongoing study that is directed at completing the 
required six miles of habitat enhancement. Taken together, these 
projects will move forward in demonstrating the ability to balance 
flood control and water supply needs with a sustainable ecosystem for 
threatened or endangered species.
    Additionally, I urge that at such time as the Corps may be required 
to prepare a work plan for FY '17 with such additional funds as the 
Congress provides; $900,000 be added to amounts included in the pending 
appropriations bills for Operation and Maintenance funding for 
additional work at Dry Creek (Warm Springs) Lake and Channel as needed 
for water treatment and filtration improvements to the coho hatchery as 
needed to prevent fish disease, as required by the BO.
DAM SAFETY
    In addition to the work associated with the Russian River BO, I 
write to request attention to the dams themselves at Warm Springs Dam 
at Lake Sonoma, and Coyote Valley Dam at Lake Mendocino. While the 
responsible stewardship of these facilities has not been questioned, 
recent events at Oroville Dam has certainly, and reasonably, led 
parties to reexamine the safety of dams around the country, and I am 
certainly no less concerned about the safety of these two facilities.
    A catastrophic failure at either dam would be devastating to the 
communities downstream in loss of life and property damage. I am told 
that, based on the 2000 Census, up to 84,854 people could be impacted 
from a failure at Warm Springs, with an estimated loss of life of up to 
100 people. Potential damage to industrial and residential structures 
and their contents, infrastructure and agriculture, could total $13 
billion, with the cost of repairs to the dam estimated at $219 million.
    With regard to a breach at Coyote Valley Dam, economic losses could 
occur more than 50 miles downstream in more than ten cities and towns. 
This could include thousands of homes, livestock, farmland, and 
portions of Cloverdale, Geyserville, Healdsburg, Hopland, Santa Rosa, 
and Windsor. Infrastructure damage could include Highway 101, Ukiah 
Airport, a major rail line, schools, factories, a fire station and a 
sewage treatment facility--in addition to numerous roads and utility 
networks.
    While I understand that the likelihood of a breach or catastrophic 
failure at either dam is extremely remote, the potential consequences 
of such an occurrence is of obvious concern and must lead me to insist 
that all responsible precautions are taken to assure that such an event 
never occurs.
    As such, I would ask that the President's Operation and Management 
budget request for FY '18 include at least $660,000 for a spillway 
geotechnical exploration study and tower bridge repairs at Coyote 
Valley Dam, and that $564,000 be included for a spillway erodibility 
study, reservoir sediment survey, and water control manual update at 
Warm Springs Dam.
BODEGA BAY
    Bodega Bay, a critical harbor of refuge, is located about 60 miles 
north of San Francisco, and is home to a Coast Guard search-and-rescue 
station which performed about 250 rescue missions in 2013.
    It is home, as well, to a substantial commercial fishing fleet of 
about 300 vessels (500 in-season), as well as an economically 
significant sport fishing industry (about 600 vessels in-season) and 
recreational craft. In 2012, nearly 25% of the total Chinook salmon 
landings in California, and over 10% of Dungeness crab California 
landings, came through Bodega Bay. Notably, because of domoic acid 
poisoning, the Dungeness crab fishery was closed for virtually the 
entire season last year, devastating the local industry and those who 
depend on it for their livelihoods. The Department of Commerce is 
currently considering whether a commercial fishery failure has occurred 
and whether Disaster Assistance will be available.
    The Corps O&M schedule for Bodega Bay provides for periodic 
inspection and repair of three breakwaters and maintenance dredging of 
the federal channel, including three turning basins, on an 11-year 
cycle to a depth of 12 feet Mean Lower Low Water. Recent sounding 
surveys indicate that shoaling is occurring and that dredging is 
required now. The last dredging episode was in 2004.
    I appreciate that $750,000 was included in the FY '16 work plan to 
complete all environmental work and plans and specifications as 
required for dredging of the entire (federal) channel, and $4.285 
million in the FY '17 budget, which is deemed to be sufficient to 
dredge the entrance channel. For the Corps to conduct dredging of only 
the entrance channel in the coming months, and then demobilize the 
equipment only to remobilize the dredge at some later date when 
additional funding becomes available to dredge the remainder of the 
harbor would add dramatically to the project's cost at that time and so 
unnecessarily waste valuable federal resources.
    With groundings occurring, particularly among transient vessels, 
and high tide exit and entry generally required; it is now essential 
that funding be budgeted sufficient to dredge the remainder of the 
federal channel.
    To best utilize scarce federal resources, and to prevent future 
difficulties for our devastated fishing industry, I would strongly urge 
that $4 million be provided in either the FY '17 work plan or FY '18 
budget request, sufficient to dredge the entire Bodega Bay federal 
channel.
CORTE MADERA CREEK FLOOD CONTROL PROJECT
    The Corte Madera Creek Flood Control Project received $400,000 in 
the FY '15 work plan and $520,000 in the FY '16 work plan and the 
Project Design Team is working toward meeting its second project 
milestone. In order to meet or remain close to the milestones set out 
by the San Francisco District Engineer, an additional $1,080,000 is 
required in the General Investigations (GI) budget to provide funding 
for a review of the final array of alternatives, an Alternatives 
Formulation Briefing, and completion of the Final EIR/EIS 
documentation. This total amount includes $880,000 for study costs and 
$200,000 for independent review. Of this, $400,000 needs to be included 
in any Army Corps work plan that Congress directs to be prepared for FY 
'17 and $680,000 in the Administration's FY '18 budget request.
    Three of four phases of the Corte Madera project have been 
constructed, and the requested funds will complete a feasibility study 
for the final phase of the project that includes Unit 4 and potential 
modifications to previous phases (Units 1, 2 and 3). While 75% of the 
project has been constructed, it is less than 25% effective without 
Unit 4. This final phase will allow the project to function at a level 
agreed upon by all stakeholders.
    The Corte Madera Creek Flood Control project is critical to the 
broader Ross Valley Flood Protection and Watershed program, a region-
wide, four-municipality, multiple community effort to address chronic 
flooding in the Ross Valley. A suite of creek improvement measures has 
been identified to reduce and contain 100-year flows within the main 
stem of Corte Madera Creek. Notably, residents have agreed to tax 
themselves $44 million over 20 years to fund this program. The federal 
Corte Madera Creek project is at the downstream end of all proposed 
measures and must be completed for all present and future efforts of 
the local community to achieve a level of flood protection that will 
contain a 100-year flood event.
    In conjunction with the other measures to be undertaken and for 
which residents have agreed to tax themselves, the Corte Madera Creek 
Flood Control project will substantially improve flood control and play 
a key role in preventing the level of loss seen in our 2005-2006 winter 
storms. These storms resulted in approximately $100 million in damage, 
affecting over 240 homes, 75 retail and commercial structures, two 
elementary schools, the College of Marin campus, two post offices, the 
Ross Town Hall, and police and firehouses in the Towns of Ross, San 
Anselmo, and Fairfax.
    On September 13, 2013, the Project Design Team that included 
representatives from the USACE, Marin County Flood Control and Water 
Conservation District, the Marin County Board of Supervisors, and my 
office conducted a SMART planning charrette. The outcome of the 
charrette was a determination of continued federal and local interest 
in the project.
    Again, the Corte Madera Creek Flood Control project will be of 
tremendous benefit to the people and County of Marin. As such, I urge 
that $400,000 for the study be included in the FY 17 Work Plan and an 
additional $680,000 be included in the FY 18 budget request.
REDWOOD CREEK
    Along the North Coast, Humboldt County is continuing to work with 
stakeholders and landowners along Redwood Creek for the improvement of 
the USACE flood control project. Built after the 1964 flood to protect 
the town of Orick, these levies, while important for local flood 
control, do not convey enough sediment to prevent a buildup of 
materials. Furthermore, they were not designed to ensure that local 
fish species, including federally protected species, were not harmed. 
Despite tens of millions of dollars in restoration work done by the 
federal government upstream, the National Marine Fisheries Service has 
issued a draft jeopardy opinion on the project, which may further 
reduce the county's ability to remove gravel from the project area. 
USACE will need to at least be a permitting agency, and may need to be 
the action agency for this new project. I urge inclusion of the 
associated costs of leading on this project in the USACE's budget.
        Sincerely,
                                   Jared Huffman
                                           Member of Congress

                               __________

                                                  October 19, 2018.
The Honorable R.D. James
Assistant Secretary of the Army for Civil Works
    Dear Assistant Secretary James:
    With the on-time enactment of the FY 2019 Energy and Water 
Development Appropriations bill, Congress has fulfilled its 
responsibilities for funding a portion of our federal government. As 
such, the US Army Corps of Engineers received $6.84 billion for its 
Civil Works Program. This is good news for the many vital projects 
carried out by the Corps, and I write to request your personal 
attention to two projects where the money appropriated by Congress can 
provide critical support for the communities I represent. As you 
complete a work plan with the funds provided by Congress, and knowing 
that you are developing a budget for FY 2020 and will also consider 
reprogramming requests in the months ahead, please remember the 
importance of dredging the Petaluma River and the San Rafael Channel.
    The Corps is responsible for both navigation and flood plain 
protection maintenance dredging of the Petaluma River's federal channel 
to a depth of eight feet and widths varying from 100 feet to 300 feet. 
Prior to 2003, the channel was dredged every three to four years to 
maintain channel depth. It has not been dredged since 2003, and the 
across-the-flats section was last dredged in 1998. Shoaling in the 
Upper Petaluma River is already impacting commercial traffic as barging 
companies curtail operations and the capacities of barges. Barge 
companies that have modified their capacity to transport products will 
either have to relocate or cease operations as conditions worsen. The 
lack of dredging has also negatively impacted recreational boating 
traffic vital to downtown commercial establishments, as well as 
impacting the Sheriff's office, whose boat at the Marina cannot be used 
at low tide.
    The Preliminary Assessment completed by the Corps in 2015 
recognized the continued economic viability of the project and 
identified significant regional economic impacts if the maintenance 
dredging was left unfunded. Among the many negative impacts will be 
worsening traffic on adjacent roads, as a single 4,000-ton barge 
carries freight equivalent to that of 160 25-ton trailer trucks. 
Highway 101, which serves in part as an alternate route, already 
experiences some of the worst traffic congestion in the entire San 
Francisco Bay Area. The addition of such freight traffic would add to 
this congestion along with associated safety and air quality impacts.
    The FY 2017 work plan included $600,000 for engineering and design 
of the project. I urge that $500,000 be made available in the FY 2019 
work plan for engineering and environmental compliance, with additional 
funding provided in the FY 2020 budget as needed to conduct the 
necessary maintenance dredging.
    Similarly, the San Rafael Canal is a vital waterway for navigation 
and storm water drainage, and an important economic engine in the City 
of San Rafael and County of Marin. The lack of dredging is becoming a 
public safety issue as the San Rafael Police and Fire Department has 
taken over emergency services and search and rescue operations in the 
Channel for the Coast Guard and needs immediate and open access. The 
Police and Fire Department water search and rescue operations are based 
in the Channel and access and capacity for bay patrols, rescues, and 
other public safety activity is absolutely critical. The lack of 
dredging is interfering with the City's ability to effectively respond 
in the event of an emergency. Further, it poses an elevated flood risk 
to the 12,000 residents in the low-lying area FEMA flood zone area 
which rely on 12 City-operated stormwater pump stations which empty 
directly into the Channel.
    More than 800 homes and 100 businesses and commercial properties 
are located directly along the San Rafael Canal, where approximately 
1,500 commercial and recreational vessels are berthed--generating 
significant sales and property tax revenues. In fact, the San Rafael 
Chamber of Commerce has cited that two-thirds of San Rafael's total 
sales tax revenues are generated in East San Rafael, the area directly 
adjacent to and impacted by the Channel. Unfortunately, a a consequence 
of the failure to address the storm-driven sediment and dredge the 
Channel, incidents of boaters becoming stuck in sediment have become 
increasingly common, and marina operators have indicated a difficulty 
in renting berths because of the limited access. The siltation 
situation and resulting low depth of the Channel has become so grave 
that some marine maintenance businesses are relocating their operations 
outside of San Rafael due to the limitations on vessels entering and 
leaving the Channel; and those businesses that remain can only intake 
vessels from customers at high tide.
    The last full dredging of the San Rafael Channel was in 2002. Last 
year, as a result of the Presidentially-declared flood disasters in 
2017, sediment from the hillsides deposited directly into the Channel. 
The San Rafael Creek federal channel was authorized by the Rivers and 
Harbors Act of 1919 and was completed in 1928. Since 1930, the Corps 
has dredged the Canal on thirteen separate occasions. In recognition of 
this historic work of the Corps in the Channel, S.Rept. 115-258, 
accompanying the Energy and Water Development Appropriations bill for 
2019 includes language that ``urges the Corps to prioritize dredging of 
the San Rafael Canal.''
    For the thousands of businesses and residents who rely on the safe 
navigability and drainage functions of the San Rafael Canal, and depend 
on the waterway for fire protection, emergency access, and evacuation, 
I urge that the FY 2019 work plan provide $10.5 million as needed for 
the environmental analysis, engineering, and dredging of the Canal.
    Both the Petaluma River and the San Rafael Channel are in need of 
immediate assistance, and it my hope that through the FY 2019 work 
plan, as well as through opportunities afforded by reprogramming of 
funds, the Corps will continue to serve as a federal partner for the 
communities I represent. Thank you for your continued work. I 
appreciate your attention to this request.
        Sincerely,
                                   Jared Huffman
                                           Member of Congress

                               __________

                                                  January 30, 2019.
The Honorable Mick Mulvaney
Director, United States Office of Management & Budget
R.D. James
Assistant Secretary of the Army for Civil Works
    Dear Director Mulvaney and Assistant Secretary James:
    As you continue to formulate the U.S. Army Corps of Engineers' 
budget for Fiscal Year (FY) 2020, we urge you to fully consider several 
vital dredging projects in our Congressional districts.
    Chief among these are dredging of the Suisun Bay Channel, the 
Larkspur Ferry channel, the Petaluma River, the San Rafael Channel, and 
the San Pablo Bay-Mare Island Strait-Pinole Shoal shipping channel. 
These waterways are essential to commuters and commercial enterprise in 
our districts, underpinning thousands of jobs, and each is in need of 
either immediate or near-term dredging.
    With respect to both Suisun Bay and the San Pablo Bay-Mare Island-
Pinole Shoal shipping channel, previously allocated dredging funds have 
proven insufficient to ensuring safe passage of crude oil tankers, 
cargo ships, and military and other commercial vessels. The situation 
is dire enough that oil tanker groundings have already occurred in 
Suisun Bay, while the Corps ceased annual dredging of the Pinole 
Shoal--authorized to be dredged to a depth of 35 feet--nearly 20 years 
ago. Similarly, the Corps last dredged the Mare Island strait in 1996.
    With regard to the maintenance of the Petaluma River, the Corps' 
own Preliminary Assessment--completed in 2015--recognized the continued 
economic feasibility of the project, and identified significant 
economic consequences if the dredging was left unfunded. However, while 
the Corps is responsible for navigation and flood plain protection 
dredging, no dredging has occurred since 2003. Shoaling in the Upper 
Petaluma River is already impacting commercial traffic as barging 
companies curtail both capacity and operations. Worsening conditions 
will eventually force barge operators to cease business, devastating 
commercial enterprises along the river.
    The San Rafael channel is a vital waterway for navigation and storm 
water drainage, and an important economic engine in the City of San 
Rafael and County of Marin. The channel, last fully dredged in 2002, 
naturally fills with sediment from bay tidal action and upland erosion 
and runoff. Incidents of boaters becoming stuck in sediment have become 
increasingly common, leading marina operators to experience growing 
difficulty in renting berths because of limited access dependent on 
tides.
    Lastly, the Larkspur Ferry channel is traversed by some 1.6 million 
people per year, nearly 90 percent of whom are daily commuters. The San 
Francisco Ferry Terminal, the destination or origin for the ferry, is 
within walking distance of 300,000 jobs and has intermodal connections 
to numerous regional transit systems, including Bay Area Rapid Transit 
(BART).
    This reliable service will be jeopardized without proper 
maintenance of the ferry channel, as authorized by language included in 
the 2007 Water Resources Development Act. We are told that additional 
maintenance dredging of the Larkspur Channel will be needed by no later 
than 2021, dredging which is critical not only to hundreds of thousands 
of commuters but also to the small commercial and recreational fleets 
which utilize the Channel.
    Each of these dredging projects is essential to both the daily 
lives of our constituents and the regional economy. Multiple 
industries, supporting tens of thousands of jobs, rely on dependable 
access to regional waterways for both shipping and commuting. As such, 
we urge you to fully consider these projects in formulating your FY 
2020 budget request.
    Please do not hesitate to contact our offices if we may be of 
assistance.
        Sincerely,
                                   Mike Thompson
                                           Member of Congress
                                   Jerry McNerney
                                           Member of Congress
                                   Mark DeSaulnier
                                           Member of Congress
                                   Jared Huffman
                                           Member of Congress
                                   Doris Matsui
                                           Member of Congress

                                 <F-dash>
Statement of the American Society of Civil Engineers, Submitted for the 
                       Record by Hon. Napolitano
                              introduction
    The American Society of Civil Engineers (ASCE) appreciates the 
opportunity to submit our position on the importance of long-term, 
strategic investment in our nation's ports infrastructure. ASCE also 
thanks the U.S. House of Representatives Transportation and 
Infrastructure Subcommittee on Water Resources and Environment for 
holding a hearing on this critical issue. ASCE is eager to work with 
the Subcommittee in the 116th Congress to ensure both full 
appropriation of Harbor Maintenance Trust Fund (HMTF) revenues and that 
the funds be utilized for its designated purpose.
  asce's ``2017 infrastructure report card'' and 2016 economic study, 
    ``failure to act: closing the infrastructure investment gap for 
                      america's economic future''
    Infrastructure is the foundation that connects the nation's 
businesses, communities, and people, serves as the backbone to the U.S. 
economy, and is vital to the nation's public health and welfare. Every 
four years, ASCE publishes the Infrastructure Report Card, which grades 
the nation's 16 major infrastructure categories using a simple A to F 
school report card format. The Report Card examines the current 
infrastructure needs and conditions, assigning grades and making 
recommendations to raise them.
    ASCE's 2017 Infrastructure Report Card rated the overall condition 
of the nation's infrastructure a cumulative grade of ``D+'' across 
sixteen categories, with an investment gap of $2 trillion. The Report 
Card gave our nation's ports infrastructure category a grade of ``C+.''
    Additionally, ASCE's 2016 economic study, Failure to Act: Closing 
the Infrastructure Investment Gap for America's Economic Future, found 
that our nation's deteriorating infrastructure and growing investment 
deficit has a cascading effect on our nation's economy, impacting 
business productivity, gross domestic product (GDP), employment, 
personal income, and international competitiveness; in fact, our 
failure to act by 2025 carries an enormous economic cost to the tune of 
nearly $4 trillion in lost GDP, which will result in a loss of 2.5 
million jobs in 2025.
    The economic consequences of our nation's infrastructure 
deficiencies also extend to families' disposable incomes, with each 
household in the U.S. losing $3,400 each year through 2025; if left 
unaddressed, the loss will grow to an average of $5,100 annually from 
2026 to 2040. It is possible to close the infrastructure investment gap 
and avoid the economic consequences caused by this deficit, but it will 
require sustained and robust investment.
              ports and the harbor maintenance trust fund
    Our nation's 926 ports support over 23.1 million jobs, provide 
$321.1 billion in tax revenue to federal state, and local governments, 
and are responsible for $4.6 trillion in economic activity, or roughly 
26 percent of the nation's economy--making them essential to U.S. 
competitiveness. Our ports serve as the gateway through which 99 
percent of America's overseas trade passes, and the top 10 U.S. ports 
accounted for 78 percent of U.S. foreign waterborne trade in 2015. 
However, the investment gap for inland waterways systems and ports is 
expected to be $1.5 billion by 2025.
    In a 2015 survey \1\ of ports, a third indicated that congestion 
over the past ten years resulted in a 25 percent decrease in port 
productivity. Few of our nation's ports can accommodate the large ships 
that pass through the Panama Canal, so to remain competitive in the 
global market and to accommodate these larger vessels, ports have been 
investing in their facilities and plan to spend over $154 billion from 
2016 to 2020 on expansion, modernization, and repair. Ports, however, 
are contending with larger container ships and do not always have 
adequate access to the user-fee funded Harbor Maintenance Trust Fund 
(HMTF), which would help these facilities prepare for larger vessels.
---------------------------------------------------------------------------
    \1\ American Association of Port Authorities, 2015 Port Surface 
Freight Infrastructure Survey, April 2015
---------------------------------------------------------------------------
    Enacted in the Water Resources Development Act of 1986, the Harbor 
Maintenance Tax (HMT) is a fee (0.125 percent of the value of cargo) 
collected from users of our nation's maritime transportation system 
that is then used by the U.S. Army Corps of Engineers (USACE) to dredge 
harbors. Despite the significant dredging needs at the majority of U.S. 
ports, the fund's revenues have frequently not been appropriated for 
its designated purposed, instead being used for federal deficit 
offsets. ASCE strongly supported the provision in the Water Resources 
Reform and Development Act (WRRDA) of 2014 that created a phased-in 
approach to reach full use of HMT revenues by FY2025 and that set 
incremental spending targets each year until full use.
    The HMTF's balance currently sits at over $9 billion. Once fully 
funded, it will take five years of complete HMTF appropriations to 
dredge and restore channel depths and widths. ASCE urges the 
Subcommittee to continue implementing the WRRDA 2014 agreement by 
increasing expenditures accordingly and ensuring that HMT revenues are 
used only for its intended purpose.
                               conclusion
    ASCE believes Congress must prioritize the investment needs of our 
ports infrastructure to protect our nation's economy and millions of 
jobs, and to ensure we remain internationally competitive. ASCE thanks 
the Subcommittee for holding this hearing and bringing attention to 
this critical matter. We look forward to working with you to find 
investment solutions to our nation's ports infrastructure.

                                 
Statement of the Association of Equipment Manufacturers, Submitted for 
                     the Record by Hon. Napolitano
    Dear Chairwoman Napolitano and Ranking Member Westerman:
    The Association of Equipment Manufacturers (AEM) appreciates the 
opportunity to submit a statement for the record on today's hearing on 
``The Cost of Doing Nothing: Why Full Utilization of the Harbor 
Maintenance Trust Fund and Investment in Our Nation's Waterways 
Matter.'' AEM represents more than 1,000 equipment manufacturers in the 
construction, agriculture, forestry, and mining sectors who employ 
nearly 1.3 million individuals in the U.S. and contribute nearly $159 
billion to the country's GDP.
    Infrastructure matters to AEM members who not only use it to move 
product to market, but who also make the equipment that builds it and 
rely upon it to keep the economic sectors it is connected to strong. 
For example, the health of the equipment manufacturing industry is 
directly impacted by the health of the U.S. agriculture economy and the 
many factors that influence it, factors that include the inland 
waterways and ports that move commodities from farm to market. Our 
crumbling U.S. infrastructure threatens to undermine not only the 
important role the equipment manufacturing industry plays in the U.S. 
economy, but also to destabilize a key economic sector that our 
members' products help sustain, the agricultural sector.
    Our nation's waterways and port infrastructure play a significant 
role in connecting goods and agricultural commodities with consumers 
domestically and globally. They represent one of the most cost-
effective, fuel-efficient, and safe modes of freight transport 
domestically. U.S. farmers and ranchers depend heavily on water 
infrastructure to deliver the food and fiber they produce to the world. 
In fact, more than 70 percent of U.S. agricultural exports, valued at 
nearly $130 billion, are conveyed by water.
    However, this critical transportation network is severely outdated, 
in need of repair and prone to delays and inefficiencies that put the 
health of the U.S. agriculture sector at risk. For example, many of the 
locks and dams within the inland waterway system are obsolete and have 
long exceeded the period of use for which they were designed. U.S. 
harbors coast to coast are unable to accommodate the largest freight 
vessels leading to delayed shipments, increased costs, and diminished 
capacity to export products abroad. Patchwork repairs required over the 
past decade have led to a 700 percent increase in unplanned stoppages. 
The cost of doing nothing when it comes to repairing and modernizing 
our nation's harbors and waterways is high.
    In order to reclaim the U.S. infrastructure advantage that we once 
enjoyed, we need to ensure that the proper resources are being invested 
to not only meet a state of good repair but also build new 
infrastructure for the 21st century. This means that funds should be 
applied consistently to the projects for which they were raised. In the 
case of the Harbor Maintenance Trust Fund (HMTF), we have seen the 
consequences of failing to apply funds for their designated purpose. 
The HMTF is meant to be used for dredging harbors and channels to 
maintain navigability and increase ship size capacity in a Post-Panamax 
era. Despite growing dredging needs at U.S. harbors, Congress has often 
diverted the HMTF to offset budget deficits allowing dredging projects 
to pile up and the U.S. to fall further behind in waterborne freight 
capacity. AEM supports past proposals from Chairman Peter DeFazio to 
ensure that funds meant for the HMTF remain designated and available 
for harbor maintenance projects--and those projects only. Further, AEM 
supports prioritizing funding for the current backlog of 25 critical 
inland waterways projects and maintaining water resource bills on a 
two-year cycle. Taking these steps will provide much needed certainty 
and predictability to the agricultural sector and by extension, the 
equipment manufacturing industry.
    Our nation's harbors and inland waterways are vital to the success 
of the equipment manufacturing industry, the agricultural sector, and 
all sectors of the U.S. economy. We urge Congress to provide the funds 
necessary to maintain and upgrade crucial infrastructure projects and 
prevent future efforts to divert those funds to other government 
spending areas. Practical and pragmatic efforts will help ensure that 
we reclaim the infrastructure advantage we once had. AEM commends the 
Subcommittee on Water Resources and Environment for holding this 
important hearing and stands ready to work with the Subcommittee and 
full Committee to craft a comprehensive legislative package that 
addresses the needs of our harbors and waterways, and all of our 
nation's transportation and infrastructure assets.

                                 
 Letter from Captain John W. Murray, Port Director and CEO, Canaveral 
      Port Authority, Submitted for the Record by Hon. Napolitano
                                                    April 16, 2019.
Hon. Grace Napolitano
Chair
House Water Resources and Environment Subcommittee, U.S. House of 
        Representatives
Hon. Bruce Westerman
Ranking Member
House Water Resources and Environment Subcommittee, U.S. House of 
        Representatives

    Re: House Transportation and Infrastructure Water Resources and 
Environment Subcommittee Hearing: ``The Cost of Doing Nothing: Why Full 
Utilization of the Harbor Maintenance Trust Fund and Investment in Our 
Nation's Waterways Matter''--April 10, 2019

    Dear Chairwoman Napolitano and Ranking Member Westerman,
    We join with ports and related maritime stakeholders across the 
country in thanking you for holding a hearing in your Subcommittee last 
week to address the importance of ports and waterways to this country. 
As you pointed out at the hearing, ports are an important engine for 
economic growth throughout the United States. We facilitate trade, 
provide hundreds of thousands of jobs, and generate very positive 
economic activity for our regions.
    Here in Florida, Port Canaveral is world class gateway for the 
cruise, tourism and commercial shipping industries. We are the homeport 
for some of the world's top cruise lines and are the second busiest 
cruise port in the world with more than 4.5 million passenger movements 
annually. Our economic impact exceeds $2.2 billion each year for the 
Space Coast and Central Florida region.
    As one of the most active ports in the country, we rely heavily on 
the harbor maintenance and dredging services provided by the United 
States Army Corps of Engineers (Corps). We could not provide our high 
degree of service to cruise lines and commercial shipping companies 
without the ongoing cooperation and assistance of the Corps. As was 
highlighted at your hearing, the Corps receives funding for its harbor 
maintenance and dredging activities through the Harbor Maintenance Tax 
(HMT).
    As you know, the HMT and the Harbor Maintenance Trust Fund (HMTF) 
were first created in 1986 to fund ``the eligible operations and 
maintenance costs assigned to commercial navigation of all harbors and 
inland harbors within the United States.'' (WRDA 1986; P .L. 99-662). 
The HMT is assessed against the value of imports arriving at United 
States ports with federally-maintained harbors and the revenue 
generated from the HMT is then deposited into the HMTF. Congress 
subsequently appropriates funds from the HMTF on an annual basis for 
maintenance dredging, dredged material disposal areas, jetties and 
breakwaters. It is important to underscore that since its inception, 
the HMTF has been used for these harbor maintenance purposes, not for 
landside infrastructure or other port-related activities.
    With this background in mind, we noted with interest that Eugene 
Seroka, Executive Director of the Port of Los Angeles, testified at 
last week's hearing that ``we have industry unanimity on the subject of 
the Harbor Maintenance Trust [Fund] and how to allocate to the so-
called donor ports like Los Angeles''. We believe Mr. Seroka's 
reference is to a proposal put forward by the American Association of 
Port Authorities (AAPA) to reform the HMTF and allow HMTF revenues 
under certain circumstances to be allocated to ports for landside 
infrastructure.
    We want to correct the record to make it clear that Port Canaveral 
does not support the AAPA proposal and any amendment to the HMTF that 
would deviate from its long-stated objective of providing funds for 
channel maintenance and harbor management. I hasten to add that we are 
fully supportive of efforts to require that all of the HMTF revenues be 
spent on their intended purpose (ie, harbor maintenance and dredging), 
but we are not supportive of expanding the currently authorized uses of 
those funds in the manner that AAPA proposes.
    We commend you for your focus on the needs of the ports and 
waterways of this country. We look forward to working with you on this 
and other initiatives of your Subcommittee.
        Sincerely yours,
                                   Captain John W. Murray
                                           Port Director and CEO
                                           CANAVERAL PORT AUTHORITY

                                
   Letter from Nicole Vasilaros, Senior Vice President of Government 
Relations and Legal Affairs, National Marine Manufacturers Association, 
                Submitted for the Record by Hon. DeFazio
                                         Wednesday, April 10, 2019.
Hon. Peter DeFazio
Chair
Committee on Transportation and Infrastructure, U.S. House of 
        Representatives
Hon. Sam Graves
Ranking Member
Committee on Transportation and Infrastructure, U.S. House of 
        Representatives
Hon. Grace Napolitano
Chair
Subcommittee on Water and Environment, U.S. House of Representatives
Hon. Bruce Westerman
Ranking Member
Subcommittee on Water and Environment, U.S. House of Representatives
    Dear Chair DeFazio, Ranking Member Graves, Chair Napolitano, and 
Ranking Member Westerman:
    On behalf of the National Marine Manufacturers Association (NMMA) I 
thank you for convening ``The Cost of Doing Nothing: Why Full 
Utilization of the Harbor Maintenance Trust Fund and Investment in our 
Nation's Waterways Matter'' hearing. NMMA agrees that expedited 
investments in our nation's ports, harbors, and waterways are critical 
to supporting the continued economic growth of the commercial and 
recreational maritime industries.
    By way of background, NMMA is the leading recreational marine trade 
association in North America, representing nearly 1,300 boat, marine 
engine, and accessory manufacturers. Recreational boating is a 
significant contributor to the U.S. economy, generating $170.3 billion 
in annual economic impact that supports more than 35,000 businesses and 
691,000 jobs. Additionally, the outdoor recreation economy as a whole--
which is driven by boating and fishing and includes RVing, guided 
tours, and motorcycling and ATVing--accounts for 2.2% of U.S. GDP, $734 
billion in gross economic output, and 4.5 million jobs. In terms of 
GDP, outdoor recreation is larger than mining, utilities, and chemical 
products manufacturing.
    Outdoor recreation is a substantial and rapidly increasing part of 
the U.S. economy. For our industry--and the entire U.S. economy--to 
continue to grow, it is essential that port maintenance and dredging 
projects are sufficiently funded to create jobs in coastal and inland 
waterway communities, improve access for water-based recreational 
activities, and make conditions safer for the recreational boating and 
angling communities.
    The Harbor Maintenance Trust Fund (HMTF) was created to ensure that 
our nation's harbors would always be properly dredged and fully 
operational, yet much of the fund's annually collected revenue doesn't 
make its way back to where it was originally intended and is 
desperately needed. In fact, the U.S. Army Corps of Engineers (Corps) 
estimates that full channels at the nation's 59 busiest ports are 
available less than 35 percent of the time. The result of insufficient 
funding for maintenance and dredging projects is deterioration of our 
nation's ports, harbors, and waterways that support thousands of jobs 
and commercial and recreational economic development nationwide.
    There are sufficient funds in the HMTF to meet the maintenance 
dredging needs of all federally-authorized ports. Full utilization of 
the fund would provide the necessary funding to enable the Corps to 
dredge all federal commercial harbors to their constructed widths and 
depths. Improperly dredged channels exacerbates user conflict in our 
busy ports and harbors, impacting safety and important access for 
recreational boaters as well.
    NMMA also encourages the committee to consider reforming the Corps' 
dredging project prioritization process to accurately account for the 
economic benefits of investing in projects that facilitate recreational 
use. Under the current process, the Corps give priority to coastal 
harbors and inland waterways with the most commercial traffic and also 
provides priority for maintenance of channels at small ports that 
support significant commercial fishing, subsistence, or public 
transportation benefits.
    This flawed system fails to properly account for lower tonnage 
harbor needs and the value created by access for recreational 
activities--effectively putting boaters and the recreational boating 
industry's $170.3 billion annual economic activity at a disadvantage. 
Low tonnage, recreational based ports are critical access points for 
marinas and coastal communities where businesses depend on marine 
recreation-based economic activity. Additionally, without sufficient 
dredging in these areas, some recreational boaters are forced to use 
high traffic commercial channels, which can lead to potential user 
conflicts and safety concerns.
    The prioritization process should be amended to ensure that a 
percentage of existing available funds be allocated for three different 
categories: High-Tonnage, Low-Tonnage and Commercial or Recreational 
ports. In addition, increases in social, cultural, and environmental 
benefits should be considered in the allocation of the three funding 
categories where appropriate.
    We also recommend that the committee direct the Corps to study 
alternative and recyclable solutions for disposal of dredged materials, 
thereby forgoing the continued traditional landfill disposal of dredged 
material and deliver multiple economic and environmental benefits to 
local economies. Due to the naturally occurring process of 
sedimentation, overtime rivers, lakes, harbors, and bays can become 
filled with debris, sand, mud, silt, and other materials that reduce 
waterway depths making them difficult to navigate--posing environmental 
and safety hazards. Proper dredging of these sediment materials plays a 
critical role in maintaining clean and healthy waterways for local 
ecosystems and providing access to the recreational boating and angling 
communities. The Corps estimates that hundreds of millions of cubic 
yards of dredged materials need to be excavated each year to keep the 
nation's waterways open for commercial and recreational use. Exploring 
options to increase the use of alternative and recyclable solutions 
will facilitate new opportunities to more efficiently and sustainably 
deliver economic, environmental, and societal benefits through the 
disposal of dredged materials.
    The Federal government has a responsibility to maintain the 
nation's ports, harbors, and waterways. Applying the full balance of 
the HMTF to harbor maintenance projects will ensure the fees collected 
in the fund are not diverted from critical dredging projects but used 
to deliver an economic boost to the U.S. commercial and recreational 
boating industries that depend on well maintained waterways. NMMA 
appreciates your consideration and stands ready to assist you and the 
committee through this important endeavor.
        Sincerely,
                                   Nicole Vasilaros
                                           Senior Vice President of 
                                               Government Relations and 
                                               Legal Affairs
                                           National Marine 
                                               Manufacturers 
                                               Association


                                Appendix

                              ----------                              


Questions from Hon. Grace F. Napolitano for Eugene D. Seroka, Executive 
          Director, Port of Los Angeles, San Pedro, California

    Question 1. Mr. Seroka, what expanded uses of harbor maintenance 
are you advocating for specific to the Port of Los Angeles? Can you 
give specific examples of projects that the Port would be interested in 
carrying out with expanded use authorities that are not currently 
eligible today? Can you further explain why you need expanded uses?
    Answer. At the April 10, 2019, House Transportation and 
Infrastructure Subcommittee on Water Resources and Environment Hearing 
you posed an important question on potential expanded uses that the 
Port of Los Angeles would like to see made eligible as Harbor 
Maintenance Trust Fund (HMTF) expenditures by donor ports. Currently, 
the Port of Los Angeles has over $250 million in basic harbor 
maintenance needs that while vital, are not eligible under current 
authorities. Consequently, expending additional funds without expanding 
the uses for these funds, neglects key in-water infrastructure needs of 
major ports like Los Angeles.
    Our seven container terminal wharfs need repairs to cracked and 
spalled concrete, corrosion damage in piles, wharf decks, beams, and 
soffits (Attachment A). These are essential for safe and efficient 
loading and unloading of containers and to support the needs of modern 
ships. None of these repairs are eligible under existing expenditure 
authorities, despite being fundamental maintenance needs.
    Four of our seven Marine Oil Terminal Engineering and Maintenance 
Standards (MOTEMS) wharfs are currently programmed for upgrades to 
comply with state seismic safety standards. This includes the 
reinforcement of moorings, piles, berthing and loading platform 
improvements. These crucial safety upgrades are not eligible for HMT 
revenue expenditures under the current authorization.
    Capital berth dredging and navigation improvements, such as 
widening of our West Basin turning basin, should also be made eligible. 
These improvements are needed to receive larger ships and maintain our 
competitive status in global shipping. Our current configuration is not 
optimal for receiving and servicing increasingly large ships.
    Expanding the uses of HMTF funds for donor ports must be linked to 
any increases in funding to address the basic maintenance needs of the 
nation's largest ports in order to achieve the revenue stream's 
objectives. Linking expenditures and programmatic reforms are essential 
for achieving optimal and effective maintenance of the nation's ports 
and harbors.
    Thank you for your leadership on this important issue. Please feel 
free to contact me for any other questions on HMTF reform or harbor 
maintenance issues.
    attachment a: illustrations of cracked and spalled concrete and 
  corrosion damage that are not eligible for hmt revenue expenditures
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]


 Questions from Hon. Angie Craig for Kevin Ross, First Vice President, 
            National Corn Growers Association, Minden, Iowa

For years, American farmers have expressed concerns about the true 
potential of South America's rivaling agricultural production and 
export market--but they were comforted with knowledge that U.S. 
transportation and distribution systems were far superior to keep our 
goods competitive. But that may no longer be the case. As Mr. Ross 
stated, and I quote

``Continued low commodity prices and consecutive years of declining 
farm income, coupled with recent trade disruptions, and the aging 
infrastructure systems of locks and dams are taking a toll on 
farmers.''

Especially after the massive shockwave retaliatory tariffs have imposed 
on our farmers, South American agriculture is even more affordable and 
. . . accessible. There have been extensive infrastructure investments 
all over the continent to facilitate getting their exports to port 
quicker. Before long, our decaying locks and ports will overcome the 
strategic geography of our inland waterways. We must keep up with 
global investment.
    Question 1. Mr. Ross, can you elaborate how U.S. farmers are 
feeling the pressure of infrastructure investments being made abroad 
meanwhile faltering here in the United States? Especially with stocks 
of commodities held in grain bins and ports across the US, how can 
increased investment make us more competitive in the context of 
retaliatory tariffs?
    Answer. For years, the American farmer's ability to quickly and 
efficiently ship their product to the marketplace via our 
transportation and infrastructure system has made U.S. agricultural 
exports highly competitive on a global scale. Brazil, a leading global 
competitor to the U.S. in corn exports, has a lower cost of corn 
production due to a lower land and labor cost than the U.S. It is the 
higher transportation costs in South America that make exports more 
expensive for grain importers compared to U.S. corn. Brazil moves most 
of its corn from truck to ports, and transportation costs account for 
approximately 36% of those export costs.\1\ Transportation costs are 
only 16% for U.S. corn exports and American farmers can capture more of 
their crop's price than Brazilian competitors because we have options 
to move our corn exports by inland waterways, rail and trucks.
---------------------------------------------------------------------------
    \1\ https://www.ers.usda.gov/webdocs/publications/44087/59672_eib-
154_errata.pdf?v=0
Corn and Soybean Production Costs and Export Competitiveness in 
Argentina, Brazil, and the United States, EIB-154 Economic Research 
Service/USDA
---------------------------------------------------------------------------
    As I stated in my written testimony, 54 percent of corn exports in 
the United States are transported by barge and the inland waterway 
system is a vital artery of transportation for getting product out to 
the marketplace. However, 78 percent of locks and dams already exceed 
their design lifespan and are in need of repairs. The lock and dam 
system on the Mississippi, Ohio, and Illinois Rivers was built in the 
1930s for a 50-year-life-span and a significantly lesser amount of 
barge traffic. This system is well past its useful life and delays are 
common and costly. Similarly, with many rural bridges and roads in need 
of major repairs it's delaying the efficient transportation of our 
products. The saying ``time is money'' holds true in farm country as 
well. Problems within the U.S. transportation system are compounded at 
the farm gate.
    The new Brazilian government is promising to prioritize inland 
infrastructure upgrades and new ports are already in development. 
Modernized transportation infrastructure would help Brazil close the 
gap with the U.S. corn in competitiveness. Brazil is working to erode 
U.S. market share in countries with which we have ongoing trade 
disputes. For example, when the future of the North American Free Trade 
Agreement (NAFTA) was threatened, Brazilian industry courted Mexican 
corn importers seeking to supply a greater share of corn to Mexico, the 
United States' top corn export market. Other commodities that have been 
subjected to large retaliatory tariffs have experienced stark examples 
of lost market share to South American competitors. The prospect of 
losing our long-held edge in infrastructure could not come at a worst 
time. This is an avoidable consequence if we act now.
    Investing in our locks and dams to ensure an efficient 
transportation and infrastructure system is a major priority to the 
National Corn Growers Association. We must maintain and invest in the 
future of our infrastructure system, amplifying our advantage instead 
of continuing to watch its slow and painful erosion.

Question from Hon. Angie Craig for Kirsten Wallace, Executive Director, 
     Upper Mississippi River Basin Association, St. Paul, Minnesota

My district features two Army Corps of Engineers locks along the 
Mississippi River that are integral to the trade flowing up and down 
stream. My district also features environmental treasures that share 
their home with the commerce taking along the riverbed and shores. Both 
need support, protection, and investment.

Ms. Wallace, as you said,

``The Navigation and Ecosystem Sustainability Program is a 
comprehensive and integrated plan for meeting the current and future 
shipping demands, stimulating economic growth, and improving the health 
and resilience of the river ecosystem.''
    Question 1. Unfortunately NESP has been suspended since June 2011 
due to lack of funding by Congress. I intend to change this now that 
I'm here. Ms. Wallace, can you tell me about the history of success of 
the program, and how reinstatement of funding would make a difference 
to my district and the surrounding high-priority areas for improvement?
    Answer. Thank you for your question and your strong support for the 
Upper Mississippi River and the Navigation and Ecosystem Sustainability 
Program (NESP), in particular. NESP includes the construction of a 
second 1,200-foot chamber at the system's seven most congested locks 
(Locks 20-25 on the Upper Mississippi and La Grange and Peoria Locks on 
the Illinois River), small-scale navigation efficiency improvements, 
and a suite of ecosystem restoration projects to increase the quality 
and abundance of fish and wildlife habitat. These planned investments 
in the navigation and ecosystem will have long lasting economic 
benefits to Minnesota and to Minnesota's Second District.
    We understand that ongoing reluctance from the Administration to 
fund NESP is largely a consequence of uncertainty surrounding 50-year 
traffic forecasts. However, numerous economic indicators clearly 
suggest that the river is of national importance and is a backbone 
transportation mode for large and small economic sectors, including 
agriculture, mineral extraction, and manufacturing. Land-based 
transportation modes are operating at or over capacity creating costly 
shipping delays and making the river increasingly attractive to 
suppliers and manufacturers. Shippers, ports, and terminals are working 
collaboratively with suppliers to reestablish container shipping on the 
Mississippi River, including at the St. Paul Port. In addition, 
shippers successfully raised their fiscal contributions to lock 
infrastructure investment through the Inland Waterway Trust Fund. The 
U.S. Department of Transportation is forecasting substantial growth in 
commercial transportation demand on inland waterways and the Upper 
Mississippi River System in particular. Businesses throughout the 
Midwest suggest that the long term reliability of the aged, single-
point-of-failure infrastructure is dampening the utilization of the 
Upper Mississippi River System, but addressing these impediments 
(through NESP and operation and maintenance) will stimulate use of the 
river and alleviate congestion on land-based modes.
    With regard to transportation impacts, the second, 1,200-foot 
navigation chamber at all five locks on the Mississippi River will 
increase the river's reliability by adding redundancy with two lock 
chambers and reduce costs for shippers and consumers by increasing 
efficiency of lock transit times. According to the U.S. Department of 
Commerce in 2013, Minnesota shipped via the Mississippi River over 
fifty percent of its agricultural exports.
    Minnesota also ships on the Mississippi River sand and gravel, 
cement, coal, petroleum, steel, and salt that are essential for 
economic growth and quality of life. In Minnesota's Second 
Congressional District, the maritime industry generates over $200 
million annually in economic impact and over $43 million in worker 
income, according to the American Maritime Industry.
    NESP will also improve conditions for fish and wildlife through the 
construction of fish passage, modified dam operations to restore 
natural river level variability, backwater and island habitat, side 
channel reconnections, among other projects. Collectively, these 
restoration activities will help ensure thousands of species of birds, 
fish and other wildlife continue to thrive in their natural habitats in 
and along the Mississippi River. UMRR projects protect wetlands and 
lakes from fluctuating water levels and high sedimentation, recreate 
islands to provide refuge and food for many species of fish and 
wildlife, and restore natural diversity of water velocities and depths 
to improve fish habitat. Projects help protect against threats from 
invasive species, including Asian carp, that outcompete native fish and 
wildlife for food sources and limited habitat. Still more projects 
restore forest health and diversity.
    Investing in the river's ecosystem strengthens the nation's 
economy--habitat restoration enhances important ecological services and 
uses, such as improved water quality benefiting municipalities, 
manufacturers, and renewable energy sources. Habitat quickly becomes 
available post-construction of these ecosystem restoration projects. 
Wetland vegetation provides waterfowl habitat in just a few years. Fish 
populations increase from new winter habitat in less than five years 
with newly established populations in under 10 years. This results in 
new opportunities for fishing and hunting and other recreation that 
have substantial local and regional economic benefits. Additionally, 
these projects draw in STEM-related education opportunities from 
kindergarten to college.
    NESP includes a suite of ecosystem restoration projects in 
Minnesota's Second Congressional District, which are available in maps. 
Within the District, state and federal habitat practitioners have 
concluded that there has been significant degradation in the quality 
and availability of habitat resulting from high water, sedimentation. 
Restoration in the District will restore the mosaic of wetlands, 
braided channels, and forests. As evidenced by constructed habitat 
projects through the Upper Mississippi River Restoration program, these 
areas create jobs directly and indirectly and draw in tourists and 
recreationists.

                               [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
